No. ________

IN THE

Supreme Court of the United States

d

JPMORGAN CHASE BANK , NATIONAL ASSOCIATION ,
Petitioner,

—v.—

ROSS R. CALIGURI a/k/a ROSS CALIGURI ,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF APPEALS OF THE STATE OF NEW YORK

PETITION FOR A WRIT OF CERTIORARI

JEFFREY HERZBERG
Counsel of Record
Jeffrey Herzberg, P.C.
300 Rabro Drive, Suite 114
Hauppauge, New York 11788
(631) 761-6558
jeff@jherzberglaw.com
Attorneys for Petitioner

i
Ross R. Caliguri (“Caliguri”) petitions for a writ of
certiorari to review the Memorandum Decision of the
Court of Appeals of the State of New York dated
December 17, 2020.
QUESTION PRESENTED
(1) Whether the Court of Appeals of the State of
New York was in a “conflict of interest” position when
it issued its Memorandum Decision dated December
17, 2020 affirming the judgment of the Supreme
Court of the State of New York, Appellate Division,
Second
Judicial
Department
(the
“Second
Department”) in this mortgage foreclosure action in
violation of Caliguri’s 14th Amendment right?
PARTIES TO THE PROCEEDING
Petitioner, Caliguri, was the defendant in this
action and also the appellant in the Court of Appeals
of the State of New York.
Respondent, JPMorgan Chase Bank, N.A. was the
plaintiff in this action and was the respondent in the
Court of Appeals of the State of New York.

ii
TABLE OF CONTENTS
PAGE

QUESTION PRESENTED . . . . . . . . . . . . . . . . . . .

i

PARTIES TO THE PROCEEDING . . . . . . . . . . .

i

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .

v

OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . .

1

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

CONSTITUTIONAL PROVISION
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

STATEMENT OF THE CASE . . . . . . . . . . . . . . . .

3

REASONS FOR GRANTING THE WRIT . . . . .

12

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

29

APPENDIX TABLE OF CONTENTS
Appendix A — Decision and Order of the
New York State Court of Appeals,
dated April 1, 2021 . . . . . . . . . . . . . . . . . . . . . . .

1a

Appendix B — Remittitur and Memorandum
of the New York State Court of Appeals,
dated December 17, 2020 . . . . . . . . . . . . . . . . .

3a

Appendix C — Decision and Order of the
New York State Court of Appeals,
dated June 11, 2019 . . . . . . . . . . . . . . . . . . . . . .

8a

Appendix D — Excerpts of Brief for DefendantAppellant, dated August 6, 2019 . . . . . . . . . .

10a

iii
PAGE

Appendix E — Excerpts Proceedings Transcript,
dated November 17, 2020 . . . . . . . . . . . . . . . . .
14a
Appendix F — Decision and Order of the
New York State Court of Appeals,
dated March 7, 2012. . . . . . . . . . . . . . . . . . . . . .

17a

Appendix G — Summary of the Case of the
New York State Court of Appeals . . . . . . . . .

23a

Appendix H — Summons and Verified Petition
and Complaint in In re Gesmer, et al. v.
The Administrative Board of the New York
State Unified Court System, et al.,
Index No. 616980/20,
dated November 5, 2020 . . . . . . . . . . . . . . . . . .

27a

Appendix I — Article from the New York Law
Journal entitled “Older Appellate Division
Justices Ask Court To Hold DiFiore,
Other Defendants in Contempt,”
dated November 18, 2020 . . . . . . . . . . . . . . . . .

81a

Appendix J — Verified Petition in In re
Supreme Court Justices Association of
the City of New York, Inc., et al. v. The
Administrative Board of the New York
State Unified Court System, et al.,
dated November 24, 2020 . . . . . . . . . . . . . . . . .

85a

iv
PAGE

Appendix K — Order to Show Cause for
Hearing on Article 78 Petition and Complaint
and For Expedited Discovery in In re Gesmer,
et al. v. The Administrative Board of the New
York State Unified Court System, et al.,
Index No. 616980/20,
dated November 5, 2020 . . . . . . . . . . . . . . . . . . 150a
Appendix L — Plaintiff’s Memorandum of Law in
Support of Contempt of Court in In re Gesmer,
et al. v. The Administrative Board of the New
York State Unified Court System, et al.,
Index No. 616980/20,
dated November 18, 2020, with Exhibits . . . 156a

v
TABLE OF AUTHORITIES
PAGE(S)

Cases
Caperton v. A.T, Massey Coal Co.,
556 U.S. 868, 129 S.Ct. 2252,
173 L.Ed.2d 1208 (2009) . . . . . . . . . . . . . . . . . . 22, 26
Hibbs v Winn,
542 U.S. 88, 124 S.Ct. 2276,
159 L.Ed.2d 172 (2004) . . . . . . . . . . . . . . . . . . .

2

Isom v. Arkansas,
_____ U.S. _____, 140 S.Ct. 342,
205 L.Ed.2d 373,
2019 U.S. LEXIS 7195 (2019) . . . . . . . . . . . . .

25

Williams v. Pennsylvania,
136 S.Ct. 1899, 195 L.Ed.2d 132,
2016 U.S. LEXIS 3774 (2016) . . . . . . . . . . . . . 21, 22
Williams-Yulee v. Fla. Bar,
572 U.S. 433, 133 S.Ct. 1656,
191 L.Ed.2d 570 (2015) . . . . . . . . . . . . . . . . . . .

27

Statutes
28 U.S.C. §2101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

28 U.S.C. §2101(c) . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

RPAPL §1501 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

7

Constitutional Provisions
United States Constitution
Fourteenth Amendment . . . . . . . . . . 1, 3, 21, 22, 28

vi
PAGE(S)

Rules
CPLR § 3126 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

15

CPLR § 3211 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

8

CPLR § 3211(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

8

CPLR § 3212 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

8, 15

Supreme Court Rule 13.3 . . . . . . . . . . . . . . . . . . . .

2

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Caliguri respectfully petitions this Court
for a writ of certiorari to review the Memorandum
Decision of the Court of Appeals of the State of New
York dated December 17, 2020. The Court of Appeals
is the highest court in the State of New York Judicial
System.
OPINION BELOW
The Court of Appeals’ Memorandum Decision is
reported at 36 N.Y.3d 953, 160 N.E.3d 693, 136
N.Y.S.3d 225, 2020 N.Y. LEXIS 2870, 2020 NY Slip
Op 07660 (12/17/20) (Appx 5a-7a). The Memorandum
Decision affirmed the decision of the Supreme Court
of the State of New York, Appellate Division, Second
Judicial Department (the “Second Department”)
reported at 168 A.D.3d 819, 92 N.Y.S.3d 95, 2019
N.Y. App. Div. LEXIS 295, 2019 NY Slip Op 00262,
2019 WL 209065 (2nd Dept., 2019).
JURISDICTION
This Honorable Court has jurisdiction to determine
this petition for a writ of certiorari pursuant to the
provisions set forth in 28 U.S.C. §2101 as it pertains
to a violation of Caliguri’s 14th Amendment right. 28
U.S.C. §2101(c) provides:
“Any other appeal or any writ of certiorari
intended to bring any judgment or decree in a
civil action, suit or proceeding before the
Supreme Court for review shall be taken or
applied for within ninety days after the entry of
such judgment or decree.”

2
Herein, the petition for a writ of certiorari is being
timely filed as Caliguri had filed a motion for
reargument with the Court of Appeals dated January
3, 2021, which was returnable on January 5, 2021;
the Court of Appeals denied the motion for
reargument on April 1, 2021 notwithstanding that
the motion for reargument was unopposed by the
Plaintiff-Respondent JPMorgan Chase Bank, N.A
(Appx 1a-2a). As set forth in the Supreme Court’s
Rule 13.3:
“’The time to file a petition for a writ of certiorari
runs from the date of entry of the judgment or
order sought to be reviewed, and not from the
issuance date of the mandate (or its equivalent
under local practice).
But if a petition for
rehearing is timely filed in the lower court by any
party, the time to file the petition for a writ of
certiorari for all parties (whether or not they
requested rehearing or joined in the petition for
rehearing) runs from the date of denial of the
petition for rehearing or, if the petition for
rehearing is granted, the subsequent entry of
judgment.’”
Please see also Hibbs v Winn, 542 U.S. 88, 97, 124
S.Ct. 2276, 159 L.Ed.2d 172 (2004). Accordingly,
given that there was a motion to reargue filed with
the Court of Appeals, the Supreme Court of the
United States has jurisdiction to determine the
petition for a writ of certiorari although the petition
was not filed within ninety (90) days of the issuance
of the Memorandum Decision dated December 17,
2020, but was filed prior to the expiration of the
Ninety (90) days from the denial of the motion for
reargument dated April 1, 2021.

3
CONSTITUTIONAL PROVISION INVOLVED
The Fourteenth Amendment to the United States
Constitution provides in Section 1:
“…; nor shall any State deprive any person of life,
… or property, without due process of law, nor
deny to any person within its jurisdiction the
equal protection of the laws.”
STATEMENT OF THE CASE
The Plaintiff-Respondent JPMorgan Chase Bank,
N.A. commenced a prior mortgage foreclosure action
against Caliguri in the Supreme Court of the State of
New York, Suffolk County (the “Suffolk Supreme
Court”). (the “First Caliguri Action”). The First
Caliguri Action was commenced by summons and
complaint dated July 2, 2009 and was assigned to the
Honorable Paul J. Baisley, Jr. (“Judge Baisley”),
Index No. 25638/09. Caliguri prevailed in the First
Caliguri Action when Judge Baisley issued the order
granting summary judgment dated March 7, 2012
(the “First Caliguri Order”). The First Caliguri Order
stated in pertinent part:
“ORDERED that the motion (motion sequence
no. 004) of defendant Ross R. Caliguri for an
order granting summary judgment dismissing
this mortgage foreclosure action with prejudice,
striking the complaint and, in the alternative,
other sanctions, in accordance with CPLR §3126
and R. 3212, is granted as set forth hereinafter.
The submissions reflect that plaintiff J.P.
Morgan Chase Bank, N.A. commenced the
instant action to foreclose a consolidated
mortgage on July 2, 2009. Thereafter defendantmortgagor Ross R. Caliguri served an answer

4
which, inter alia, asserted plaintiff’s lack of
standing as an affirmative defense. Defendant
subsequently
served
plaintiff
with
interrogatories and a demand for production of
documents. In particular, defendant demanded
that plaintiff produce the original note and
original mortgage assignment for inspection at
the Long Island office of plaintiff’s attorney,
Steven J. Baum, P.C ‘on a mutually [convenient]
date and time.’ In response, plaintiff interposed
various objections to defendant’s interrogatories
and document demands, and, citing the
‘commercial sensitivity of these documents,’
produced only a copy of the notes, mortgage and
assignment without offering a date and time for
the production of the original documents.
Defendant thereafter interposed a motion
(motion sequence no. 003) to compel plaintiff to
‘fully and completely respond to all of the
discovery requests propounded by [defendant].’
While the motion to compel, was sub judice, and
after a compliance conference at which plaintiff’s
repeated failure to produce the original note and
mortgage assignment was discussed, defendant
served plaintiff a second request for production of
documents dated September 9, 2011 which
requested that the original mortgage note and
the original mortgage assignment be made
available for inspection at the Long Island office
of plaintiff’s attorney in Westbury on a date
certain, to wit, October 5, 2011 at 2:00 p.m.
The submissions reflected that defendant’s
attorney appeared at the Westbury office of
Steven J. Baum, P.C. on October 5, 2011 at 2:00
p.m., together with a forensic document examiner
retained for the purpose of inspecting the original

5
documents. Notwithstanding the duly served
‘Second Request for Production of Documents,’ to
which plaintiff did not respond or object, no
original
documents
were
produced
for
defendant’s inspection at that time or thereafter.
On October 7, 2011, defendant interposed the
instant motion for summary judgment dismissing
the action with prejudice, striking the complaint,
and for other sanctions in accordance with CPLR
§3126 and R. 3212.
Defendant’s motion is
predicated in substantial part on plaintiff’s
failure to produce evidence of its standing to
commence and prosecute this mortgage
foreclosure action. It is well established that
where the standing of a plaintiff in a mortgage
foreclosure action is a contested issue, as here,
the plaintiff must prove that it was the holder or
assignee of both the subject mortgage and the
underlying note at the time of commencement of
the action in order to be entitled to relief (Bank of
New York v. Silverberg, 86 AD3d 274 [2d Dept
2011]). In opposition to defendant’s motion,
plaintiff has submitted only the affirmation of its
attorney, who does not have personal knowledge
of the facts alleged therein and accordingly is
incompetent to establish plaintiff’s standing
(Zuckerman v. City of New York, 49 NY2d 557
[1980]). Moreover, the documentary evidence
annexed
thereto, including a purported
assignment executed by a purported ‘attorney in
fact,’ fails to establish as a matter of law that
plaintiff was the owner and holder of the subject
note(s) and mortgage(s) at the time of commencement of this action. Plaintiff has thus failed to
establish, by proof in admissible form, its
standing to commence and maintain the instant

6
action. Accordingly, the submissions establish
defendant’s prima facie entitlement to summary
judgment dismissing plaintiff’s complaint.
Additionally, the submissions establish plaintiff’s
willful failure to comply with the discovery
orders of this Court. The October 19, 2011 order
of this Court (BAISLEY, J.) granted defendant’s
prior motion to compel discovery, noting that
plaintiff’s prior responses were ‘substantially
deficient’ and that plaintiff’s interposed
objections were ‘improper.’ The order directed
plaintiff to provide full, complete and substantive
responses to each of defendant’s interrogatories,
including identifying with specificity ‘any and all
persons that assisted in the preparation of the
responses,’ ‘all persons with knowledge of the
facts at issue in this case,’ and ‘any and all
witnesses’ that plaintiff intends to call at trial,
and providing a basis for interpreting the
computerized payment schedule annexed to
plaintiff’s response to defendant’s interrogatories,
within 20 days of the date of service of notice of
entry of this order.’ In addition, the order
directed plaintiff to ‘make available for
defendant’s inspection the original mortgage note
and original mortgage assignment, at a mutually
convenient place and time but in no event later
than 20 days after the date of service of notice of
entry of this order.’
Notwithstanding the foregoing, the ‘Amended
Answers to Interrogatories’ served by plaintiff on
or about November 8, 2011 in response to the
Court’s order failed to comply with the order in
several material respects. Plaintiff admittedly
failed to ‘identify all persons with knowledge of
the facts at issue in this case,’ failed to provid[e]

7
a basis for interpreting the computerized
payment scheduled annexed to plaintiff’s
response to defendant’s interrogatories,’ and
interposed substantially the same objections that
had previously been ruled upon by the Court and
found to be ‘improper.’ In light of the express
directives contained in the order, plaintiff’s
failure to provide ‘full, complete and substantive
responses’ must be deemed to be willful (Forbes
v. New York City Tr. Auth., 88 AD3d 546 [1st
Dept 2011]) and provides an independent basis
for striking plaintiff’s complaint in this action.”
(Footnote Omitted). Accordingly, the First Caliguri
Order concluded by stating in pertinent part:
“In light of all of the foregoing, and in accordance
with CPLR R. 3212 and §3126, the Court grants
defendant’s motion for summary judgment and
strikes plaintiff’s complaint.”
(Appx 17a-22a ). The Plaintiff-Respondent JPMorgan
Chase Bank, N.A. never appealed the First Caliguri
Order nor filed a motion for reargument.
Based on the provisions of the provisions of the
First Caliguri Order, Caliguri commenced an action
in the Suffolk Supreme Court by summons and
complaint dated April 23, 2012 seeking an order
cancelling and discharging the following mortgage
liens against the Property possessed by JPMorgan
Chase Bank, N.A., as successor to Washington
Mutual Bank, FSB, pursuant to the provisions of NY
RPAPL §1501: (a) the mortgage dated November 2,
2005 and recorded with the Suffolk County Clerk on
November 18, 2005 at Liber M00021174, Page 335 to
secure a borrowing in the original sum of Nine
Hundred Forty Five Thousand and xx/100 Dollars
($945,000.00); and (b) the mortgage dated October 31,

8
2007 and recorded with the Suffolk County Clerk on
November 23, 2007 at Liber M00021637, Page 178 to
secure a borrowing in the original sum of Seven
Thousand One Hundred Seventy Five and 28/100
Dollars ($7,175.28) (the “Discharge of Mortgage
Action”); the Discharge of Mortgage Action was
assigned Index No. 13522/2012. In lieu of answering
the complaint in the Discharge of Mortgage Action,
JPMorgan Chase Bank, N.A. filed its motion to
dismiss the complaint in accordance with the
provisions set forth in NY CPLR §3211; in response,
Caliguri filed a cross-motion for summary judgment
in accordance with the provisions set forth in NY
CPLR §§3211(c) and 3212. In lieu of sending the case
to Judge Baisley for an interpretation of the First
Caliguri Order, the Honorable Ralph T. Gazzillo,
another judge of the Suffolk Supreme Court, issued
the Order dated May 13, 2013 (the “Gazzillo Order”).
The Gazzillo Order granted JPMorgan Chase Bank,
N.A.’s motion to dismiss the Discharge of Mortgage
Action and denied Mr. Caliguri’s cross-motion for
summary judgment. Caliguri took a timely appeal of
the Gazzillo Order to the Second Department. The
Second Department affirmed the Gazzillo Order by
the Opinion dated October 29, 2014, 121 A.D.3d 1030,
996 N.Y.S.2d 73 ((2nd Dept., 2014), Docket No. 201306651; the latter opinion stated in pertinent part at
121 A.D.3d at 1031-1032:
“Contrary to the plaintiff’s contention, a
dismissal premised on lack of standing is not a
dismissal on the merits for res judicata purposes.
Furthermore, the alternative basis for dismissal
of the prior action, the striking of the complaint
for noncompliance with a discovery order, was
not a dismissal on the merits. Accordingly, the
Supreme Court properly granted JPMorgan

9
Chase’s motion to dismiss the complaint for
failure to state a cause of action and denied, as
academic, the plaintiff’s cross-motion for
summary judgment on the complaint.”
(Citations Omitted). Caliguri filed a timely motion
for re-argument or, in the alternative, motion for
permission from the Second Department to appeal
the Opinion of the Second Department Decision dated
October 29, 2014. By Decision & Order dated April 6,
2015, the Second Department denied the Caliguri
motion by the Decision & Order on Motion dated
April 6, 2015. Caliguri also sought leave of the Court
of Appeals to appeal the Second Department decision
dated October 29, 2014 to the Court of Appeals,
however, the Court of Appeals denied said permission
to appeal.
The Plaintiff-Respondent JPMorgan Chase Bank,
N.A. commenced a second mortgage foreclosure
action against Caliguri seeking to foreclose the same
mortgage on the Property based on the same
purported mortgage note and the same default in
payment in the Suffolk Supreme Court by summons
and complaint dated August 7, 2014, Index No.
066298/2014 (the “Second Caliguri Mortgage Foreclosure Action”), which case was assigned to the
Honorable John Rouse (“Judge Rouse”), a coordinate
judge to Judges Baisley and Gazzillo on the Suffolk
Supreme Court. Caliguri filed a timely answer and a
motion to transfer the Second Caliguri Mortgage
Foreclosure Action to Judge Baisley. And Caliguri
propounded document demands upon JPMorgan
Chase Bank, N.A. dated April 10, 2015, which
included as the first item, the production of the
original note for examination and inspection within
thirty (30) days at the JPMorgan Chase Bank, N.A.’s
attorney’s office in Long Island. In lieu of responding

10
to the Caliguri discovery demands, JPMorgan Chase
Bank, N.A. filed a motion for summary judgment and
an opposition to the motion to transfer the case to
Judge Baisley dated June 1, 2015; Caliguri filed his
cross-motion and an opposition to the motion for
summary judgment dated June 18, 2015; JPMorgan
Chase filed its reply affirmation in support of motion
and in opposition to the cross-motion for summary
judgment dated June 29, 2015; and Caliguri filed his
reply affirmation to the cross-motion dated July 3,
2015. Judge Rouse denied the Caliguri motion to
transfer the Second Caliguri Foreclosure Action to
Judge Baisley and granted summary judgment in
favor of JPMorgan Chase Bank, N.A in the Order
dated May 11, 2017 stating, in part, that the
discovery demands by Caliguri did not have to be
honored and the case need not be transferred to
Judge Baisley. Caliguri appealed the Order dated
May 11, 2017 to the Second Department by notice of
appeal dated June 14, 2017.
The Second Department affirmed the Order dated
May 11, 2017 by the Decision & Order dated January
16, 2019, 168 A.D.3d 819, 92 N.Y.S.3d 95 (2nd Dept.,
2018), Docket No. 2017-06999. The January 16, 2019
Decision & Order acknowledged the demand for the
discovery of the original mortgage note, but stated in
pertinent part:
“JPMorgan Chase demonstrated its prima facie
entitlement to judgment as a matter of law by
producing the mortgage, the unpaid note, and
evidence of default. In addition, it established its
standing by attaching to the summons and
complaint a copy of the consolidated note,
bearing an endorsement in blank from the
original lender. Contrary to the defendant’s
contention, ‘there is no requirement that an

11
entity in possession of a negotiable instrument
that has been endorsed in blank must establish
how it came into possession of the instrument in
order to be able to enforce it’. In opposition, the
defendant failed to raise a triable issue of fact.”
(Citations Omitted)
The Suffolk Supreme Court issued the judgment of
foreclosure and sale dated February 8, 2019 in the
Second Caliguri Mortgage Foreclosure Action.
The Court of Appeals granted Caliguri leave to
appeal to the Court of Appeals to determine the
issues set forth in the January 16, 2019 Decision &
Order except the issue as to whether the Second
Caliguri Mortgage Foreclosure Action should have
been transferred to Judge Baisley (Appx 8a-9a). The
Court of Appeals also issued a “stay” of the mortgage
foreclosure sale of the Property, APL-2019-00119.
Caliguri perfected the appeal to the Court of
Appeals by the filing of the appellate record and the
Brief for Defendant-Appellant dated August 6, 2019
(received by the Court of Appeals on August 9, 2019;
JPMorgan Chase Bank, N.A. filed the Brief of
Plaintiff-Respondent JPMorgan Chase Bank, N.A.
dated October 28, 2019; and Caliguri filed the Reply
Brief for Defendant-Appellant dated November 25,
2019. The Caliguri appeal to the Court of Appeals
had two (2) primary issues for the Court of Appeals to
hear and determine. They were:
a. did Judge Rouse, the Suffolk Supreme Court
judge presiding over the Second Caliguri
Mortgage Foreclosure Action prematurely
grant summary judgment in favor of
JPMorgan Chase Bank, N.A. when there were
outstanding document demands including,

12
but not limited to, the production of the
original mortgage for inspection; and
b. did Judge Rouse, violate the doctrines of res
judicata, collateral estoppel and/or law of the
case by failing to follow the rulings made in
the First Caliguri Action by Judge Baisley, a
coordinate judge of the Suffolk Supreme
Court, who presided over the First Caliguri
Action “between the same parties”, such as
the order requiring JPMorgan Chase Bank,
N.A. to produce the original mortgage note for
inspection and examination.
The Court scheduled oral argument on the Caliguri
Court of Appeals appeal to be held on November 17,
2020 at 2:00 p.m. (Appx 15a-16a). Incredibly, the
summary of the case prepared by the Court of
Appeals was limited to the production of the original
note and never mentioned the res judicata/collateral
estoppel/law of the case issue. (Appx-23a-26a). The
Court of Appeals issued the Memorandum Decision
dated December 17, 2020 and Caliguri filed his
motion for reargument dated January 3, 2021, which
motion for reargument was denied on April 1, 2021.
REASONS FOR GRANTING THE WRIT
An action was commenced in the Suffolk Supreme
Court pertaining to the termination of four (4)
specific Appellate Division (intermediate level
appellate court) judges due to their age, entitled:
“In the Matter of the Application of
HON. ELLEN GESMER, HON. DAVID
FRIEDMAN, HON. SHERI S. ROMAN, HON.
JOHN M. LEVENTHAL, and DANIEL J.
TAMBASCO,

13
Petitioners-Plaintiffs
For a Judgment under Article 78 of the CPLR
-againstTHE ADMINISTRATIVE BOARD OF THE NEW
YORK STATE UNIFIED COURT SYSTEM,
JANET DIFIORE, AS CHIEF JUDGE OF THE
NEW YORK STATE UNIFIED COURT SYSTEM,
and LAWRENCE K. MARKS, AS CHIEF
ADMINISTRATIVE JUDGE OF THE NEW YORK
STATE UNIFIED COURT SYSTEM,
Respondents-Defendants”
The latter action was assigned Index No.
616980/2020 (the “First Judge Action). The First
Judge Action was commenced by summons dated
November 5, 2020 and Verified Article 78 Petition
and Complaint dated November 5, 2020. Please note
that November 5, 2020 was only twelve (12) days
prior to the scheduled oral argument in the Caliguri
Appeal (November 17, 2020) and Chief Judge Janet
DiFiore was a named respondent-defendant in the
First Judge Action. The First Judge Action was
assigned to Judge Baisley, (Appx 27a-80a), the same
judge of the Suffolk Supreme Court who presided
over the First Caliguri Action (Appx 150a).
The undersigned counsel first became aware of the
pendency of the First Judge Action on Wednesday,
November 18, 2020, one (1) day after the Caliguri
Appeal oral argument before the Court of Appeals,
when he read a front page article in the November
18, 2020 issue of the New York Law Journal
pertaining to the First Judge Action and the article
disclosed that Chief Judge DiFiore and others also
failed to comply with a discovery order issued by
Judge Baisley in the First Judge Action.

14
There was also a second action that was
commenced against the Chief Judge Janet DiFiore
and others in the Suffolk Supreme Court entitled:
“In the Matter of the Application of:
SUPREME COURT JUSTICES ASSOCIATION
OF THE CITY OF NEW YORK, Inc., by its
President HON. ESTHER M. MORGENSTEIN,
ASSOCIATION OF JUSTICES OF THE
SUPREME COURT OF THE STATE OF NEW
YORK, by its President HON. CHARLES C.
MERRELL, HON. KATHRYN E. FREED, HON.
ORLANDO MARRAZZO, HON. LARRY D.
MARTIN, HON. JAMES J. PIAMPIANO, HON.
BERNICE D. SIEGAL, and HON. FERNANDO
TAPIA,
For a Judgment Pursuant to Article 78 of the
New York Civil Practice Law and Rules,
Petitioners
-againstTHE ADMINISTRATIVE BOARD OF THE NEW
YORK STATE UNIFIED COURT SYSTEM,
JANET DIFIORE, AS CHIEF JUDGE OF THE
NEW YORK STATE UNIFIED COURT SYSTEM
and LAWRENCE K. MARKS, AS CHIEF
ADMINISTRATIVE JUDGE OF THE NEW
YORK STATE UNIFIED COURT SYSTEM,
Respondents”
This action was assigned Index No. 618314/2020 (the
“Second Judge Action”). The Second Action was
commenced by Summons and Verified Petition dated
November 24, 2020 The Second Action was also
assigned to Judge Baisley (Appx 156a-199a).

15
As stated previously, Judge Baisley, was the
Suffolk Supreme Court justice, who issued the Order
dated March 7, 2012 in the First Caliguri Action,
which was part of the Record on Appeal in the
Caliguri Appeal; the provisions of the Order dated
March 7, 2012 was set forth in great detail above. As
also set forth above, Judge Baisley was the judge that
granted Caliguri granted summary judgment, with
prejudice, on its motion for summary judgment
pursuant to the provisions set forth in CPLR §§3126
and 3212 in the First Caliguri Action.
The First Judge Action was commenced by the
Order to Show Cause dated November 5, 2020 issued
by Judge Baisley (the same Suffolk Supreme Court
judge that issued the Order dated March 7, 2012,
which was part of the Record on Appeal in the
Caliguri Appeal) which provided in pertinent part:
“ORDERED, that the Petitioners-Plaintiffs may
seek expedited discovery in connection with their
Article 78 claims;
ORDERED, that the Respondents-Defendants
are to produce written discovery requests to the
document requests attached as Exhibit 2 to the
accompanying Catterson Aff. no later than
November 13, 2020;
ORDERED, that the Respondents-Defendants
will conduct the deposition of Chief Judge Janet
DiFiore pursuant to the notice of deposition
attached as Exhibit 3 to the accompanying
Catterson Aff. on November 16, 2020.
(Emphasis Added) (Appx 151a-155a). Please note
that the scheduled deposition of Chief Judge DiFiore
on November 16, 2020 was only one (1) day prior to

16
the oral argument in the Court of Appeals (November
17, 2020) on the Caliguri Appeal.
After Chief Judge DiFiore and the other named
respondents failed to produce the demanded
documentary discovery and Chief Judge DiFiore
failed to appear at the deposition scheduled to be held
on November 16, 2020, the Plaintiffs in the First
Judge Action filed a memorandum of law in support
of Plaintiffs’ Motion for Contempt of Court on
November 18, 2020, with exhibits (one (1) day after
the scheduled oral argument on the Caliguri Appeal).
Pages 2 and 3 of the memorandum of law stated in
pertinent part:
“Pursuant to the expedited discovery requests
and the Court’s expedited discovery order,
Respondents’ documents were due to be produced
on Friday November 13, 2020, and Chief Judge
DiFiore was to be deposed on Monday November
16, 2020. Respondents’ counsel initiated a meet
and confer on the very day documents were due.
During that meet and confer, Respondents’
counsel advised Petitioners’ counsel that OCA
(the Office of Court Administration) would be
unable to produce the documents sought prior to
the passage of at least two years’ time. Without
the courtesy of mentioning it, Respondents then
filed a 50-page cross-motion, seeking, among
other things, the instant motion for a protective
order at nearly 11 p.m. on Friday, November 13,
2020. The protective order is nothing more than
a baseless attempt to re-litigate the expedited
discovery order their counsel failed to oppose in
the first place.
But, as powerful as the
Respondents are, they, like all defendants who
appear before the Courts of this State, must
abide by court-ordered discovery and must

17
adhere to court orders. The Respondents are not
above the law and must set an example for other
defendants who seek to evade legitimate
discovery obligations. To date, Respondents have
produced no discovery whatsoever. Indeed, they
have imperiously declared that they intend not to
do so.
They also have refused to sit for
depositions, instead interposing a baseless motion
simply to run out the clock. This will work a
grave injustice on the Petitioners.
Ultimately, Respondents can offer no legitimate
excuse for their failure to obey this Court’s
Order, other than their counsel’s ‘screw up’ in
failing to appear at the hearing at which
Respondents could have and should have
presented the present arguments. Unless a swift
and decisive message is sent, Respondents will
continue to ignore this Court’s authority and
render null and void any relief the Court can
provide in this matter.”
(Emphasis Added). (Appx 157a-199a).
Accordingly, the similarities between the First
Judge Action and the Caliguri Appeal to the Court of
Appeals are incredibly stark. Both cases relate to the
failure of a party to produce Court-ordered discovery
and both concerned orders issued by Judge Baisley.
The only difference is that in the Caliguri Appeal to
the Court of Appeals, the non-compliant party was
JPMorgan Chase Bank, N.A. and in the First Judge
Action, the non-compliant parties included Chief
Judge DiFiore. And Chief Judge DiFiore never
recused herself from the Caliguri Appeal and, in fact,
she even concurred in the Memorandum Decision
dated December 17, 2020. However, as of November
17, 2020, the date of the Caliguri Appeal oral

18
argument, Chief Judge DiFiore was immediately
placed in a conflict of interest situation; if she ruled
in favor of Caliguri on the Caliguri Appeal, she may
have negatively impacted her defense in the First
Judge Action and possibly, the Second Judge Action.
Please note that Caliguri is not addressing the merits
of the First Judge Action or the Second Judge Action,
but simply demonstrating that Chief Judge Janet
DiFiore was conflicted as of November 17, 2020 (the
date of the Caliguri oral argument) and remained
conflicted as of December 17, 2020 (the date of the
Memorandum Decision).
The Preamble of Part 100 entitled: “Judicial
Conduct” of the Rules of the Chief Administrative
Judge in the State of New York provides:
“The rules of governing judicial conduct are rules
of reason. They should be applied consistently
with constitutional requirements, statutes, other
court rules and decisional law and in the context
of all relevant circumstances. The rules are to be
construed so as not to impinge on the essential
independence of judges in making judicial
decisions.
The rules are designed to provide guidance to
judges and ... and to provide a structure of
regulating conduct through disciplinary agencies.
They are not designed or intended as a basis for
civil liability or criminal prosecution.
The text of the rules is intended to govern
conduct of judges and … and to be binding upon
them. It is not intended, however, that every
transgression will result in disciplinary action…
The rules are not intended as an exhaustive
guide for conduct. Judges and … also should be

19
governed in their judicial and personal conduct
by general ethical standards. The rules are
intended, however, to state basic standards
which should govern their conduct and to provide
guidance to assist them in establishing and
maintaining high standards of judicial and
personal conduct.”
(Emphasis Added).
Section 100.0 entitled: “Terminology” includes:
“(R). “Impartiality” denotes absence of bias or
prejudice in favor of, or against, particular
parties or classes of parties, as well as
maintaining an open mind in considering issues
that may come before the judge.
(S) An “independent” judiciary is one free of
outside influence or control.
(T) “Integrity” denotes probity, fairness, honesty,
uprightness and soundness of character.
“Integrity” also includes a firm adherence to this
Part or its standards of values.
(U) A “pending proceeding” is one that has begun
but not yet reached its final disposition.”
Section 100.1 entitled: “A judge shall uphold the
integrity and independence of the judiciary” provides:
“An independent and honorable judiciary is
indispensable to justice in our society. A judge
should participate in establishing, maintaining
and enforcing high standards of conduct, and
shall personally observe those standards so that
the integrity and independence of the judiciary
will be preserved. The provisions of this Part 100
are to be construed and applied to further that
objective,”

20
Section 100.2 entitled: “A judge shall avoid
impropriety and the appearance of impropriety in all
of the judge’s activities” provides in pertinent part:
“(A) A judge shall respect and comply with the
law and shall act at all times in a manner that
promotes public confidence in the integrity and
impartially of the judiciary.”
And Section 100.3 entitled: “A judge shall perform
the duties of judicial office impartially and diligently”
states in pertinent part:
“(A) Judicial Duties in General. The judicial
duties of a judge take precedence over all the
judge’s other activities. The judge’s judicial
duties include all the duties of the judge’s office
prescribed by law. In the performance of these
duties, the following standards apply.
(B) Adjudicative Responsibilities.
(1) A judge shall be faithful to the law and
maintain professional competence in it. A
judge shall not be swayed by partisan
interests, public clamor or fear of criticism…
(4) A judge shall perform judicial duties
without bias or prejudice against or in favor
of any person…
(7) A judge shall dispose of all judicial
matters promptly, efficiently and fairly.”
In the current matter, the impartiality and fairness
of Chief Judge DiFiore was immediately cast in doubt
upon the initiation of the First Judge Action and its
demand for the production of documents, to which
Chief Judge DiFiore and others had failed to comply
and her failure to appear for a deposition as of
November 17, 2020 (the date of the Caliguri oral
argument) and as of December 17, 2020 (the date of

21
the Memorandum Decision).
Accordingly, the
participation of Chief Judge DiFiore in the Caliguri
Appeal should have been immediately severed for all
purposes relating to the Caliguri Appeal as she could
no longer render an independent decision in the
Caliguri Appeal as it may have impaired her ability
to defend the First Judge Action wherein she failed to
produce Court-ordered discovery and to appear for a
Court-imposed deposition (ordered by the same
Suffolk Supreme Court judge that issued the First
Caliguri Order).
Caliguri filed a motion to reargue the
Memorandum Decision dated January 3, 2021 and
received by the Court of Appeals on or about January
5, 2021 pertaining to the above-referenced conflicts of
interest by Chief Judge DiFiore. The motion to
reargue was never opposed by JPMorgan Chase
Bank. Notwithstanding, the Court of Appeals denied
the motion for reargument on April 1, 2021.
Chief Judge DiFiore’s participation in the Caliguri
Appeal was a violation of Caliguri’s Fourteenth
Amendment right. The 14th Amendment provides in
Section 1:
“…; nor shall any State deprive any person of life,
… or property, without due process of law; nor
deny to any person within its jurisdiction the
equal protection of the laws.”
In the current matter, Caliguri’s right in property is
being adversely affected given that JPMorgan Chase
Bank, N.A. is seeking to foreclose its mortgage on the
Property. Thus, Caliguri’s 14th Amendment right to a
fair and neutral judicial tribunal is being trampled
upon. Please see Williams v. Pennsylvania, 136 S.Ct.
1899, 195 L.Ed.2d 132, 2016 U.S. LEXIS 3774 (2016).
And while Williams v. Pennsylvania pertained to a

22
criminal case, a similar result occurred in Caperton v.
A.T, Massey Coal Co., 556 U.S. 868, 872, 129 S.Ct.
2252, 173 L.Ed.2d 1208 (2009) (quoting Winthrow v.
Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456, 43 L.Ed.2d
712 (1975)), which was a civil case.
In sum,
th
Caliguri’s 14 Amendment right to a fair and neutral
appellate tribunal was denied by the Chief Judge
Janet DiFiore’s conflict of interest. This taint was
further evidenced by the failure of the Court of
Appeals’ summary to include any reference to the res
judicata/collateral estoppel/the law of the case
doctrines. And in fact, the Memorandum Decision
barely referenced this issue of the Caliguri Appeal as
it merely stated in the last sentence: “Defendant’s
remaining contentions are without merit” without
providing any law or authority to support this
conclusion of law.
The Court of Appeals, the highest state court in the
State of New York, is a seven (7) member appellate
tribunal. Williams v. Pennsylvania stated at 136
S.Ct. at 1909-1910:
“Having determined that Chief Justice Castille’s
participation violated due process, the Court
must resolve whether Williams is entitled to
relief. In past cases, the Court has not had to
decide the question whether a due process
violation arising from a jurist’s failure to recuse
amounts to harmless error if the jurist is on a
multimember court and the jurist’s vote was not
decisive. (addressing ‘the question whether a
decision of a multimember tribunal must be
vacated because of the participation of one
member who had an interest in the outcome of
the case,’ where that member’s vote was outcome
determinative). For the reasons discussed below,
the Court holds that an unconstitutional failure

23
to recuse constitutes structural error even if the
judge in question did not cast a deciding vote.
The Court has little trouble concluding that a
due process violation arising from the participation of an interested judge is a defect ‘not
amenable’ to harmless-error review, regardless of
whether the judge’s vote was dispositive. The
deliberations of an appellate panel, as a general
rule, are confidential. As a result, it is neither
possible nor productive to inquire whether the
jurist in question might have influenced the
views of his or her colleagues during the decision
making process. Indeed, one purpose of judicial
confidentiality is to assure jurists that they can
reexamine old ideas and suggest new ones, while
both seeking to persuade and being open to
persuasion by their colleagues.
As Justice
Brennan wrote in his Lavoie concurrence,
‘The description of an opinion as being ‘for the
court’ connotes more than merely that the
opinion has been joined by a majority of the
participating judges. It reflects the fact that
these judges have exchanged ideas and
arguments in deciding the case. It reflects the
collective process of deliberation which shapes
the court’s perception of which issues must be
addressed and, more importantly, how they
must be addressed. And, while the influence of
any single participant in this process can never
be measured with precision, experience teaches
us that each member’s involvement plays a
part in shaping the court’s ultimate disposition.’
475 U.S. at 831, 106 S.Ct. 1580, 89 L.Ed.2d
823.’

24
These considerations illustrate, moreover, that it
does not matter whether the disqualified judge’s
vote was necessary to the disposition of the case.
The fact that the interested judge’s vote was not
dispositive may mean only that the judge was
successful in persuading most members of the
court to accept his or her position. That outcome
does not lessen the unfairness to the affected
party.
A multimember court must not have its
guarantee of neutrality undermined, for the
appearance of bias, demeans the reputation and
integrity not just of one jurist, but of the larger
institution of which he or she is a part. An
insistence on the appearance of neutrality is not
some artificial attempt to mask imperfection in
the judicial process, but rather an essential
means of ensuring the reality of a fair
adjudication. Both the appearance and reality of
impartial justice are necessary to the public
legitimacy of judicial pronouncements and thus
to the rule of law itself. When the objective risk
of actual bias on the part of a judge rises to an
unconstitutional level, the failure to recuse
cannot be deemed harmless.
The Commonwealth points out that ordering a
rehearing before the Pennsylvania Supreme
Court may not provide complete relief to
Williams because judges who were exposed to a
disqualified judge may still be influenced by their
colleague’s views when they rehear the case. An
inability to guarantee complete relief for a
constitutional violation, however, does not justify
withholding a remedy altogether. Allowing an
appellate panel to reconsider a case without the
participation of the interested member will

25
permit judges to probe lines of analysis or engage
in discussions they may have felt constrained to
avoid in their first deliberations.
Chief
Justice
Castille’s
participation
in
Williams’s case was an error that affected the
State Supreme Court’s whole adjudicatory framework below.
Williams must be granted an
opportunity to present his claims to a court
unburdened by any ‘possible temptation… not to
hold the balance nice, clear and true between the
State and the accused.’
Where a judge has had an earlier significant,
personal involvement in a critical decision in the
defendant’s case, the risk of actual bias in the
judicial proceeding rises to an unconstitutional
level. Due process entitles Terrance Williams to
‘a proceeding in which he may present his case
with assurance’ that no member of the court is
‘predisposed to find against him.’”
(Citations Omitted). The concurrence in Isom v.
Arkansas, _____ U.S. _____, 140 S.Ct. 342, 205
L.Ed.2d 373, 2019 U.S. LEXIS 7195 (2019) stated at
140 S.Ct. at 343-344:
“Our precedents require recusal where the
‘probability of actual bias on the part of the judge
or decisionmaker is too high to be constitutionally tolerable.’ Rippo v. Baker, 580 U.S. ___,
137 S.Ct. 905, 197 L.Ed.2d 167 at 168 (per
curiam) (quoting Winthrow v. Larkin, 421 U.S.
35, 47, 95 S.Ct. 1456, 43 L.Ed.2d 712 (1975)).
The operative inquiry is objective: whether,
‘considering all the circumstances alleged,’ Rippo,
580 U.S., at ____, 137 S.Ct. 905, 197 L.Ed.2d 167
at 168), ‘the average judge in [the same] position
is likely to be neutral, or whether there is an

26
unconstitutional potential for bias,’ Williams v.
Pennsylvania, 579 U.S. ____, ___, 136 S.Ct. 1899,
195 L.Ed.2d 132 at 134 (2016)(internal quotation
marks omitted). This Court has ‘not set forth a
specific test’ or required recusal as a matter of
course when a judge has had prior involvement
with a defendant in his role as a prosecutor. Cf.
id. at ___, 136 S.Ct. 1899, 195 L.Ed.2d 132 at
136). Nor has it found that ‘opinions formed by
the judge on the basis of facts introduced or
events occurring in the course of … prior
proceedings’ constitute a basis for recusal in the
ordinary case. Liteky v. United States, 510 U.S.
540, 555, 114 S.Ct. 1147, 127 L.Ed.2d 474 (1994).
Indeed, ‘it may be necessary and prudent to
permit judges to preside over successive causes
involving causes involving the same parties or
issues.’ Id., at 562 (Kennedy, J., concurring).”
It should be noted that both Isom v. Arkansas and
Williams v. Pennsylvania concerned recusals in
criminal matters, although Williams v. Pennsylvania
pertained to a judge on the highest court of
Pennsylvania’s failure to recuse himself. However,
Caperton v. A.T. Massey Coal Co., 562 U.S. 868, 129
S.Ct. 2252, 173 L.Ed.2d 1208 (2009) pertained to the
failure of a justice on the highest state court in West
Virginia’s failure to recuse himself in a civil matter.
Caperton v. A.T. Massey Coal Co. stated at 556 U.S.
at 886-887:
“Justice Benjamin did undertake an extensive
search for actual basis.
But, as we have
indicated, that is just one step in the judicial
process; objective standards may also require
recusal whether or not actual bias exists or can
be proved. Due process ‘may sometimes bar trial
by judges who have no actual bias and who would

27
do their very best to weigh the scales of justice
equally between contending parties.’ Murchison,
349 U.S., at 136, 75 S.Ct. 623, 99 L.Ed. 942. The
failure to consider objective standards requiring
recusal is not consistent with the imperatives of
due process.
We find that Blankenship’s
significant and disproportionate influence –
coupled with the temporal relationship between
the election and the pending case – ‘’’’offer a
possible temptation to the average … judge to …
lead him not to hold the balance nice, clear and
true.’’’’ Lavoie, 475 U.S., at 825, 106 S.Ct. 1580,
89 L.Ed.2d 823 (quoting Monroeville, 409 U.S., at
60, 93 S.Ct. 80, 24 L.Ed.2d 267, in turn quoting
Tumey, 273 U.S., at 532, 47 S.Ct. 437, 71 L.Ed.
749, 5 Ohio Law Abs. 159, 5 Ohio Law Abs. 185,
25 Ohio L. Rep. 236). On these extreme facts the
probability of actual bias rises to an
unconstitutional level.”
In Williams-Yulee v. Fla. Bar, 572 U.S. 433, 133 S.Ct.
1656, 191 L.Ed.2d 570 (2015), a case concerning
campaign solicitations by judges, the Supreme Court
quoting the Address of John Marshall, in Proceedings
and Debates of the Virginia State Convention of
1829-1830, p. 616 (1830) stated at 572 U.S. at 447:
“A judge instead must ‘observe the utmost
fairness,’ striving to be ‘perfectly and completely
independent, with nothing to influence or control
him but God and conscience.”
Accordingly, Caliguri was entitled to a fair and
impartial appellate court untainted by Chief Judge
DiFiore and her conflicts of interest resulting by the
commencement of the First Judge and the Second
Judge Actions. The unfairness and taint of the Court
of Appeals to provide Caliguri a neutral appellate

28
panel was a violation of Caliguri’s 14th Amendment
rights.
It is also problematic whether the remaining
members of the Court of Appeals can be impartial
and fair in the Caliguri Appeal given their knowledge
of the First Judges and the Second Judges Actions
and the confidential communications that they may
have already had with Chief Judge DiFiore.
Therefore, it may be difficult to find a neutral
tribunal to transfer the Caliguri Appeal. It may be
possible that a neutral appellate tribunal can be a
seven (7) member Fourth Department panel with it
being temporarily granted the rights and privileges of
the Court of Appeals of the State of New York; it is
believed that the First Department and the Second
Departments cannot be neutral as the First Judge
Action was commenced by four (4) justices belonging
to the First and Second Departments; and the Second
Department having transferred the First and Second
Judge Actions to the Third Department. And now
that the Third Department has issued its decision
reversing the order by Judge Baisley, it is doubtful
that the Third Department can be impartial and, if
the Court of Appeals must rule on the First Judge
and the Second Judge Actions on appeal, it is
doubtful that the Court of Appeals can be a neutral
appellate tribunal even if Chief Judge DiFiore
recuses herself from a reargument of the Caliguri
Appeal.

29
CONCLUSION
A writ of certiorari should be issued to review the
Memorandum Decision of the Court of Appeals of the
State of New York dated December 17, 2020.
Respectfully submitted,
Jeffrey Herzberg
Jeffrey Herzberg, P.C.
300 Rabro Drive, Suite 114
Hauppauge, New York 11788
(631) 761-6558
jeff@jherzberglaw.com
Counsel for Petitioner
Dated:

Hauppauge, New York
May 17, 2021

APPENDIX

1a
Appendix A
STATE OF NEW YORK
C OURT OF A PPEALS

__________
Decided and Entered on the
first day of April, 2021

__________
Present, Hon. Janet DiFiore,
Chief Judge, presiding.

__________
Mo. No. 2019-69

__________
JPM ORGAN C HASE B ANK , N ATIONAL
A SSOCIATION ,
Respondent,
—v.—
R OSS R. C ALIGURI , & C .,
Appellant.

__________

86894 • HERZBERG • APPENDIX A (WAS APPX N)

AL 5/5/21

2a
Appellant having moved for leave for reargument
in the above cause;
Upon the papers filed and due deliberstion, it is
ORDERED, that the motion is denied.
/s/ John P. Asiello
John P. Asiello
Clerk of the Court

86894 • HERZBERG • APPENDIX N

AL 5/5/21

3a
Appendix B
STATE OF NEW YORK
C OURT OF A PPEALS
HON. JANET DiFIORE, Chief Judge, Presiding

__________
Remittitur

__________
[STAMP]
COPY

__________
No. 85

__________
JPM ORGAN C HASE B ANK , N ATIONAL
A SSOCIATION ,
Respondent,
—v.—
R OSS R. C ALIGURI , & C .,
Appellant,
ET AL .,

Defendants.

__________

86894 • HERZBERG • APPENDIX B (WAS APPX A)

AL 5/5/21

4a
Appellant in the above entitled appeal
appeared
by
Jeffrey
Herzberg,
Esq.;
respondent appeared by Wilmer Cutler
Pickering Hale & Dorr LLP.
The Court, after due deliberation, orders
and adjudges that the judgment appealed
from and so much of the Appellate Division
order reviewed is affirmed, with costs, in a
memorandum. Chief Judge DiFiore and
Judges Rivera, Stein, Fahey, Garcia, Wilson
and Feinman concur.
The Court further orders that this record of
the proceedings in this Court be remitted to
Supreme Court, Suffolk County, there to be
proceeded upon according to law.
I certify that the preceding contains a
correct record of the proceedings in this
appeal in the Court of Appeals and that the
papers required to be filed are attached.
/s/ John P. Asiello
John P. Asiello, Clerk of the Court

Court of Appeals, Clerk’s Office, Albany,
December 17, 2020

86894 • HERZBERG • APPENDIX B (WAS APPX A)

AL 5/5/21

5a
STATE OF NEW YORK
C OURT OF A PPEALS

__________
MEMORANDUM
This memorandum is uncorrected and
subject to revision before publication
in the New York Reports.

__________
No. 85

__________
JPM ORGAN C HASE B ANK , N ATIONAL
A SSOCIATION ,
Respondent,
—v.—
R OSS R. C ALIGURI , & C .,
Appellant,
ET AL .,

Defendants.

__________
Jeffrey Herzberg, for appellant.
Alan E. Schoenfeld, for respondent.

86894 • HERZBERG • APPENDIX B (WAS APPX A)

AL 5/5/21

6a
MEMORANDUM:
The judgment appealed from and so much of the
Appellate Division order reviewed should be
affirmed, with costs.
In this mortgage foreclosure action, defendant
raised the affirmative defense of standing in his
answer. Accordingly, to be entitled to summary
judgment dismissing that defense, plaintiff bore
the burden to demonstrate, as a matter of law,
that it had standing to foreclose. There is no
“checklist” of required proof to establish standing.
Here, plaintiff satisfied its burden through evidence
that it possessed the note when it commenced this
action, including a copy of the original note
endorsed in blank, and other supporting material,
including an affidavit of possession based on an
employee’s review of plaintiff’s business records
(see Aurora Loan Servs., LLC v Taylor, 25 NY3d
355, 361 [2015]). In response, defendant failed to
raise any factual issue as to plaintiff’s standing or
the authenticity of the note.
Under these circumstances, Supreme Court did
not err in denying defendant’s request for inspection
of the original note. Contrary to defendant’s
contention, there is no per se rule requiring the
court to grant a request for inspection of the
original note prior to awarding summary judgment
to a plaintiff in a mortgage foreclosure action (see
id. at 362). To the extent that cases have held or
suggested otherwise, they should not be followed
(see e.g. JP Morgan Chase Bank, NA. v Hill, 133
AD3d 1057, 1058-1059 [3d Dept 2015]).

86894 • HERZBERG • APPENDIX B (WAS APPX A)

AL 5/5/21

7a
Defendant’s remaining contentions are without
merit.
Judgment appealed from and so much of the
Appellate Division order reviewed affirmed, with
costs, in a memorandum. Chief Judge Difiore and
Judges Rivera, Stein, Fahey, Garcia, Wilson and
Feinman concur.
Decided December 17, 2020

86894 • HERZBERG • APPENDIX B (WAS APPX A)

AL 5/5/21

8a
Appendix C
STATE OF NEW YORK
C OURT OF A PPEALS

__________
Decided and Entered on the
eleventh day of June, 2019

__________
Present, Hon. Janet DiFiore,
Chief Judge, presiding

__________
Mo. No. 2019-340

__________
JPM ORGAN C HASE B ANK , N ATIONAL
A SSOCIATION ,
Respondent,
—v.—
R OSS R. C ALIGURI , & C .,
Appellant,
ET AL .,

Defendants.

__________

86894 • HERZBERG • APPENDIX C (WAS APPX B)

AL 5/5/21

9a
Appellant having moved for leave to appeal to
the Court of Appeals in the above cause.
Upon the papers filed and due deliberstion, it is
ORDERED, that the motion, deemed to be
seeking leave to appeal (see CPLR 5512) from the
February 2019 Supreme Court judgment of foreclosure and sale pursuant to CPLR 5602(a)(1)(ii) to
review the January 2019 Appellate Division order,
insofar as it seeks review of so much of the
Appellate Division order as affirmed the denial of
the motion for reassignment, is dismissed upon the
ground that such portion of the order of the
Appellate Division does not “necessarily affect” the
judgment sought to be appealed from within the
meaning of CPLR 5602(a)(1)(ii); it is further
ORDERED, that the motion for leave to appeal
is otherwise granted.
/s/ John P. Asiello
John P. Asiello
Clerk of the Court

86894 • HERZBERG • APPENDIX C (WAS APPX B)

AL 5/5/21

10a
Appendix D
STATE OF NEW YORK
C OURT OF A PPEALS

__________
APL-2019-00119
Suffolk County Clerk’s Index No. 66298/14

__________
JPM ORGAN C HASE B ANK , N ATIONAL
A SSOCIATION ,
Plaintiff-Respondent,
—v.—
R OSS R. C ALIGURI a/k/a R OSS C ALIGURI ,
Defendant-Appellant,
P ENTAGON F EDERAL C REDIT U NION , A MERICAN
E XPRESS C ENTURION B ANK , B RIDGEHAMPTON
N ATIONAL B ANK , R EVCO E LECTRICAL S UPPLY ,
I NC ., E MIL N ORSIC AND S ON , I NC ., M ORTGAGE
E LECTRONIC R EGISTRATION S YSTEMS , I NC ., and
J OHN D OE and J ANE D OE #1 through #7, the
last seven (7) names being fictitious and
unknown to the plaintiff, the persons or parties
intending being the tenants, occupants, persons
or parties, if any, having or claiming an interest
in or lien upon the mortgaged premises
described in the Complaint,
Defendants.

86894 • HERZBERG • APPENDIX D (WAS APPX C)

AL 5/5/21

11a

__________
BRIEF FOR DEFENDANT-APPELLANT

__________
(Pages 1 and 2)
The Defendant-Appellant, Ross R. Caliguri
(“Caliguri”), by and through his attorney, Jeffrey
Herzberg, PC, files this Brief for DefendantAppellant.
BASIS OF APPELLATE JURISDICTION
This Honorable Court has jurisdiction to determine
the issues in this appeal in accordance with the
provisions set forth in CPLR §5602, namely an
appeal to the court of appeals by permission. This
Honorable Court granted Caliguri leave to appeal by
Decision and Order dated June 11, 2019 (R-714) of
the Decision and Order by the Supreme Court of the
State of New York, Appellate Division, Second
Judicial Department (the “Second Department”)
dated January 16, 2019 (the “Second Department
Decision”) (R-740-741). The judgment of foreclosure
and sale was issued by the Supreme Court of the
State of New York, County of Suffolk (the “Supreme
Court”), dated February 8, 2019. The Second
Department affirmed the Supreme Court order
granting JPMorgan Chase Bank, National
Association (“JP Morgan Chase”) summary judgment
in this mortgage foreclosure action and appointed a
referee to compute.

86894 • HERZBERG • APPENDIX D (WAS APPX C)

AL 5/5/21

12a
STATEMENT OF THE ISSUES
This Honorable Court must determine the following
issues on this appeal:
a. did the judge presiding over this second
mortgage foreclosure action prematurely grant
summary judgment in favor of JPMorgan Chase
when there were outstanding document demands
including, but not limited to, the production of the
original mortgage note for inspection and
examination?; and
b. did the judge presiding over this second
mortgage foreclosure action in the Supreme Court
violate the doctrines of res judicata, collateral
estoppel or law of the case by failing to follow the
rulings made in the first mortgage foreclosure case by
Justice Baisley, a coordinate judge of the Supreme
Court, who presided over the first mortgage
foreclosure action “between the same parties”, such as
the order requiring JPMorgan Chase to produce the
original mortgage note for inspection and
examination?
The answer to both issues is that the judge
presiding over the second mortgage foreclosure case
prematurely granted summary judgment and the
order of reference: (a) as there were outstanding
discovery demanded by Caliguri, namely the
examination and inspection of the original mortgage
note by Caliguri’ s forensic document specialist; and
(b) he violated the provisions of the doctrines of res
judicata, collateral estoppel and the law of the case
when he refused to dismiss the Second Action and/or
required the production of the purported original
mortgage note for examination and inspection.

86894 • HERZBERG • APPENDIX D (WAS APPX C)

AL 5/5/21

13a
STATEMENT OF THE CASE
i. Procedural History
The following is the procedural history of this
dispute:

86894 • HERZBERG • APPENDIX D (WAS APPX C)

AL 5/5/21

14a
Appendix E
STATE OF NEW YORK
C OURT OF A PPEALS

__________
No. 85

__________
JPM ORGAN C HASE B ANK , N ATIONAL
A SSOCIATION ,
Respondent,
—v.—
R OSS R. C ALIGURI ,

ET AL .,

Appellant,

__________
20 Eagle Street
Albany, New York
November 17, 2020
Before:
CHIEF JUDGE JANET DI FIORE
ASSOCIATE JUDGE JENNY RIVERA
ASSOCIATE JUDGE LESLIE E. STEIN
ASSOCIATE JUDGE EUGENE M. FAHEY
ASSOCIATE JUDGE MICHAEL J. GARCIA
ASSOCIATE JUDGE ROWAN D. WILSON
ASSOCIATE JUDGE PAUL FEINMAN

86894 • HERZBERG • APPENDIX E

AL 5/5/21

15a
Appearances:
JEFFREY HERZBERG , ESQ .
JEFFREY HERZBERG , P.C.
Attorney for Appellant
300 Rabro Drive
Suite 114
Hauppauge, NY 11788
W ILMER

A LAN E. S CHOENFELD , E SQ .
C UTLER P ICKERING H ALE AND D ORR LLP
Attorney for Respondent
7 World Trade Center
250 Greenwich Street
New York, New York 10007
Penina Wolicki
Official Court Transcriber
(Page 2)

CHIEF JUDGE DIFIORE: The first appeal on
this afternoon’s calendar is appeal number 85,
JPMorgan Chase, National Association v. Caliguri.
Counsel?
MR. HERZBERG: May it please the court, my
name is Jeffrey Herzberg, appearing on behalf of
the appellant, Ross Caliguri.
JUDGE RIVERA: Sir, what information would –
– – I'm sorry – – –
CHIEF JUDGE DIFIORE: Excuse me, Judge
Rivera. One second.
Sir, would you like for me to reserve some
rebuttal time for you?
MR. HERZBERG: Yes.

86894 • HERZBERG • APPENDIX E

AL 5/5/21

16a
CHIEF JUDGE DIFIORE: How much would you
like?
MR. HERZBERG: Three minutes.
CHIEF JUDGE DIFIORE: Three? Fine.
All right, Judge.
JUDGE RIVERA: Thank you. Sir, what – – –
what information would be revealed by getting
access to this original note?
MR. HERZBERG: Whether or not it
authentic in the chain of the original note.

was

JUDGE RIVERA: Um-hum. Something you say
could not be discerned from the copy of the note; is
that your

86894 • HERZBERG • APPENDIX E

AL 5/5/21

17a
Appendix F
SUPREME COURT – STATE OF NEW YORK
I.A.S. PART XXXVI SUFFOLK COUNTY

__________
PRESENT:
HON. PAUL J. BAISLEY, JR., J.S.C.

__________
INDEX NO.: 25638/2009
MOTION DATE: 12/22/2011
MOTION NO.: 004 MG

__________
PLAINTIFF’S ATTORNEY:
STEVEN J. BAUM, P.C.
P.O. Box 1291
Buffalo, New York 14240-1291

__________
DEFENDANTS’ ATTORNEY:
ZINKER & HERZBERG, LLP
278 East Main St., Suite C
Smithtown, New York 11787

__________

86894 • HERZBERG • APPENDIX F (WAS APPX G)

AL 5/5/21

18a

__________
JPM ORGAN C HASE B ANK N ATIONAL
A SSOCIATION ,
Plaintiff,
—v.—
R OSS R. C ALIGURI , A MERICAN E XPRESS
C ENTURION B ANK , M ORTGAGE E LECTRONIC
R EGISTRATION S YSTEMS , I NC . A S N OMINEE F OR
P ENTAGON F EDERAL C REDIT U NION , J OHN D OE
(Said name being fictitious, it being the intention
of Plaintiff to designate any and all occupants of
premises being foreclosed herein, and any parties,
corporations or entities, if any, having or claiming
an interest or lien upon the mortgaged premises.),
Defendants.

__________
Upon the following papers numbered 1 to 31
read on this motion for summary judgment; Notice
of Motion/Order to show cause and supporting
1-15 ; Notice of Cross Motion and
papers
supporting papers ___ ; Answering Affidavits and
supporting papers 16-24 ; Replying Affidavits
and supporting papers 25-31 ; Other ___; (and
after hearing counsel in support and opposed to
the motion) it is,·
ORDERED that the motion (motion sequence no.
004) of defendant Ross R. Caliguri for an order
granting summary judgment dismissing this
mortgage foreclosure action with prejudice, striking
the complaint and, in the alternative, other
sanctions, in accordance with CPLR §3126 and
R. 3212, is granted as set forth hereinafter.

86894 • HERZBERG • APPENDIX F (WAS APPX G)

AL 5/5/21

19a
The submissions reflect that plaintiff J.P.
Morgan Chase Bank, N.A. commenced the instant
action to foreclose a consolidated mortgage on
July 2, 2009. Thereafter defendant-mortgagor Ross
R. Caliguri served an answer which, inter alia,
asserted plaintiff’s lack of standing as an affirmative
defense. Defendant subsequently served plaintiff
with interrogatories and a demand for production
of documents. In particular, defendant demanded
that plaintiff produce the original note and original
mortgage assignment for inspection at the Long
Island office of plaintiff’s attorney, Steven J.
Baum, P.C “on a mutually [convenient] date and
time.” In response, plaintiff interposed various
objections to defendant’s interrogatories and
document demands and, citing the “commercial
sensitivity of these documents,” produced only a
copy of the notes, mortgage and assignment without offering a date and time for the production of
the original documents. Defendant thereafter
interposed a motion (motion sequence no. 003) to
compel plaintiff to “fully and completely respond to
all of the discovery requests propounded by
[defendant].”
While the motion to compel was sub judice, and
after a compliance conference at which plaintiff’s
repeated failure to produce the original note and
mortgage assignment was discussed, defendant
served plaintiff with a second request for production
of documents dated September 9, 2011 which
requested that the original mortgage assignment
be made available for inspection at the Long Island
office of plaintiff’s attorney in Westbury on a date
certain, to wit, October 5, 2011 at 2:00 p.m.

86894 • HERZBERG • APPENDIX F (WAS APPX G)

AL 5/5/21

20a
The submissions reflect that defendant’s attorney
appeared at the Westbury office of Steven J. Baum,
P.C. on October 5, 20112 at 2:00 p.m., together
with a forensic document examiner retained for
the purpose of inspecting the original documents.
Notwithstanding the duly served “Second Request
for Production of Documents,” to which the plaintiff
did not respond or object, no original documents
were produced for defendant’s inspection at that
time or thereafter.
On October 7, 2011, defendant interposed the
instant motion for summary judgment dismissing
the action with prejudice, striking the complaint,
and for other sanctions in accordance with CPLR
§3126 and R. 3212. Defendant’s motion is predicated
in substantial part on plaintiff’s failure to produce
evidence of its standing to commence and maintain
this foreclosure action. It is well established that
where the standing of a plaintiff in a mortgage
foreclosure action is a contested issue, as here, the
plaintiff must prove that it was the holder or
assignee of both the subject mortgage and the
underlying note at the time of commencement of
the action in order to be entitled to relief (Bank of
New York v Silverberg, 86 AD3d 274 [2d Dept
2011]). In opposition to defendant’s motion, plaintiff
has submitted only the affirmation of its attorney,
who does not have personal knowledge of the facts
alleged therein and accordingly is incompetent to
establish plaintiff’s standing (Zuckerman v City of
New York, 49 NY2d 557 [1980]). Moreover, the
documentary evidence annexed thereto, including
a purported assignment executed by a purported
“attorney in fact,” fails to establish as a matter of
law that plaintiff was the owner and holder of the
subject note(s) and mortgage(s) at the time of

86894 • HERZBERG • APPENDIX F (WAS APPX G)

AL 5/5/21

21a
commencement of this action. Plaintiff has thus
failed to establish, by proof in admissible form, its
standing to commence and maintain the instant
action. Accordingly, the submissions establish
defendant’s prima facie entitlement to summary
judgment dismissing plaintiff’s complaint.
Additionally, the submissions establish plaintiff’s
willful failure to comply with the discovery orders
of this Court. The October 19, 2011 order of this
court (BAISLEY, J.) granted defendant’s prior
motion to compel discovery, noting that plaintiff’s
prior responses were “substantively deficient” and
that plaintiff’s interposed objections were
“improper.” The order directed plaintiff to “provide
full, complete and substantive responses to each of
defendant’s interrogatories, including identifying
with specificity ‘any and all persons that assisted
in the preparation of the responses,’ ‘all persons
with knowledge of the facts at issue, in this case,’
and ‘any and all witnesses’ that plaintiff intends to
call at trial, and providing a basis for interpreting
the computerized payment schedule annexed to
plaintiff’s response to defendant’s interrogatories,
within 20 days of the date of service of notice of
entry of this order.” In addition, the order directed
plaintiff to “make available for defendant’s
inspection the original mortgage note and original
mortgage assignment, at a mutually convenient
place and time but in no event later than 20 days
after the date of service of notice of entry of this
order.”
Notwithstanding the foregoing, the “Amended
Answers to Interrogatories” served by plaintiff on
or about November 8, 2011 in response to the
Court’s order failed to comply with the order in

86894 • HERZBERG • APPENDIX F (WAS APPX G)

AL 5/5/21

22a
several material respects.1 Plaintiff admittedly
failed to “identify all persons with knowledge of
the facts at issue in this case,” failed to: “provid[e]
a basis for interpreting the computerized payment
schedule annexed to plaintiff’s response to
defendant’s interrogatories,” and interposed
substantially the same objections that had
previously been ruled upon by the Court and found
to be “improper.” In light of the express directives
contained in the order, plaintiff’s failure to
provide, “full, complete and substantive responses”
must be deemed to be willful (Forbes v New York
City Tr. Auth., 88 AD3d 546 [1st Dept 2011]) and
provides an independent basis for striking
plaintiff’s complaint in this action.
In light of all the foregoing, and in accordance
with CPLR R. 3212 and §3126, the Court grants
defendant’s motion for summary judgment and
strikes plaintiff’s complaint. The compliance
conference presently scheduled to be held before
the undersigned on March 29, 2010 is cancelled.
Dated: March 7, 2012

/s/ Paul J. Baisley, Jr.
PAUL J. BAISLEY, JR.
J.S.C.

1

Although the instant motion was interposed prior to the
issuance of the October 19, 2011 order, the parties specifically
addressed the sufficiency of plaintiff’s “Amended Answers to
Interrogatories” in their respective submissions upon the
motion, and at the Court’s request a complete copy of plaintiff’s
“Amended Answers to Interrogatories” was subsequently
provided to the Court and the motion is deemed amended
accordingly. The Court also notes that by letter dated October
27, 2011, plaintiff offered for the first time to produce the
original note and mortgage for defendant’s inspection, which
defendant declined in light of the instant pending motion.

86894 • HERZBERG • APPENDIX F (WAS APPX G)

AL 5/5/21

23a
Appendix G
STATE OF NEW YORK
C OURT OF A PPEALS

__________
Summaries of cases before the Court of
Appeals are prepared by the Public
Information Office for background
purposes only. The summaries are based
on briefs filed with the Court. For further
information contact Gary Spencer at
518-455-7711 or gspencer@nycourts.gov.

__________
To be argued Tuesday,November 17, 2020
(arguments begin at 2 pm)

__________
No. 85 JPMorgan Chase Bank, National
Association v Caliguri
No. 86 US Bank National Association
v Nelson

__________
These mortgage foreclosure actions hinge on
whether the plaintiffs established standing by
providing evidence that they were the holder or
owner of the mortgage note on which they sought

86894 • HERZBERG • APPENDIX G (WAS APPX H)

AL 5/5/21

24a
to foreclose, or whether they were required to
provide such evidence.
In Case No. 85, JPMorgan Chase Bank brought
this action in 2014 to foreclose a $1 million mortgage on a Suffolk County house owned by Ross
Caliguri, alleging he defaulted on the loan. The
bank acquired the note in 2008 when it purchased
all assets of the originator of the loan, Washington
Mutual Bank (WaMu), in a receivership transaction. Caliguri raised affirmative defenses in his
answer, including lack of standing, and demanded
production of the original note. Chase, which had
attached to its complaint copies of the mortgage
and the note with a blank endorsement from
WaMu, did not comply with the demand to inspect
the original note. Supreme Court denied Caliguri’s
motion to dismiss, finding the bank had established
standing, and granted the bank’s motion for
summary judgment.
The Appellate Division, Second Department
affirmed, saying, “JPMorgan Chase demonstrated
its prima facie entitlement to judgment as a
matter of law by producing the mortgage, the
unpaid note, and evidence of default.… In
addition, it established its standing by attaching
to the summons and complaint a copy of the
consolidated note, bearing an endorsement in
blank from the original lender.… Contrary to the
defendant’s contention, ‘there is no requirement
that an entity in possession of a negotiable
instrument that has been endorsed in blank must
establish how it came into possession of the
instrument in order to be able to enforce it.…’”
Caliguri argues that Chase failed to establish
standing by proving it had actual possession of the

86894 • HERZBERG • APPENDIX G (WAS APPX H)

AL 5/5/21

25a
original mortgage note. He says the lower courts
acted prematurely in granting summary judgment
to the bank when he had challenged the bank’s
standing and his demand for inspection of the
original note had not been met.
In Case No. 86, US Bank brought this action in
2009 to foreclose a $660,000 mortgage on a threefamily residence in Brooklyn owned by Kenyatta
and Safiya Nelson. US Bank alleged in its
complaint that it was “the owner and holder of
[the] note and mortgage being foreclosed.” In their
answers, the Nelsons denied the bank’s factual
allegations and raised several affirmative defenses,
but did not expressly assert that US Bank lacked
standing. Supreme Court granted the bank a
judgment of foreclosure and sale in 2015.
The Appellate Division, Second Department
affirmed on a 3-1 vote, ruling the Nelsons waived
any claim that the bank lacked standing to
foreclose. It said, “[The] issue of standing is
waived absent some affirmative statement on the
part of a mortgage foreclosure defendant, which
need not invoke magic words or strictly adhere to
any ritualistic formulation, but which must
clearly, unequivocally, and expressly place the
defense of lack of standing in issue by specifically
identifying it in the answer or in a pre-answer
motion to dismiss. A mere denial of factual
allegations will not suffice for this purpose.” The
dissenter said, “[T]here is no reason to adopt a rule
of law that mandates that the defense of lack of
standing is waived unless magic words such as
‘defense’ or ‘affirmative defense’ appear together
with lack of standing in a responsive pleading.…

86894 • HERZBERG • APPENDIX G (WAS APPX H)

AL 5/5/21

26a
[W]here … a plaintiff alleges in its complaint that
it is the ‘owner and holder of [the] note being
foreclosed’…, a denial … should suffice to put the
plaintiff on notice as to the issue of standing.”
No. 85 For appellant Caliguri: Jeffrey Herzberg,
Hauppauge (631) 761-6558
No. 85 For respondent JPMorgan Chase: Alan E.
Schoenfeld, Manhattan (212) 230-8800
No. 86 For appellant Nelsons: Jared B. Foley,
Manhattan (212) 935-3131
No. 86 For respondent US Bank: Katherine
Wellington, Manhattan (212) 918-3000

86894 • HERZBERG • APPENDIX G (WAS APPX H)

AL 5/5/21

27a
Appendix H
SUPREME COURT OF
THE STATE OF NEW YORK
COUNTY OF SUFFOLK

__________
Index No. _________

__________
In the Matter of the Application of
H ON . E LLEN G ESMER , H ON . D AVID F RIEDMAN ,
H ON . S HERI S. R OMAN , H ON . J OHN M.
L EVENTHAL , and D ANIEL J. T AMBASCO ,
Petitioners-Plaintiffs,
For a Judgment under Article 78 of the CPLR
—against—
T HE A DMINISTRATIVE B OARD OF THE N EW
Y ORK S TATE U NIFIED C OURT S YSTEM , J ANET
D I F IORE , AS C HIEF J UDGE OF THE N EW Y ORK
S TATE U NIFIED C OURT S YSTEM , and L AWRENCE
K. M ARKS , AS C HIEF A DMINISTRATIVE J UDGE OF
THE N EW Y ORK S TATE U NIFIED C OURT S YSTEM ,
Respondents-Defendants.

__________
SUMMONS
To the above-named Respondents-Defendants:

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

28a
YOU ARE HEREBY SUMMONED to answer
the complaint in this action and to serve a copy of
an answer, or, if the complaint is not served with
this summons, to serve a notice of appearance, on
the plaintiffs within twenty (20) days after the
service of this summons, exclusive of the day of
service (or within thirty (30) days after the service
is complete, if this summons is not personally
delivered to you within the State of New York), or
on the consent of the attorney for the PetitionersPlaintiffs, at the same time that you file a motion,
opposition, answer or other response to the
accompanying Verified Article 78 Petition,
specifically in advance of the return as scheduled
by the accompanying Order to Show Cause.
Dated: New York, New York
November 5, 2020
MORRISON COHEN LLP
Y. David Scharf
David B. Saxe
Danielle C. Lesser
Collin A. Rose
909 Third Avenue
New York, New York 10022
(212) 735-8600
and
ARNOLD & PORTER KAYE SCHOLER LLP
By: /s/ James M. Catterson
James M. Catterson
250 West 55th Street
New York, NY 10019
(212) 836-8000
Attorneys for Petitioner-Plaintiffs

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

29a
TO : THE ADMINISTRATIVE BOARD OF THE
NEW YORK STATE UNIFIED COURT SYSTEM
Office of Court Administration
Counsel’s Office
25 Beaver St, 11th floor
New York, NY 10004
JANET DI FIORE , AS CHIEF JUDGE OF THE
NEW YORK STATE UNIFIED COURT SYSTEM
New York State Court of Appeals
20 Eagle Street
Albany, New York 12207
LAWRENCE K. MARKS , AS CHIEF
ADMINISTRATIVE JUDGE OF THE NEW YORK
STATE UNIFIED COURT SYSTEM
Office of Court Administration
25 Beaver Street
New York, NY 10004

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

30a
SUPREME COURT OF
THE STATE OF NEW YORK
COUNTY OF SUFFOLK

__________
Index No. _________

__________
In the Matter of the Application of
H ON . E LLEN G ESMER , H ON . D AVID F RIEDMAN ,
H ON . S HERI S. R OMAN , H ON . J OHN M.
L EVENTHAL , and D ANIEL J. T AMBASCO ,
Petitioners-Plaintiffs,
For a Judgment under Article 78 of the CPLR
—against—
T HE A DMINISTRATIVE B OARD OF THE N EW
Y ORK S TATE U NIFIED C OURT S YSTEM , J ANET
D I F IORE , AS C HIEF J UDGE OF THE N EW Y ORK
S TATE U NIFIED C OURT S YSTEM , and L AWRENCE
K. M ARKS , AS C HIEF A DMINISTRATIVE J UDGE OF
THE N EW Y ORK S TATE U NIFIED C OURT S YSTEM ,
Respondents-Defendants.

__________

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

31a
VERIFIED ARTICLE 78 PETITION
AND COMPLAINT
TO THE SUPREME COURT OF THE STATE
OF NEW YORK:
Petitioners-Plaintiffs, Hon. Ellen Gesmer, Hon.
David Friedman, Hon. Sheri S. Roman, Hon. John
M. Leventhal, and Daniel J. Tambasco (collectively,
the “Petitioners”) by their attorneys, Morrison
Cohen, LLP, and Arnold & Porter Kaye Scholer
LLP, allege the following as and for their Verified
Article 78 Petition and Complaint against The
Administrative Board of the New York State
Unified Court System (the “Administrative Board”),
Chief Judge Janet DiFiore as Chief Judge of the
State of New York’s Unified Court System, Chief
Administrative Judge Lawrence Marks as the
Chief Administrative Judge of the State of New
York’s Unified Court System (collectively, the
“Respondents”):
PRELIMINARY STATEMENT
1.
For decades, the Administrative Board has
routinely authorized justices who have reached the
age of 70 to continue to serve the people of the
state of New York upon finding that (i) the judge
had the mental and physical capacity to do so; and
(ii) the justice’s services were necessary to
expedite the business of the Supreme Court. This
process is specifically authorized and governed by
the Constitution of the State of New York (Art. 6,
Sec. 25) and Section 115 of the New York State
Judiciary Law.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

32a
2.
Notwithstanding this, on September 29,
2020, Respondents announced their decision to
deny all but three pending requests for
certification, thereby terminating the services of
approximately 46 Supreme Court justices,
including seven presently serving on the Appellate
Divisions, all of whom are aged 70 or older, as of
December 31, 2020.
3.
Petitioners Gesmer, Friedman, Roman, and
Leventhal (the “Petitioner Justices”) are all
Supreme Court justices currently serving on the
Appellate Divisions who have had their requests
for certification denied by Respondents despite
lengthy and impressive histories of judicial service
in the public interest, and despite being among the
most productive members of the New York
judiciary, by virtue of their experience and
seniority. Petitioner Tambasco is a resident of
Suffolk County and an attorney who regularly
practices in the Supreme Court, Suffolk County.
4.
Respondents did not come to this decision
by making any individualized determinations as to
whether the justices met the statutory and
constitutional criteria, but justified their decision
solely on alleged budgetary constraints.
5.
Respondents denied certification to these
judges with total disregard for the impact of their
actions on the administration of justice for the
citizens of this state. In particular, the wholesale
denial of certifications by Respondents will result
in even greater delays in decision making by the
Appellate Divisions, delays in decision making by
the trial courts, a decrease in resources for the
provision of justice to the state’s most

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

33a
disadvantaged citizens, and a decrease in diversity
among the state’s judiciary. All of these
consequences will be inflicted on a court system
teetering on the edge of total dysfunction.
6.
In denying certification to these judges, the
Respondents have engaged in blatant age
discrimination. They decided to terminate the
most experienced judges in the state and have
already signaled their intention to replace those
judges with younger and less experienced judges,
some of whom have never been elected by the
voters of this state.
7.
In doing so, Respondents have violated
their
statutory
and
constitutional
duties,
committed acts of blatant age discrimination in
violation of the New York State and New York City
Human
Rights
Law,
and
violated
state
constitutional provisions thereby creating direct
conflict with the prerogatives of the other branches
of our state government.
8.
By this action, Petitioners seek that this
Court quash and reverse this unconstitutional and
illegal plan proposed by the Respondents, return
the Petitioner Justices to their rightful place in
the administration of Justice and restore their
valuable services to the citizens of the state.
JURISDICTION AND VENUE
9.
This Court has jurisdiction pursuant to
CPLR 3001 and 7804(b), which provide that the
Supreme Court of the State of New York has
jurisdiction over declaratory judgment actions and
Article 78 special proceedings.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

34a
10. Venue is proper pursuant to CPLR 506(b)
because this county is one where the material
effects of Respondents’ actions were felt.
11. Suffolk
County
has
an
estimated
population of approximately 1,477,000 people and
is the fourth most populous county in the entire
state.
12. As a result of Respondents’ actions, Suffolk
County will lose the services of Hon. Stephen J.
Lynch, Hon. Vincent J. Martorana, and Hon.
Robert F. Quinlan.
13. As a result of Respondents’ actions, the
Appellate Division, Second Department—the
appellate court responsible for appeals from
Suffolk County—is losing the services of three
justices, including two of the Petitioners.
14. Upon information and belief, Respondents’
actions will greatly increase the time between the
filing of a complaint and the note of issue, as well
as increase the time from the note of issue to jury
selection.
15. Upon information and belief, Respondents’
actions will increase the time it takes between the
filing of an appeal and the judicial resolution of
that appeal.
16. Thus, Respondents’ actions are causing
significant damage to the residents of Suffolk
County by impairing the administration of justice
in this county. Litigants in Suffolk County will be
denied timely access to the courts because of the
increased delays resulting from the unconstitutional decision by the Respondents.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

35a
THE PARTIES
17. Petitioner-Plaintiff Justice Ellen Gesmer is
a Justice of the Supreme Court of the State of New
York and has been on the bench since 2004. She
was appointed to the First Department in 2016.
She has participated in over 3,000 appeals. The
following is a summary of her judicial experience:
ASSOCIATE JUSTICE , APPELLATE DIVISION ,
FIRST DEPARTMENT
February 2016 to present
JUSTICE , SUPREME COURT OF THE STATE OF
NEW YORK , MATRIMONIAL PART
New York County, March 2009 to February 2016
Bronx County, October 2006 to March 2009
JUDGE , CRIMINAL COURT , CITY
January to October 2006

OF

NEW YORK

JUDGE, CIVIL COURT, OF THE CITY OF NEW YORK
New York County, 2005
Kings County, 2004
New York County, 2003
Elected 2003
18. Petitioner-Plaintiff Justice David Friedman
is a Justice of the Supreme Court of the State of
New York and has been on the bench since 1990.
He was appointed to the First Department in 1999.
He has participated in over 10,000 appeals. The
following is a summary of his judicial experience:
ASSOCIATE JUSTICE , APPELLATE DIVISION ,
FIRST DEPARTMENT
March 1999 to Present
JUSTICE OF THE SUPREME COURT ,
KINGS COUNTY
Presided over a medical malpractice and
criminal part of the Supreme Court,

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

36a
January 1998 to March 1999
Elected 1997, Re-elected 2011
ACTING JUSTICE OF THE SUPREME COURT ,
KINGS COUNTY
Presided over a criminal part of the Supreme
Court,
January 1994 to December 1997
JUDGE OF THE CIVIL COURT , KINGS COUNTY
January 1990 to December 1993
19. Petitioner-Plaintiff Justice Sheri S. Roman
is a Justice of the Supreme Court of the State of
New York and has been on the bench since 1985.
She was appointed to the Second Department in
2009. She has participated in over 8,000 appeals.
The following is a summary of her judicial
experience:
ASSOCIATE JUSTICE , APPELLATE DIVISION ,
SECOND DEPARTMENT
July 2009 to Present
SUPREME COURT JUSTICE , QUEENS COUNTY ,
CIVIL AND CRIMINAL TERMS ,
Re-elected 2009 to 2023
1995 to 2009
JUDGE , CRIMINAL COURT
NEW YORK
1985 to 1994

OF THE

CITY

OF

20. Petitioner-Plaintiff
Justice
John
M.
Leventhal is a Justice of the Supreme Court of the
State of New York and has been on the bench since
1994. He was appointed to the Second Department
in 2008. He has participated in over 8,000 appeals.
The following is a summary of his judicial
experience:

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

37a
ASSOCIATE JUSTICE , APPELLATE DIVISION ,
SECOND DEPARTMENT ,
Brooklyn, New York
January 25, 2008 to Present
PRESIDED OVER THE NATION ’S FIRST
DEDICATED FELONY DOMESTIC VIOLENCE
“COURT .”
June 1996-January 2008
PRESIDED OVER ARTICLE 81 GUARDIANSHIP
PROCEEDINGS .
2001 to January 2008
JUSTICE OF THE SUPREME COURT OF THE
STATE OF NEW YORK SECOND JUDICIAL
DISTRICT , Brooklyn, New York
Elected November 1995
21. Petitioner-Plaintiff Daniel J. Tambasco is a
resident of Suffolk County. He is an attorney,
admitted to practice in the Second Department in
1989. He regularly litigates civil actions in
Supreme Court, Suffolk County.
22. Respondent-Defendant Administrative Board
of the New York State Unified Court System (the
“Administrative Board”) is an administrative
board that offers advice to, and consults with, the
Chief Judge of the New York Court of Appeals and
the Chief Administrative Judge of the Courts of
the State of New York in overseeing and
establishing administrative policies for the Courts
of the State of New York. The Administrative
Board is composed of the Chief Judge of the New
York Court of Appeals and the four presiding
justices of each Appellate Division of the Supreme
Court. Currently, the Administrative Board is
composed of Chief Judge Janet DiFiore, Presiding

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

38a
Justice Rolando T. Acosta, Presiding Justice Alan
D. Scheinkman, Presiding Justice Elizabeth A.
Garry, and Presiding Justice Gerald J. Whalen.
23. Respondent-Defendant Chief Judge Janet
DiFiore is the Chief Judge of the Court of Appeals
and of the State of New York. She took office on
January 21, 2016.
24. Respondent-Defendant Chief Administrative
Judge Lawrence K. Marks is the Chief Administrative Judge responsible for overseeing the dayto-day operation of the New York State Unified
Court System and leading the Office of Court
Administration. He was appointed to his position
on July 29, 2015, and answers directly to the Chief
Judge.
25. Justice Rolando Acosta is a member of the
Administrative Board in his capacity as Presiding
Justice of the Supreme Court of the State of New
York, Appellate Division, First Department. He
was appointed to this position by Governor Cuomo
on May 22, 2017.
26. Justice Alan D. Scheinkman is a member of
the Administrative Board in his capacity as
Presiding Justice of the Supreme Court of the
State of New York, Appellate Division, Second
Department. He was appointed to this position by
Governor Cuomo on January 1, 2018. Presiding
Justice Scheinkman is retiring at the end of this
year.
27. Justice Elizabeth A. Garry is a member of
the Administrative Board in her capacity as
Presiding Justice of the Supreme Court of the
State of New York, Appellate Division, Third

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

39a
Department. She was appointed to this position by
Governor Cuomo on January 1, 2018.
28. Justice Gerald J. Whalen is a member of
the Administrative Board in his capacity as
Presiding Justice of the Supreme Court of the
State of New York, Appellate Division, Fourth
Department. He was appointed to this position by
Governor Cuomo on January 7, 2016.
FACTS COMMON TO
ALL CAUSES OF ACTION
RESPONDENTS ’ DENIAL OF FORTY -SIX PENDING
C ERTIFICATION A PPLICATIONS
29. Petitioner Justices, all Justices of the
Supreme Court of the State of New York, were
elected to their positions under Section 6 of Article
VI of the Constitution of the State of New York,
which provides that: “The justices of the supreme
court shall be chosen by the electors of the judicial
district in which they are to serve. The terms of
justices of the supreme court shall be fourteen
years from and including the first day of January
next after their election.”
30. All four Petitioner Justices are designated
by the Governor of the State of New York as
justices of the Appellate Division in their
respective Judicial Departments.
31. Section 25(b) of Article VI of the Constitution provides that “[e]ach ... justice of the supreme
court ... shall retire on the last day of December in
the year in which he or she reaches the age of
seventy.” This applies even if a justice has not yet
completed her fourteen (14) year term of office.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

40a
32.

This section further provides that:

Each such former judge of the court of
appeals and justice of the supreme court
may [after turning seventy (70)] perform
the duties of a justice of the supreme
court, with power to hear and determine
actions
and
proceedings,
provided,
however, that it shall be certificated in the
manner provided by law that the services
of such judge or justice are necessary to
expedite the business of the court and that
he or she is mentally and physically able
and competent to perform the full duties of
such office.
33. Consistent with the Constitution, Section
115 of New York’s Judiciary Law delineates the
procedure for a justice to be certificated to
continue her service as a justice beyond the age of
seventy (70). It provides that:
Any justice of the supreme court, retired
pursuant to subdivision b of section
twenty-five
of
article
six
of
the
constitution, may, upon his application, be
certified by the administrative board for
service as a retired justice of the supreme
court upon findings (a) that he has the
mental and physical capacity to perform
the duties of such office and (b) that his
services are necessary to expedite the
business of the supreme court.
34. Section 115 of the Judiciary Law further
provides that if a retired justice is certificated, her
certification will be valid for two years, and that

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

41a
she may reapply for certification until she reaches
the age of seventy-six (76).
35. Thus, pursuant to the Constitution and the
Judiciary Law, the Administrative Board is
empowered to accept applications from justices
who are about to be retired and determine whether
(a) each has the mental and physical capacity to
perform the duties of such office, and (b) whether
her services are necessary to expedite the business
of the Supreme Court.
36. Before September 29, 2020, forty-nine
justices, including all of the Petitioner Justices,
had applied to the Administrative Board to be
certificated for continued service for the two years
immediately following January 1, 2021.
37. On September 29, 2020, Chief Administrative Judge Marks issued a memorandum (the
“Certification Memo”) to the administrative judges
for each judicial district announcing that the
Administrative Board had decided to deny “all but
a small handful” of the pending applications for
certification or recertification filed by justices of
the Supreme Court.
38. In the Certification Memo, with a subject
line of “Certification,” Judge Marks asserted that
Governor Andrew Cuomo had “exercised the
emergency powers afforded him by the Legislature
by cutting the current Judiciary budget by 10
percent, or by approximately $300 million.”
39. While Judge Marks in the Certification
Memo states that the Governor has already
mandated budgetary cuts, in fact, he has not.
Rather, Governor Cuomo has made it clear in

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

42a
public statements that the state should not make
budget cuts at this time because the state might be
able to avoid emergency budget measures if a
substantial federal stimulus package is passed.
40. On October 5, 2020, only days after the
Certification Memo was issued, Governor Cuomo
stated that he was going to avoid any “irreversible”
cuts to the state budget in the hopes that the 2020
Elections would make conditions more favorable to
a substantial federal stimulus.
41. Despite the fact that the Governor has not
mandated a Judiciary budget cut and may not do
so, Chief Administrative Judge Marks referred to
the alleged budget cut in the Certification Memo
as “dramatic” and used it as the sole justification
“compel[ing Respondents] to implement a range of
painful measures.”
42. In particular, Judge Marks explained that
“the Administrative Board has decided to
disapprove all but a small handful of pending
judicial
applications
for
certification
or
recertification that would take effect on January 1,
2021.”
43. In the Certification Memo, Judge Marks
asserted that these denials of certification
applications would save $55 million over the next
two years and would help the court system to
“avoid layoffs, or greatly reduce the number of
layoffs should that extreme measure become
unavoidable.”
44. Essentially, in the Certification Memo,
Judge Marks announced that the Administrative
Board decided to eliminate Supreme Court justices

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

43a
in an attempt to preserve the jobs of the support
staff for the courts.
45. Ultimately, the Certification Memo effected
the Administrative Board’s decision to issue a
blanket denial of certification applications (with
exceptions made for three justices) with no
justification other than to purportedly save money.
The Petitioner Justices’ certification applications
were all denied as a result of the Administrative
Board’s decision.
46. Upon information and belief, the vote by
the Administrative Board to deny certification was
initially not unanimous. Originally, the straw vote
was 3-2 against the plan to deny certification with
only the Chief Judge and Justice Whelan of the
Fourth Department initially voting in favor of the
plan. The swing vote in favor of the plan to deny
certification ultimately was Justice Scheinkman of
the Second Department, who had previously stated
to justices for the Second Department that he
would support certification given the necessity of
their continued service. Justice Scheinkman was
originally elected in Westchester County, Ninth
Judicial District, which is Judge DiFiore’s home
district. Judge Difiore was his mentor when he
was appointed as Presiding Justice of the Second
Department.
47. Upon information and belief, in voting to
deny certification, Judge Marks and the
Administrative Board did not act in accordance
with the statutory or Constitutional criteria for
denying certification. They neither evaluated the
mental and physical capacities of the particular
justices applying for certification (including

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

44a
Petitioners), nor reached a determination that the
services of these justices, deemed necessary to
expedite the business of the Supreme Court for
decades, are no longer necessary.
48. At the time the Respondents elected to
deny Petitioners’ certification, all of the Petitioner
Justices were approved by the New York City Bar
Association and their local bar associations for
continued certificated service at the time of the
Certification Memo.
49. Moreover, at the time the Certification
Memo was issued, all but one of the Petitioner
Justices had in fact passed the medical exam
required to demonstrate their physical and mental
capacity to be certificated. With respect to the
Petitioner Justice who had not yet passed the
medical exam, this only occurred because her
appointment to take the necessary exams was
postponed until October 2020 by the temporary
closing of the medical provider due to the
pandemic, and then cancelled by the Office of
Court Administration after Respondents’ denials
of certification.
50. Respondents’ denials of forty-six (46) of
forty-nine (49) pending applications for certification from justices of the Supreme Court, including
those of the Petitioner Justices, threatens the
administrative and constitutional underpinnings
of the New York Unified Court System and will
further slow an already overburdened and
underfunded court system, with the inevitable
result of denying justice to the citizens of New
York State.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

45a
T HE H ISTORICAL N ECESSITY
D IVISION J USTICES

OF

A PPELLATE

51. As a result of constitutional convention of
1894, the State of New York amended Article VI of
the New York State Constitution to make major
changes, including the creation of the Appellate
Divisions. These changes were made to remedy
two evils: the great delay in bringing cases to trial
and in securing the final disposition of cases on
appeal. The decision of the Administrative Board
to eliminate the certification of senior judges has
in practice largely undone these changes and will
cause the court system to revert to the inefficient,
wasteful and inadequate system of 1894.
52. The original constitutional convention
provided for five justices to sit in each Department. In 1925, this allocation was increased to
seven justices for each Department who would
form what is known as the Constitutional Court.
Every additional justice appointed to the Appellate
Division, has been appointed by the Governor on
certification of need by each Department’s
presiding justice with the consultation of the
justices of the Constitutional Court. N.Y. Const.
Art. VI, § 4(e). Thus, since 1925, the presiding
justices have certificated to the Governor that the
additional justices, in addition to the seven
members of the Constitutional Court, were and are
necessary to the functioning of their respective
Departments.
53. Petitioner Justices are all justices who
were appointed to the Appellate Division because
their appointments were necessary to ensure the
speedy disposition of business before the court.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

46a
54. Upon information and belief, the workload in
each Department has grown exponentially over the
years. At no time has any Department requested
that the Governor reassign any justice because the
justice was no longer needed on the court. The
current workload is consistent with the presiding
justices’ repeated certifications to the Governor
that the judges in addition to the Constitutional
Court were necessary to handle the workload of
the respective Departments.
55. The workload of the courts has certainly
not decreased as a result of the temporary COVID19 shutdown of the court system. Rather, that
temporary shutdown has caused a backlog in the
First Department and exacerbated the backlog in
the Second Department. While both Departments
added additional sittings in order to diminish the
backlogs, neither department will be able to
continue to conduct the additional sittings if the
respondents’ decision to terminate the petitioners
is permitted to stand.
56. Indeed, Justice Acosta has verified that, at
least for the First Department, there are an
insufficient number of judges on the Court to
handle the existing workload. Similarly, Justice
Scheinkman has also certified to the Governor that
additional, designated justices are necessary for
the speedy disposition of the business before it.
57. Thus, all four Appellate Division Departments have not departed from their prior
attestations of the necessity of the current
complement of justices to expedite the business of
the courts.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

47a
58. Respondents’
actions
here,
denying
certification to the Petitioner Justices, all
Appellate Division justices who have for decades
been deemed to be necessary to the efficient
administration of justices in the States, will have
incalculable repercussions on justice system in
this State.
T HE C URRENT M AKE -U P
D IVISIONS

OF THE

A PPELLATE

59. The Appellate Division, Second Department
is currently composed of the following justices:
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.

Alan D. Scheinkman, Presiding Justice
William F. Mastro
Reinaldo E. Rivera
Mark C. Dillion
Ruth C. Balkin
Cheryl E. Chambers
Leonard B. Austin
John M. Leventhal
Sheri S. Roman
Jeffrey A. Cohen
Robert J. Miller
Sylvia Hinds-Radix
Joseph J. Maltese
Colleen D. Duffy
Hector D. LaSalle
Betsy Barros
Francesca E. Connolly
Valerie Brathwaite Nelson
Angela G. Iannacci
Linda Christopher
Paul Wooten

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

48a
60. Of these justices, the Constitutional Court
in the Second Department is comprised of Justices
Scheinkman, Mastro, Rivera, Balkin, Dillon,
Chambers and Austin. The remaining fourteen
Associate Justices of the Second Department were,
at the time of their respective appointments all
considered to be necessary to the functioning of the
Court.
61. Petitioners Justice John M. Leventhal and
Justice Sheri S. Roman have been denied certification by virtue of the order effective January 1, 2021.
Collectively these two justices have sat on
approximately 15,000 appeals.
62. The Appellate Division, First Department
is currently composed of the following justices:
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.
Hon.

Rolando T. Acosta, Presiding Justice
David Friedman
Dianne T. Renwick
Sallie Manzanet-Daniels
Judith J. Gishe
Barbara R. Kapnick
Troy K. Webber
Angela M. Mazzarelli
Ellen Gesmer
Cynthia S. Kem
Jeffrey K. Oing
Anil C. Singh
Peter H. Moulton
Lizbeth Gonzalez
Tanya R. Kennedy
Saliann Scarpulla
Manuel J. Mendez
Martin Shulman

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

49a
63. Of those justices, the Constitutional Court
of the First Department is comprised of Justices
Acosta, Friedman, Renwick, Manzanet-Daniels,
Gische, Kapnick and Webber. The remaining
eleven Associate Justices of the First Department
were at the time of their respective appointments,
all considered to be necessary to the functioning of
the Court. Given Presiding Justice Acosta’s
statements referred to above, all of the justices of
the Court are necessary to keep pace with the
current filings in the Court.
64. Despite that acknowledged need, Petitioners
Justice Friedman, on the Constitutional Court,
and Justice Gesmer have been denied certification
by virtue of the order effective January 1, 2021.
Justice Mazzarelli was recertificated as an
exception to the order. Justices Friedman and
Gesmer collectively have sat on approximately
15,000 appeals.
65. In addition to Petitioners, Respondents’
actions denied certification to three other
Appellate Division justices: (1) Hon. Jeffrey A.
Cohen, Appellate Division, Second Department, (2)
Hon. Eugene P. Devine, Appellate Division, Third
Department, and (3) Hon. Joseph J. Maltese,
Appellate Division, Second Department.
66. In addition to the justices on the Appellate
Division, the following Supreme Court justices in
the Second Department were denied certification
by the order effective January 1, 2021:
Hon. Thomas A. Adams
Presiding Justice, Appellate Term,
9th & 10th JD

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

50a
Hon. Antonio I. Brandeveen
NYS Supreme Court, Nassau County
Hon. Jeffrey S. Brown
NYS Supreme Court, Nassau County
Hon. Stephen A. Bucaria
NYS Supreme Court, Nassau County
Hon. Richard Lance Buchter
NYS Supreme Court, Queens County –
Criminal Term
Hon. Lawrence H. Ecker
NYS Supreme Court, Westchester County
Hon. Joseph J. Esposito
NYS Supreme Court, Queens County –
Civil Term
Hon. Thomas Feinman
NYS Supreme Court, Nassau County
Hon. William J. Giacomo
NYS Supreme Court, Westchester County
Hon. Maureen A. Healy
NYS Supreme Court, Queens County –
Civil Term
Hon. Daniel Lewis
NYS Supreme Court, Queens County –
Criminal Term
Hon. Stephen J. Lynch
NYS Supreme Court, Suffolk County
Hon. Ira H. Margulis
NYS Supreme Court, Queens County –
Criminal Term

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

51a
Hon. Orlando Marrazzo, Jr.
NYS Supreme Court, Richmond County –
Civil Term
Hon. Larry D. Martin
NYS Supreme Court, Kings County –
Civil Term
Hon. Vincent J. Martorana
NYS Supreme Court, Suffolk County
Hon. Robert F. Quinlan.
NYS Supreme Court, Suffolk County
Hon. Bernice D. Siegal
NYS Supreme Court, Queens County –
Civil Term
Hon. Bruce E. Tolbert
NYS Supreme Court, Westchester County
67. The following Supreme Court justices in
the First Department were denied certification by
the order effective January 2, 2021:
Hon. Lester B. Adler
NYS Supreme Court, Bronx County
Hon. Ben R. Barbato
NYS Supreme Court, Bronx County
Hon. Steven L. Barrett
NYS Supreme Court, Bronx County
Hon. Lucy A. Billings
NYS Supreme Court, New York County
Hon. Kathryn E. Freed
NYS Supreme Court, New York County
Hon. Nicholas J. Iacovetta
NYS Supreme Court, Bronx County

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

52a
Hon. Robert T. Johnson
NYS Supreme Court, Bronx County
Hon. Alan C. Marin
NYS Supreme Court, New York County
Hon. Donald H. Miles
NYS Supreme Court, Bronx County
Hon. Michael J. Obus
NYS Supreme Court, New York County
Hon. Howard H. Sherman
NYS Supreme Court, Bronx County
Hon. Fernando Tapia
NYS Supreme Court, Bronx County
R ESPONDENTS ’ A CTIONS T HREATEN
W ORK ING OF THE C OURT S YSTEM

THE

68. By denying the Petitioner Justices and
forty-two other justices certification and removing
them from the bench, Respondents’ actions ensure
a slowdown of the already glacial pace of litigation
in the Supreme Court.
69. Indeed, because the Petitioner Justices
have not been certificated, several of them are not
serving on appellate panels for the balance of
2020, or will soon stop sitting. The First and
Second Departments had each added an additional
day of argument each week to address the backlogs
caused by the pandemic. As a result of the denials
of certifications, the Appellate Divisions will no
longer be able to schedule the extra argument
panel each week. Moreover, in some cases in the
Second Department, appeals may be heard by
three panels of three justices per week instead of

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

53a
four panels of four justices hearing appeals each
week in November and December 2020.
70. Currently, even with the presence of these
justices denied certification, the New York Unified
Court
System
already
has
struggled
to
expeditiously hear, try, and decide cases. There
are numerous examples of these types of delay
already present in the New York Unified Court
System.
71. For example, the Second Department
currently has a delay of at least three years from
the date of perfecting an appeal until the parties
have oral argument, a back log that Presiding
Justice Scheinkman has tried to address by hiring
additional attorneys for short, one-year terms to
assist with the workload before the Second
Department. With the loss of four senior judges of
the Court, the retirement of the presiding justice,
and two other vacancies, however, there can be no
dispute that the time for hearing an appeal will
continue to grow to record levels of delay.
72. This type of delay and back log in the
courts system has only been exacerbated by
COVID-19.
73. For example, Presiding Justice Acosta was
quoted in the New York Law Journal as stating
that, because of the pandemic, “we have seen a
significant increase in the number of perfectedbut-uncalendared cases for the first time in my
tenure as Presiding Justice. The pandemic
required us to suspend our April calendar of
perfected appeals and adjourn those cases to
subsequent months. Although we heard hundreds
of appeals as a virtual court during our Special

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

54a
May and June terms, many appeals had to be
adjourned. And, as usual, we received hundreds of
newly perfected appeals for September. As a
result, we currently have more than 1,100
perfected appeals for the September term. Given
our typical capacity to hear fewer than 300 appeals
per term, it is clear that we have a challenging
road ahead.”
74. Similarly Presiding Justice Scheinkman
has publicly acknowledged that since the
pandemic, the Second Department has dropped
from hearing around 20 cases in a sitting to 16
cases in a sitting, creating an additional backlog
for appeals.
75. This backlog, which will be substantially
worsened by the Respondents’ denials of certification, will disproportionately affect minority
communities. For example, the Second Department—where the backlog of cases is worst among
the four Appellate Divisions—includes Kings
County and Queens County, both of which have
diverse demographic makeups. In Kings County,
approximately 63.8% of its residents (an estimated
total population of 2,559,903) belong to minority
groups and 45.4% speak languages other than
English at home. Similarly, in Queens County,
approximately 55.92% of its residents (an
estimated total population of 2,253,858) belong to
minority groups and 56.16% speak languages other
than English as their primary language.
Respondents’ actions undeniably harm these
diverse communities’ access to the court system.
76. Since Respondents denied the Petitioner
Justices certification, many legal organizations

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

55a
and associations have condemned and opposed
Respondents’ actions, particularly with respect to
their effect on the pace of litigation in New York,
including: the New York City Bar Association
(Council on Judicial Administration), New York
State Trial Lawyers Association, LGBT Bar
Association of Greater New York, Assigned
Counsel Association – NYS, Inc., New York State
Assembly Committee on the Judiciary, Supreme
Court Justices Association of the City of New York,
Inc., the Association of Justices of the Supreme
Court of the State of New York, Inc., and the
Judicial Friends Association, Inc.
77. While the Chief Administrative Judge and
the Chief Judge have cited budgetary constraints
as requiring the denial of certification to judges
deemed necessary to advance the administration of
justice in this State, they have unabashedly
continued to seek the designation of civil court
judges as Acting Justices of the Supreme Court, in
an attempt to stem the burdensome and evergrowing caseload of the present system.
78. As of 2019, there are 333 elected Supreme
Court justices and approximately 260 acting
Supreme Court Justices. Seventy-three Acting
Supreme Court justices were appointed from the
Court of Claims. The remainder were designated
acting Supreme Court justices from the lower
courts such as County Court and Family Court.
79. On June 20, 2019, the Senate confirmed the
Governor’s appointment of ten judges to the Court
of Claims. All but two of these appointments were
re-appointments. Further, nine of the ten judges

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

56a
confirmed at that time have been appointed acting
Supreme Court justices.
80. In the midst of the pandemic and ensuing
budget crisis and two months before the
Certification Memo denying certification to 49
elected judges for purported budgetary reasons, on
July 24, 2020 the Senate confirmed the Governor’s
appointment of an additional four judges to the
Court of Claims: Veronica G. Hummel, Charles M.
Troia, Adrian N. Armstrong and Adam W.
Silverman. Judges Troia, Hummel and Silverman
were immediately appointed acting Supreme Court
justices.
81. From the records available to the public on
OCA’s website, it appears that several Court of
Claims judges who were appointed acting Supreme
Court justices have been certificated under
Judiciary Law §115. There are no legal basis for
such certifications.
82. Thus, while the Chief Judge and the Chief
Administrative Judge (himself a Court of Claims
Judge named as an acting Supreme Court justice)
have cited budgetary reasons to deny certification
to the most seasoned and experienced judges in
our system of justice, they nevertheless have also
simultaneously sought the appointment of acting
justices, undercutting the so-called budgetary
justifications for denial of certification.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

57a
AS AND FOR A FIRST CAUSE OF ACTION
(For Judgement Pursuant to CPLR 7803)
83. Petitioners repeat and reallege each and
every allegation in the foregoing paragraphs as if
fully set forth herein.
84. Article 78 of New York’s Civil Practice Law
and Rules supersedes the common-law writs and
provides a device for challenging the actions of the
Respondents, administrative agencies and officers
of the State of New York.
85. In particular, Section 7803(3) of the CPLR
authorizes a petitioner to raise in a special
proceeding before a Supreme Court “whether a
determination was made in violation of lawful
procedure, was affected by an error of law or was
arbitrary and capricious or an abuse of discretion,
including abuse of discretion as to the measure or
mode of penalty or discipline imposed.”
86. Here, the Respondents’ decisions must be
guided by the requirements of the Constitution of
the State of New York and Section 115 of the
Judiciary Law.
87. Section 115 of the Judiciary Law provides
two basis for denial of certification: each
individual justice’s certification or recertification
application may be denied upon an assessment of
(a) the mental and physical capacity to perform the
duties of such office, and (b) the necessity to
expedite the business of the Supreme Court.
88. As a matter of law, the determination of
necessity includes consideration of the need for
additional judicial capacity and whether the

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

58a
individual seeking certification can meet this
need.
89. The Respondents did not deny the
Petitioner Justices’ certification applications on
both or either of these requisite bases, or indeed on
any individual basis. Rather, Respondents’ relied
on budgetary concerns for the wholesale and
across the board denial of certification or
recertification, a consideration which is explicitly
outside the bases set forth in the Judiciary Law.
90. Accordingly, Respondents violated the
lawful
procedures
contemplated
by
the
Constitution of the State of New York and required
by Section 115 of the Judiciary Law.
91. Because Respondents did not comply with
these procedures, their denials of certification
were “made in violation of lawful procedure” as
contemplated by CPLR 7803(3).
92. Accordingly,
Respondents’
denials
of
certification with respect to the Petitioner Justices
must be annulled and Respondents must make
determinations as to (i) the mental and physical
capacity of the Petitioner Justices to continue
their duties as justices of the Supreme Court, and
(b) whether the Petitioner Justices’ continued
service is necessary to expedite the business of the
Supreme Court.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

59a
AS AND FOR A SECOND
CAUSE OF ACTION
(For Judgment Pursuant to CPLR 7803)
93. Petitioners repeat and reallege each and
every allegation in the foregoing paragraphs as if
fully set forth herein.
94. Section 7803(3) of the CPLR authorizes a
petitioner to raise in a special proceeding before a
Supreme Court “whether a determination was
made in violation of lawful procedure, was affected
by an error of law or was arbitrary and capricious
or an abuse of discretion, including abuse of
discretion as to the measure or mode of penalty or
discipline imposed.”
95. Here, the blanket denials of certification
issued by Respondents with respect to the
Petitioner Justices were not only made in violation
of lawful procedure, but are further subject to
challenge because Respondents’ denials were
arbitrary and capricious.
96. Upon information and belief, Respondents
considered criteria which bore no rational
relationship to the statutory and constitutional
criteria.
97. Agency action will be overturned as
“arbitrary and capricious” where “the record shows
that the agency’s action was ‘arbitrary,
unreasonable, irrational or indicative of bad
faith.’” Matter of Zutt v. State of New York, 99
A.D.3d 85, 97 (2d Dep’t 2012) (quoting Matter of
Halperin v. City of New Rochelle, 24 A.D.3d 768,
770 (2d Dep’t 2005)).

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

60a
98. Respondents’ blanket denials of certification are “arbitrary, unreasonable, irrational, or
indicative of bad faith.”
99. The sole justification provided by Chief
Administrative Judge Marks for the denial of
Petitioners’ certification applications were fiscal
concerns arising out of an expected, but not
certain, $300 million budget cut to the Judiciary
undertaken by Governor Cuomo.
100. In this context, Chief Administrative Judge
Marks in the Certification Memo explained that
the decision to deny almost all of the pending
certification applications would save the New York
Unified Court System $55 million over two years.
101. Savings of $55 million over two years is an
unsupportable figure.
102. The Certification Memo suggests that
Respondents calculated the average savings of
denying each justice’s certification application as
almost $1.2 million over two (2) years.
103. None of the Respondents have provided any
justification or empirical basis for this expected
savings figure.
104. In fact, denying certification to the
Petitioner Justices and the other justices whose
pending applications for certification were denied
could never result in $55 million in savings over
two years.
105. Respondents failed to consider the costs to
the court system from denying certification.
Respondents also failed to consider the nonmonetary costs of denying certification which

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

61a
include, but are not limited to: the court system’s
loss of prestige for engaging in blatantly
discriminatory conduct, the decline in morale
among the remaining judges and justices, and the
decreased efficiency of a court system deprived of
its senior bench.
106. By denying the pending certification
applications for forty-six justices, these vacated
seats on the Supreme Court may be filled by
appointments well before any certification period
would expire.
107. Moreover, these forty-six justices will
receive full pension payments as opposed to their
yearly salaries. Thus, the cost to the public is
virtually the same. The main difference is that the
retired justices will receive a near to full salary
but not work as judges. The court system will lose
all of the benefits of their hard work and expertise
but the state will still be paying for it.
108. As a result, it is rational and reasonable to
expect that the budgetary impact of Respondents’
actions will not lessen the strain on New York’s
Judiciary budget, but could increase the strain.
109. Based upon the foregoing, the $55 million
in expected savings cited by Chief Administrative
Judge Marks is a non-empirical figure not
rationally based on the actual expected budgetary
impact of the Administrative Board’s decision to
deny almost all of the pending certification
applications for justices of the Supreme Court.
110. Thus, Respondents’ reliance on this
unsupported expected savings figure in denying
the Justice Petitioners’ applications for certification renders their decision(s) irrational and

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

62a
unreasonable, and therefore
capricious under CPLR 7803(3).

arbitrary

and

111. Moreover, because Section 115 of the
Judiciary Law requires the Administrative Board
to consider the “necessity” of the justices applying
for certification, the budgetary savings – if indeed
any exist at all – must be balanced against the
current and documented necessity for justices in
the New York Unified Court System.
112. As outlined above, the New York Unified
Court System is currently experiencing an extreme
backlog of cases, with justice delayed becoming
justice denied in far too many cases. By denying
certification to forty-six justices of the Supreme
Court, including Petitioners, Respondents are only
ensuring that this backlog will worsen.
113. As a result, even if Respondents could
demonstrate that the denial of forty-six pending
certification applications could result in de minimis
savings, these savings would be insufficient, under
Section 115 of the Judiciary Law, to rationalize
Respondents’ choice to disapprove of the Petitioner
Justices’ applications for certification. This is
particularly true with respect to the Petitioner
Justices, justices of the Supreme Court, Appellate
Division, who represent only a small fraction of
any de minimis expected savings under
Respondents’ plan.
114. For all of the foregoing reasons, the
Respondents’ decision to deny certification to all of
the Petitioners was arbitrary and capricious under
CPLR 7803(3).

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

63a
115. Accordingly,
Respondents’
denials
of
certification with respect to the Petitioner Justices
must be annulled.
AS AND FOR A THIRD CAUSE OF ACTION
(Declaratory Judgment)
116. Petitioners repeat and reallege each and
every allegation in the foregoing paragraphs as if
fully set forth herein.
117. CPLR § 3001 authorizes the Supreme Court
to render a declaratory judgment “having the
effect of a final judgment as to the rights and other
legal relations of the parties to a justiciable
controversy whether or not further relief is or
could be claimed.”
118. Consistent with the Constitution of the
State of New York, Section 115 of New York’s
Judiciary Law, a measure enacted by the
legislature of the State of New York, delineates the
procedure for a justice to be certificated to
continue service as a justice beyond the age of
seventy (70). It provides that:
Any justice of the supreme court, retired
pursuant to subdivision b of section
twenty-five of article six of the constitution, may, upon his application, be
certified by the administrative board for
service as a retired justice of the supreme
court upon findings (a) that he has the
mental and physical capacity to perform
the duties of such office and (b) that his
services are necessary to expedite the
business of the supreme court.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

64a
119. Despite constitutional and legislative
enactments, Respondents have ultimately and
unilaterally determined, without any amendment
of this provision by the legislature, that due to
budgetary concerns, the Petitioner Justices’
certification applications should be denied.
120. Because Respondents have not evaluated
the Petitioner Justices’ certification applications
on the two grounds specified by the Constitution of
the State of New York and by the legislature in the
Judiciary Law, Respondents have, by their actions,
repealed these provisions, disregarded the judgment of the New York State Legislature, and
eliminated the certification process for justices on
their own accord.
121. Altogether, Respondents’ actions have
unconstitutionally negated Section 115 of the
Judiciary Law, a legislative enactment by the New
York State Legislature meant to effectuate the role
and operation of the New York State Unified Court
system consistent with Article 6 of the
Constitution of the State of New York.
122. Respondents’
actions
threaten
the
functioning of the court and do away with the
certification program’s purpose of ensuring that
the courts do not lose the benefit of experienced,
productive and capable justices after they tum
seventy (70) years old.
123. Moreover, by failing to implement the
Judiciary Law, Respondents have entirely
disregarded the certification program and usurped
the power of the New York State Legislature.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

65a
124. As evidenced by the above, a justiciable
controversy exists concerning whether Respondents
actions are unconstitutional and illegal.
125. A declaration of the parties’ rights under
the Constitution of the State of New York and the
Judiciary Law is required.
126. Based upon the foregoing, Petitioners are
entitled to a declaration that Respondents’ denial
of Petitioners’ certification applications was
unconstitutional and illegal in violation of the
Constitution of the State of New York and the
Judiciary Law.
AS AND FOR A FOURTH
CAUSE OF ACTION
(Declaratory Judgment)
127. Petitioners repeat and reallege each and
every allegation in the foregoing paragraphs as if
fully set forth herein.
128. Section 6 of Article I of the Constitution of
the State of New York states: “No person shall be
deprived of life, liberty or property without due
process of law.”
129. Here, the Petitioner Justices have a
property interest in their terms and continued
service as justices of the Supreme Court even after
their mandatory retirement age, as specifically
contemplated by the procedures required by
Constitution of the State of New York and the
Judiciary Law.
130. Because the Petitioner Justices have such a
property interest, they were and continue to be

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

66a
entitled to procedural due process protections to
ensure that they are not deprived of that right in a
way that violates fundamental fairness.
131. Here, Respondents decision to deny
Petitioners certification applications has violated
fundamental
fairness
principles
because
Respondents’ decision has ensured that the
Petitioner Justices have been unfairly and
erroneously deprived of their ability to continue to
serve as justices of the Supreme Court.
132. Moreover, Respondents’ chosen course of
action—ignoring the guidelines and standards laid
out in Judiciary Law Section 115 and denying
Petitioners’ applications for certification—has
arbitrarily deprived the Petitioner Justices of their
interest in continuing to serve as justices of the
Supreme Court.
133. Thus, Respondents have denied the
Petitioner Justices procedural due process under
the law.
134. As evidenced by the above, a justiciable
controversy exists concerning whether Respondents’
near-blanket denial of pending certification applications, including those of the Petitioner Justices,
denied the Petitioner Justices due process.
135. A declaration of the parties’ due process
rights under the Constitution of the State of New
York and the Judiciary Law is required.
136. Based upon the foregoing, Petitioners are
entitled to a declaration that Respondents’ denial
of Petitioners’ certification applications denied the
Petitioners due process under the Constitution of
the State of New York.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

67a
AS AND FOR A FIFTH CAUSE OF ACTION
(Declaratory Judgment)
137. Petitioners repeat and reallege each and
every allegation in the foregoing paragraphs as if
fully set forth herein.
138. Section 4(e) of Article 6 of the Constitution
of the State of New York provides:
In case any appellate division shall certify
to the governor that one or more additional justices are needed for the speedy
disposition of the business before it, the
governor may designate an additional
justice or additional justices; but when the
need for such additional justice or justices
shall no longer exist, the appellate division
shall so certify to the governor, and thereupon service under such designation or
designations shall cease.
139. Upon a showing of necessity, this provision
empowers Appellate Divisions to request that the
governor designate additional justices to help
expedite the business of the Appellate Division.
Without these necessity designations, the Appellate
Divisions would only consist of seven (7) justices,
the Constitutional Court, as specified by Section
4(b) of Article 6 of the Constitution of the State of
New York. The seven justices of all four Appellate
Divisions who are serving pursuant to Section 4(b)
rather than Section 4(e) compose the Constitutional
Court.
140. Section 4(d) of Article 6 of the Constitution
of the State of New York allows that where the
governor designates such an additional justice (or

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

68a
does so other under circumstances) to serve on the
Appellate Division, and those designated justice
departs the courts (i.e. a vacancy opens up) the
governor thereby “shall make new designations.”
141. It is pursuant to these constitutional
provisions that the size of the Appellate Divisions
have consistently increased well-beyond the size of
the Constitutional Court to their current sizes.
142. For over a century, Appellate Divisions
have continued to certify to the governor the need
for additional justices, and the governor has
replaced these designated justices as vacancies
arise.
143. Upon information and belief, never has an
Appellate Division certified to a governor that a
designated additional Appellate Division justice
was no longer necessary for the “speedy disposition
of the business before it.”
144. Thus, the absence of a certification to the
Governor that necessity no longer exists,
demonstrates that the Appellate Divisions have
undisputedly expressed to the Governor their
continued belief in the necessity of the justices
serving on the Appellate Divisions.
145. However,
by
Respondents’
actions,
Respondents have superseded and disregarded the
Appellate Division’s determinations of necessity
and determined that the Petitioner Justices, along
with several other Appellate Division justices, are
no longer necessary for the business of the
Appellate Division.
146. Moreover, in issuing their certification
denials on grounds independent of those specified

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

69a
by Section 115 of the Judiciary Law, Respondents
have overstepped their own constitutional
authority and interfered with the Appellate
Divisions’ ability to certify to the Governor the
continued necessity of their justices’ services.
147. Thus, Respondents’ almost-blanket denial
of pending applications for certification from
Appellate Division justices (and Petitioners)—as
opposed to the good faith, case-by-case basis
required by the Constitution of the State of New
York—has usurped and contradicted the constitutional authority provided to the Appellate Divisions
to certify to the Governor the continued necessity
of those justices designated for necessary service
on the Appellate Division.
148. Respondents’ denials of almost all pending
certification applications are therefore unconstitutional because Respondents are overstepping their
constitutional authority and interfering with the
constitutional relationship between the Appellate
Divisions and the Governor concerning the
necessity of justices.
149. As evidenced by the above, a justiciable
controversy exists concerning whether Respondents’
denials of almost all pending certification
applications violate the Constitution of the State
of New York.
150. A declaration of whether the Respondents’
near-blanket denial of pending certification
applications violates the Constitution of the State
of New York is required.
151. Based upon the foregoing, Petitioners are
entitled to a declaration that Respondents’ denial

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

70a
of Petitioners’ certification applications violated
the Constitution of the State of New York.
AS AND FOR A SIXTH CAUSE OF ACTION
(Discrimination under New York’s
Human Right Law)
152. Petitioners repeat and reallege each and
every allegation in the foregoing paragraphs as if
fully set forth herein.
153. The State of New York’s Human Rights
Law (“NY HRL”) is set forth in Article 15 of New
York’s Executive Law. Section 291 of the NY HRL
provides, “The opportunity to obtain employment
without discrimination because of age, race, creed,
color, national origin, sexual orientation, gender
identity or expression, military status, sex,
marital status, or disability, is hereby recognized
as and declared to be a civil right.”
154. Moreover, Section 296(1) of the NY HRL
provides that “It shall be an unlawful discriminatory practice:
(a) For an employer or licensing agency,
because of an individual’s age, race, creed,
color, national origin, sexual orientation,
gender identity or expression, military
status, sex, disability, predisposing genetic
characteristics, familial status, marital
status, or status as a victim of domestic
violence, to refuse to hire or employ or to
bar or to discharge from employment such
individual or to discriminate against such
individual in compensation or in terms,
conditions or privileges of employment.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

71a
155. “Employer” is defined in Section 292 of the
NY HRL as referring to “all employers within the
state.”
156. Section 297(9) of the NY HRL provides that
individuals may seek redress for unlawful
discrimination under the NY HRL by bringing suit
in a court of appropriate jurisdiction, stating:
9. Any person claiming to be aggrieved by
an unlawful discriminatory practice shall
have a cause of action in any court of
appropriate jurisdiction for damages,
including, in cases of employment discrimination related to private employers
and housing discrimination only, punitive
damages, and such other remedies as may
be appropriate, including any civil fines
and penalties provided in subdivision four
of this section ....
157. Here, the Petitioner Justices are all justices
of the Supreme Court of the State of New York
who have extensive judicial experience and have
served the public with distinction.
158. The Petitioner Justices all reside within
the State of New York and are employed by the
New York State Unified Court System.
159. The Petitioner Justices are all at least
seventy (70) years old and by the explicit terms of
the NY HRL belong to a protected class on the
basis of their age.
160. Respondents’ actions to eliminate and deny
the Petitioner Justices’ pending requests for certification—thereby effectively firing the Petitioner
Justices—targeted and discriminated against
Petitioners on the basis of their age.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

72a
161. In fact, Respondents’ own justifications for
their actions indicated that they targeted the
Petitioner Justices and forty-two other elder
justices in connection with purported budgetary
cuts rather than undertake age-neutral layoffs in
other areas of the New York Unified Court System.
162. Moreover, Respondents’ denial of the
Petitioner Justices’ certification applications
ensures that Petitioners will be replaced in favor
of younger justices.
163. Thus, Respondents’ actions to deny the
Petitioner Justices’ requests for certification were
discriminatory and illegal under the NY HRL.
AS AND FOR A SEVENTH
CAUSE OF ACTION
(Discrimination under New York City’s
Human Right Law)
164. Petitioners repeat and reallege each and
every allegation in the foregoing paragraphs as if
fully set forth herein.
165. In addition to the State of New York, New
York City has its own regulations in place
outlawing discriminatory practices.
166. New York City’s Human Rights Law (“NYC
HRL”) is set forth in Title 8 of the Administrative
Code of the City of New York. Section 8-101 of the
NYC HRL states New York City’s policy as follows:
In the city of New York, with its great cosmopolitan population, there is no greater danger
to the health, morals, safety and welfare of the
city and its inhabitants than the existence of

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

73a
groups prejudiced against one another and
antagonistic to each other because of their
actual or perceived differences, including those
based on race, color, creed, age, national origin,
immigration or citizenship status, gender,
sexual orientation, disability, marital status,
partnership status, caregiver status, sexual
and reproductive health decisions, uniformed
service, any lawful source of income, status as
a victim of domestic violence or status as a
victim of sex offenses or stalking, whether
children are, may be or would be residing with
a person or conviction or arrest record.
167. Section 8-107 of the NYC HRL provides:
1. Employment. It shall be an unlawful
discriminatory practice:
(a) For an employer or an employee or
agent thereof, because of the actual or
perceived age, race, creed, color, national
origin, gender, disability, marital status,
partnership status, caregiver status,
sexual and reproductive health decisions,
sexual orientation, uniformed service or
immigration or citizenship status of any
person:
(1) To represent that any employment or position is not available when in
fact it is available;
(2) To refuse to hire or employ or to
bar or to discharge from employment such
person; or
(3) To discriminate against such
person in compensation or in terms,
conditions or privileges of employment.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

74a
168. Section 8-102 of the NYC HRL defines
“employer” for the purposes of Section 8-107(1) as
any employer with four or more persons in its
employ.
169. Section 8-502 of the NYC HRL governs the
right of individuals to enforce the terms of the
NYC HRL by civil action. It provides:
a. Except as otherwise provided by law,
any person claiming to be a person
aggrieved by an unlawful discriminatory
practice as defined in chapter 1 of this
title or by an act of discriminatory harassment or violence as set forth in chapter 6
of this title shall have a cause of action in
any court of competent jurisdiction for
damages, including punitive damages, and
for injunctive relief and such other remedies
as may be appropriate, unless such person
has filed a complaint with the city
commission on human rights or with the
state division of human rights with respect
to such alleged unlawful discriminatory
practice or act of discriminatory harassment or violence. For purposes of this
subdivision, the filing of a complaint with
a federal agency pursuant to applicable
federal law prohibiting discrimination
which is subsequently referred to the city
commission on human rights or to the
state division of human rights pursuant to
such law shall not be deemed to constitute
the filing of a complaint under this
subdivision.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

75a
170. Here, the Petitioner Justices are all justices
of the Supreme Court of the State of New York
who have extensive judicial experience and have
served the public with distinction.
171. The Petitioner Justices all reside in New
York City and were elected as Supreme Court
justices in a county within New York City. The
Petitioner Justices are all employed by the New
York State Unified Court System, an agency with
more than four employees.
172. The Petitioner Justices are all at least
seventy (70) years old and by the explicit terms of
the NYC HRL belong to a protected class on the
basis of their age.
173. Respondents’ actions to eliminate and deny
the Petitioner Justices’ pending requests for
certification—thereby effectively firing Petitioners
—targeted and discriminated against Petitioners
on the basis of their age.
174. In fact, Respondents’ own justifications for
their actions indicated that they targeted the
Petitioner Justices and forty-two other elder
justices in connection with purported budgetary
cuts rather than undertake age-neutral layoffs or
budgetary cuts with respect to other areas of the
New York Unified Court System and its budget.
175. Moreover, Respondents’ denial of the
Petitioner Justices’ certification applications
ensures that Petitioners will be replaced in favor
of younger justices.
176. Thus, Respondents’ actions to deny the
Petitioner Justice’ requests for certification were
discriminatory and illegal under the NYC HRL.

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

76a
WHEREFORE, Petitioners respectfully request
that this Court grant judgment in its favor as
follows:
(a) On the first cause of action, finding that
Respondents’ actions were in violation of
lawful procedure under CPLR 7803(3);
(b) On the second cause of action, finding that
Respondents’ actions were arbitrary and
capricious under CPLR 7803(3);
(c) On the third cause of action, a declaration
that Respondents’ actions were unconstitutional and illegal;
(d) On the fourth cause of action, a declaration that Respondents’ actions denied
Petitioners’ due process under the
Constitution of the State of New York;
(e) On the fifth cause of action, a declaration
that Respondents’ actions were unconstitutional;
(f) On the sixth cause of action, finding that
Respondents’ actions were discriminatory
in violation of New York’s Human Rights
Law;
(g) On the seventh cause of action, finding
that Respondents’ actions were discriminatory in violation of New York City’s
Human Rights Law;
(h) Granting such further and additional
relief as the court deems just and proper.
Dated: New York, New York
November 5, 2020

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

77a
MORRISON COHEN LLP
Y. David Scharf
David B. Saxe
Danielle C. Lesser
Collin A. Rose
909 Third Avenue
New York, New York 10022
(212) 735-8600
ARNOLD & PORTER KAYE SCHOLER LLP
By: /s/ James M. Catterson
James M. Catterson
250 West 55th Street
New York, NY 10019
(212) 836-8000
Attorneys for Petitioner-Plaintiffs

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

78a
VERIFICATION
STATE OF NEW YORK
COUNTY OF NEW YORK

)
) ss.:
)

ELLEN GESMER, being duly sworn, deposes
and says:
I am Petitioner-Plaintiff Justice Ellen Gesmer in
this action. I have reviewed the foregoing Verified
Article 78 Petition and Complaint and know the
contents thereof, and the same are true and
correct to the best of my knowledge, except as to
those matters that are stated to be alleged on
information and belief, and as to those matters, I
believe them to be true.
Dated: New York, New York
November 4, 2020
/s/ Ellen Gesmer
Hon. Ellen Gesmer
Notarization was made pursuant
to Executive Order 202.7
Sworn to me before this
4th day of November, 2020
/s/ Lucy Mahecha
Notary Public
[STAMP]
LUCY MAHECHA
NOTARY PUBLIC-STATE OF NEW YORK
No. 01MA6384242
Qualified in Rockland County
My Commission Expires 12-10-2022

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

79a
VERIFICATION
STATE OF NEW YORK
COUNTY OF KINGS

)
) ss.:
)

DAVID FRIEDMAN, being duly sworn, deposes
and says:
I am Petitioner-Plaintiff Justice David Friedman
in this action. I have reviewed the foregoing
Verified Article 78 Petition and Complaint and
know the contents thereof, and the same are true
and correct to the best of my knowledge, except as
to those matters that are stated to be alleged on
information and belief, and as to those matters, I
believe them to be true.
Dated: Kings, New York
11/4/2020
/s/ David Freidman
Hon. David Friedman
Notarization was made pursuant
to Executive Order 202.7
Sworn to me before this
4th day of November, 2020
/s/ Lucy Mahecha
Notary Public
[STAMP]
LUCY MAHECHA
NOTARY PUBLIC-STATE OF NEW YORK
No. 01MA6384242
Qualified in Rockland County
My Commission Expires 12-10-2022

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

80a
VERIFICATION
STATE OF NEW YORK
COUNTY OF NEW YORK

)
) ss.:
)

JOHN M. LEVENTHAL, being duly sworn,
deposes and says:
I am Petitioner-Plaintiff Justice John M.
Leventhal in this action. I have reviewed the
foregoing Verified Article 78 Petition and
Complaint and know the contents thereof, and the
same are true and correct to the best of my
knowledge, except as to those matters that are
stated to be alleged on information and belief, and
as to those matters, I believe them to be true.
Dated: 11-4-2020, New York
11/4/2020
/s/ John M. Leventhal
Hon. John M. Leventhal
Notarization was made pursuant
to Executive Order 202.7
Sworn to me before this
4th day of November, 2020
/s/ Lucy Mahecha
Notary Public
[STAMP]
LUCY MAHECHA
NOTARY PUBLIC-STATE OF NEW YORK
No. 01MA6384242
Qualified in Rockland County
My Commission Expires 12-10-2022

86894 • HERZBERG • APPENDIX H (WAS APPX I)

AL 5/5/21

81a
Appendix I
Older Appellate Division Justices
Ask Court To Hold DiFiore,
Other Defendants in Contempt

__________
BY JASON GRANT
THE FOUR Appellate Division justices who have
sued the state court system for not to recertifying
them to the bench on Wednesday afternoon filed
emergency papers asking a Suffolk County judge
to find the state’s chief judge, Janet DiFiore, and
other state defendants in contempt of court for not
complying with court-ordered expedited discovery.
A 4:30 p.m. hearing on the order to show cause
was happening before Suffolk County Supreme
Court Justice Paul Baisley Jr. on Wednesday, as
the plaintiffs, Appellate Division Justices Ellen
Gesmer, David Friedman, Sheri Roman and John
Leventhal, asked for Baisley to hold the
defendants in civil contempt of court.
“This motion is about recognizing the Rule of
Law,” said Y. David Scharf, a Morrison Cohen
partner and a lead lawyer for the Appellate
Division justices in their suit, in a text message
Wednesday afternoon from the courthouse.
Lucian Chalfen, chief spokesman for the state
court system, declined to comment Wednesday
while the hearing before Baisley was ongoing. He
said he would comment after the hearing was
completed.

86894 • HERZBERG • APPENDIX I (WAS APPX J)

AL 5/5/21

82a
The hearing was not available for the public to
see or hear via video or audio feed. It was being
held with the lawyers for both sides of the suit
present in the courtroom.
The filing lodged Wednesday by the older
Appellate Division justices and their legal team
complains that DiFiore would not and did not
appear for a deposition on Monday, Nov. 16, and
that state Chief Administrative Judge Lawrence
Marks also did not appear for his slated deposition
today.
Both depositions had been ordered by Baisley to
happen, after he signed off on a Nov. 5 order to
show cause submitted by the justices and their
lawyers that asked that expedited discovery in
their lawsuit be granted.
In addition, Baisley’s order had instructed the
court system defendants to produce documents in
the case by Nov. 14, before the scheduled
depositions. But the justices and Scharf say those
documents were not produced.
The court system defendants “have decided to
simply ignore the Order of this Court to turn over
documents and to appear for depositions,” states a
memorandum of law filed Wednesday in support of
justice’s motion for contempt of court to be
ordered. The memorandum is signed by several
lawyers at Morrison Cohen, including partners
Scharf and David Saxe, and by James Catterson, a
partner at Arnold & Porter Kaye Scholer.
The memo in support also states, “Our court
system plays the central role in upholding the rule
of law. The rule of law ensures that no one is
beneath the protection of the law and no one is free

86894 • HERZBERG • APPENDIX I (WAS APPX J)

AL 5/5/21

83a
from the obligation to comply with it, including the
Chief Judge [Difiore] of the Unified Court System
and the Court of Appeals as well as the Chief
Administrative Judge [Marks].”
It continues, “The instant motion is one that is
not easy to make, and it is with great regret that
the Petitioners [the plaintiff appellate justices]
find themselves in the present situation. However,
the Respondents [the court system defendants]
have done everything in their power – and their
power over the court system is considerable – to
drag out these proceedings with the understanding
that by so doing, the Petitioners will be nonsuited
by nothing more than the passage of time.”
“In taking the oath of office, each judge or justice
in New York State swears to to uphold the United
States Constitution and the New York State
Constitution,” the memorandum adds. “Implicit in
that oath is fealty to the rules of practice as well as
obedience to lawful orders of the Court.”
The court system defendants made their own
motion last week, asking that the entire case be
moved in its venue from Suffolk to Albany County.
That motion is pending.
The appellate justices’ lawsuit, filed Nov. 5,
alleges violations of state constitutional rights,
along with age discrimination under the state and
New York City Human Rights Acts. It springs out
of a decision announced by Chief Administrative
Judge Marks in late September that “all but a
small handful” of older judges’ applications in the
state for certification or recertification to the
bench would be denied due to a court system
budget cut of $300 million handed down by Gov.
Andrew Cuomo.

86894 • HERZBERG • APPENDIX I (WAS APPX J)

AL 5/5/21

84a
Cuomo, under extraordinary budget pressure
because of the COVID-19 pandemic’s economic
fallout, announced the court-system budget slash
in September. In total, 46 of 49 older judges, all
between ages 70 and 76, are being effectively
terminated on Dec. 29 due to the court system not
certifying or recertifying them to the bench. The
court system’s recertification process for judges
reaching age 70 has long allowed the state’s courts
to keep on the bench, for up to six years, many of
its most experienced judges.
In the weeks and months since Marks
announced that 46 senior justices would not be
certified or recertified, there was been mounting
public pushback against the decision. State bar
groups, some legislatures in Albany and lawyers
for the terminated justices have decried that the
decision may create “chaos” in an already overworked system, and lead to a failure to serve
litigants and their lawyers properly or in a timely
way. They also say that the decision was made
prematurely, before it becomes clear what
financial aid the state may get from the federal
government, and before Cuomo has said that
judges should be cut loose.
The New York Law Journal has reported that
sources with knowledge of discussions among the
46 judges say that a lawsuit separate from the
appellate justices’ action may be brought by dozens
of trial court-level judges affected by the court
system’s choice not to recertify them.
@ Jason Grant can be reached at jgrant@alm.com.
Twitter: @JasonBarrGrant

86894 • HERZBERG • APPENDIX I (WAS APPX J)

AL 5/5/21

85a
Appendix J
SUPREME COURT OF
THE STATE OF NEW YORK
COUNTY OF SUFFOLK

__________
Index No. _________
H ON . _________, J.S.C.

__________
In the Matter of the Application of
S UPREME C OURT J USTICES A SSOCIATION OF
THE C ITY OF N EW Y ORK , I NC ., by its President
H ON . E STHER M. M ORGENSTERN , A SSOCIATION
OF J USTICES OF THE S UPREME C OURT OF THE
S TATE OF N EW Y ORK , by its President H ON .
C HARLES C. M ERRELL , H ON . K ATHRYN E. F REED ,
H ON . O RLANDO M ARRAZZO , H ON . L ARRY D.
M ARTIN , H ON . J AMES J. P IAMPIANO , H ON .
B ERNICE D. S IEGAL , and H ON . F ERNANDO T APIA ,
For a Judgment Pursuant to Article 78 of
the New York Civil Practice Law and Rules
—against—

Petitioners,

T HE A DMINISTRATIVE B OARD OF THE N EW
Y ORK S TATE U NIFIED C OURT S YSTEM , J ANET
D I F IORE , AS C HIEF J UDGE OF THE N EW Y ORK
S TATE U NIFIED C OURT S YSTEM , and L AWRENCE
K. M ARKS , AS C HIEF A DMINISTRATIVE J UDGE OF
THE N EW Y ORK S TATE U NIFIED C OURT S YSTEM ,
Respondents.

__________

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

86a
VERIFIED PETITION
Supreme Court Justices Association of the City
of New York, Inc., by its President Hon. Esther M.
Morgenstern, Association of the Justices of the
Supreme Court of the State of New York, by its
President Hon. Charles C. Merrell, Hon. Kathryn
E. Freed, Hon. Orlando Marrazzo, Hon. Larry D.
Martin, Hon. James J. Piampiano, Hon. Bernice D.
Siegal, and Hon. Fernando Tapia (collectively,
“Petitioners”) state the following as and for their
Petition pursuant to Article 78 of the New York
Practice Laws and Rules (“CPLR”) against the
Administrative Board of the New York State
Unified Court System (the “Administrative
Board”), Chief Judge Janet DiFiore as Chief Judge
of the State of New York’s Unified Court System,
Chief Administrative Judge Lawrence Marks as
the Chief Administrative Judge of the State of
New York’s Unified Court System (collectively, the
“Respondents”):
INTRODUCTION
1.
Petitioners file this Verified Petition for
judgment pursuant to Article 78 of the New York
Civil Practice Laws and Rules (“CPLR”) as follows:
a.

invalidating the Administrative Board’s
determination to deny certification to 46
Supreme Court Justices as against the
lawful procedure set forth under New York
State’s Constitution;

b.

vacating the Administrative Board’s determination to deny certification to each of the

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

87a
46 Supreme Court Justices as arbitrary and
capricious;
c.

finding that Respondents’ actions were
discriminatory in violation of New York
State’s Human Rights Law;

d.

ordering the Administrative Board to
expeditiously reevaluate each Petitioner’s
request for certification on an individualized basis, as required by New York
State’s Constitution;

e.

ordering that any Supreme Court Justice
who filed the appropriate pension and
health care papers in reliance on their
denial of certification be permitted to withdraw those papers if the Administrative
Board’s decision is vacated; and

f.

awarding Petitioners such other and
further relief as the Court deems just and
proper.

2.
No prior application has been made for the
relief requested herein.
3.
This proceeding is related to a proceeding
filed in the Supreme Court of the State of New
York, Suffolk County titled In the Matter of the
Application of Hon. Ellen Gesmer, et al., Index No.
616980/2020 (Sup. Ct. Suffolk Cnty. 2020).
4.
This proceeding is not about whether the
Court System can afford to continue the dedicated
service of 46 experienced jurists, despite
Respondents’ public protestations. Rather, this
proceeding focuses on the Court System’s failure to
adhere to the constitutionally required criteria for

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

88a
determining whether an elected Supreme Court
Justice should be “certificated” to continue to serve
the people that elected them.
5.
Pursuant to New York State’s Constitution
and Judiciary Law, before denying certification to
a judge or justice, the Administrative Board must
determine whether the justice is “necessary to
expedite the business of the court” and whether
“he or she is mentally and physically able and
competent to perform the full duties of such office.”
N.Y. CONST . art. VI, § 25(b); see also N.Y. JUD .
LAW § 115(1).
6.
The Administrative Board’s decision not to
certificate 46 of 49 Supreme Court Justices amid a
global pandemic has created a devastating domino
effect that will hinder the operations of the court
at virtually every level.
7.
Previously, with 30 to 40 applications each
year, the Administrative Board declined certification to some three judges in a three-year period.
This year, all but three were summarily denied.
These judges include those serving on the
Appellate Divisions of the state, on the Appellate
Term, and in the trial courts.
8.
In addition to those who were discontinued,
many more judges have voluntarily retired,
reducing the ranks of Supreme Court Justices
further. Thus, to fill empty seats at the Appellate
Division, the ranks of trial court judges will be
further depleted. All this without any indication
that the Court System considered any of the 46
judges individually or studied the consequent
impact of their determination.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

89a
9.
The Administrative Board’s decision to not
certificate, en masse, 46 judges to avoid making
other tough budgetary choices effectively reads the
certification process out of the Constitution.
10. Likewise, the determination violates the
Constitution by failing to consider each judge
individually and, instead, basing the determination on the improper and illegal criteria that these
judges are technically “retired” and have already
had long careers.
11. That cannot be a constitutional criteria, for
the certification process is reserved precisely for
“retired” elected Supreme Court Justices and
evidences the value placed on continued service by
these experienced jurists.
12. Further, the failure to certificate these
judges is irrational and contrary to the Court
System’s mission. As the Administrative Board
itself has expressed, justice delayed is justice
denied.
THE PETITIONERS
13. The Association of the Justices of the
Supreme Court of the State of New York, Inc. (the
“State Association”) was established pursuant to
Judiciary Law § 217. The State Association is
organized as a not-for-profit corporation under
New York law to encourage and advance the
proper protection of the professional, social and
economic interests of the judicial and non-judicial
personnel of the court and to work towards
improving the judicial system. Judiciary Law § 217
vests in the State Association, as well as other

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

90a
court-based judicial associations, the obligation to,
on behalf of its members, “consult with the chief
judge and the chief administrator with respect to
the impact of administrative policies on the
functioning of the courts and related agencies of
the unified court system.” See N.Y. JUD . LAW §
217. No such consultation was permitted here.
14. The Supreme Court Justices’ Association of
the City of New York, Inc. (the “City Association,”
and together with the State Association, the
“Associations”) was established as a not-for-profit
corporation under New York law to represent New
York State Supreme Court Justices who serve in
the City of New York. The City Association’s goals
include improving the working conditions and
welfare of the Supreme Court Justices of New York
City by promoting appropriate laws, regulations
and policies to support the Judiciary. The City
Association represents Supreme Court Justices
presiding in New York City and the State
Association represents Supreme Court Justices
presiding in New York State.
15. The Administrative Board’s decision to
deny certification to 94% of the New York Supreme
Court Justices that applied this year has had a
profound impact on the Associations’ members.
Unlike in previous years, however, several of the
Associations’ members were denied certification
for the term beginning January 2021. Certification
not only impacts the Associations’ members who
were denied certification, but it affects the
remaining Associations’ judges who, if this is not
reversed, would bear the burden of increased
caseloads due to the drastic reduction in the
number of New York State Supreme Court Justices

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

91a
serving on the Judiciary. They would now face the
daunting task of quickly familiarizing themselves
with newly transferred cases, many of which were
commenced years before, while also juggling the
demands of their existing caseloads. Moreover,
members of the Associations expect to apply for
certification or re-certification next year and have
a vested interest in determining the scope of the
Administrative Board’s authority with regard to
certification.
16. Petitioner Kathryn E. Freed is a Justice of
the Supreme Court of the State of New York in
New York County and has been on the bench since
2004. She is a member of the City Association and
was summarily denied certification on September
29, 2020 despite meeting the constitutional
criteria. Justice Freed was elected to the New York
Civil Term in 2014, and since that time she has
been sitting in General IAS Part 2. She has been
certificated twice before, demonstrating her
continued ability to serve on the bench. The
following is a summary of her judicial experience:
• Certificated Justice, Supreme Court, New
York County (2016 to 2020)
• Justice, Supreme Court, New York County
(2014 to 2015)
• Acting Justice, Supreme Court, New York
County, Appointed by Chief Administrative
Judge A. Gail Prudenti (2011 to 2014)
• Judge, Civil Court of the City of New York,
New York County (2010 to 2011)
• Judge, Civil Court of the City of New York,
Kings County (2006 to 2009)

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

92a
• Judge, Criminal Court of the City of New
York (2004 to 2005)
17. Petitioner Orlando Marrazzo is a Justice of
the Supreme Court of the State of New York in
Richmond County and has been on the bench since
2010. Justice Marrazzo currently presides over the
Commercial, Medical Malpractice and Guardianship Parts in Richmond County. He also handles
other civil matters and currently has an inventory
of approximately 500 cases. He is a member of the
Associations and was summarily denied certification on September 29, 2020 despite meeting the
constitutional criteria. The following is a summary
of his judicial experience:
• Justice, Supreme Court, Richmond County
(2019-Present)
• Acting Justice, Supreme Court, Richmond
County (2012-2020)
• Judge, Civil Court of the City of New York,
Richmond County (2010 to 2019)
18. Petitioner Larry D. Martin is a Justice of
the Supreme Court of the State of New York and
has been on the bench since 1992. In 2019 he was
appointed the Presiding Justice of the Commercial
Division of Kings County. He has presided over
hundreds of trials including felony, medical
malpractice, civil and commercial cases and is
currently responsible for an inventory of over five
hundred commercial actions. He is a member of
the Associations and was summarily denied
certification on September 29, 2020 despite
meeting the constitutional criteria. The following
is a summary of his judicial experience:

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

93a
• Presiding Justice of the Commercial
Division of Kings County (Oct. 2019 to
Present)
• Supreme Court Justice, Kings County, Civil
and Criminal Terms (Jan. 1994 to Present)
• Judge, Criminal Court of the City of New
York, Kings County (1992 to 1994)
• Judge of the Civil Court (1992 to 1994).
Assigned to the Criminal Part.
19. Petitioner James J. Piampiano is a Justice
of the Supreme Court of the State of New York in
the 7th Judicial District and has been on the bench
since 2008. He is a member of the State
Association and was summarily denied certification on September 29, 2020 despite meeting the
constitutional criteria. The following is a summary
of his judicial experience:
• Justice, Supreme Court, 7th Judicial District
(2016 to Present)
• Monroe County Court Judge and Acting
Supreme Court Justice (2011 to 2015)
• Acting Rochester City Court Judge (2009 to
2010)
• Henrietta Town Justice (2008 to 2010)
20. Petitioner Justice Bernice D. Siegal is a
Justice of the Supreme Court of the State of New
York in Queens County and has been on the bench
since 2002. She is a member of the Associations
and was summarily denied certification on
September 29, 2020 despite meeting the
constitutional criteria. Justice Siegal was
appointed by Hon. Larry Marks to the Appellate
Term, Second Department, in 2018. In addition to
her duties on the Appellate Term, she continues to

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

94a
preside over one of only three Guardianship Parts
in the 11th Judicial District, Queens County. Her
current guardianship caseload is some 1,685 cases.
The following is a summary of her judicial
experience:
• Justice, Appellate Term, Second Department
(2018 to Present)
• Justice, Supreme Court, Queens County
(2009 to 2020)
• Supervising Judge, Civil Court of the City of
New York, Queens County (2007 to 2008)
• Judge, Civil Court of the City of New York,
Queens County (2002 to 2008)
21. Petitioner Justice Fernando Tapia is a
Justice of the Supreme Court of the State of New
York in Bronx County and has been on the bench
since 2003. He presides over complex legal
disputes and trials involving medical malpractice,
labor, and products liability. He is a member of the
Associations and was summarily denied certification on September 29, 2020 despite meeting the
constitutional criteria. The following is a summary
of his judicial experience:
• Justice, Supreme Court, Bronx County (2013
to Present)
• Acting Justice, Supreme Court, Bronx
County, Appointed by Chief Administrative
Judge Ann Pfau (2010)
• Judge, Civil Court of the City of New York,
New York County (2003 to 2012)

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

95a
RESPONDENTS
22. Chief Judge Janet DiFiore is the Chief
Judge of the Court of Appeals and the State of New
York. The Constitution designates Judge DiFiore
as the head of the Judiciary, and she may adopt
administrative policy for the courts after
consultation with the Administrative Board of the
New York State Unified Court System (the
“Administrative Board”).
23. The Administrative Board is comprised of
the Chief Judge and the Presiding Justices of the
four Appellate Divisions of the Supreme Court.1
Currently, the Administrative Board is composed
of Chief Judge Janet DiFiore, Presiding Justice
Rolando T. Acosta, Presiding Justice Alan D.
Scheinkman, Presiding Justice Elizabeth A. Garry,
and Presiding Justice Gerald J. Whalen.
24. With the advice and consent of the
Administrative Board, the Chief Judge also
appoints a Chief Administrative Judge who is
responsible for supervising the day-to-day
administration and operation of the trial courts.2
The current Chief Administrative Judge is
Lawrence K. Marks. The Chief Administrative
Judge establishes the administrative office of the
courts, which includes the Office of Court
Administration (“OCA”).3
1

See State of New York Unified Court System,
Judiciary Budget FY 2019-20, available at: http://ww2.
nycourts.gov/sites/default/files/document/files/2018-11/201920-JUDICIARY-Budget.pdf (last accessed Nov. 22, 2020)
[Hereinafter “OCA 2019-20 Budget”] (attached hereto as Ex. 1).
2
See id.
3
See id.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

96a
25. Supreme Court Justices are not OCA
employees and retain judicial independence from
OCA.4
ALLEGATIONS
New York’s Overburdened Court System
26. New York State’s Unified Court System is
among the largest and busiest in the country, with
volumes of complex matters filed daily.5
27. Article VI of the New York State Constitution establishes the Judicial branch and defines
the organization and jurisdiction of the courts.6
28. The New York State Court System is
comprised of thirteen judicial districts and four
appellate departments.
29. There are eleven lower courts of original
jurisdiction, including: the Supreme Court, the
Court of Claims, District Courts, County Courts,
Family Courts, Surrogate’s Courts, City Courts, a
New York City Criminal Court, a New York City
Civil Court, and the Town and Village Courts.7
4

Rob Abruzzese, Biggest opponents to court-merger plan
continues to be Supreme Court justices, BROOKLYN DAILY
EAGLE (Nov. 23, 2019), available at: https://brooklyneagle.
com/articles/2019/11/23/biggest-opponents-to-court-merger-plancontinues-to-be-supreme-court-justices/ (last accessed Nov. 22,
2020).
5
Jeh Charles Johnson, Report from the Special Adviser
on Equal Justice in the New York State Courts (Oct. 1, 2020),
at 25, available at: http://courts.state.ny.us/whatsnew/pdf/
SpecialAdviserEqualJusticeReport.pdf [Hereinafter “Equal
Justice Report”] (attached hereto as Ex. 2).
6
See N.Y. CONST. art. VI.
7
Equal Justice Report at 16 (attached hereto as Ex. 2).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

97a
30. The New York State Court System employs
over 1,200 state-paid judges and 15,500 nonjudicial
staff, many of whom provide services directly to
the public.8
31. New York State courts are overburdened,
forcing judges to work as efficiently as possible to
meet the demands of their unprecedented
caseloads.
32. A Report from the Special Adviser on Equal
Justice in the New York State Courts,
commissioned by Chief Judge DiFiore, found that
the public routinely complained about “an underresourced, over-burdened New York State Court
System, the dehumanizing effect it has on
litigants, and the disparate impact of all this on
people of color.”9
33. An under-resourced and overburdened
judicial system could impel judges to make rushed
decisions without having the opportunity to
reconsider their assumptions and biases, contributing to further implicit bias in the Court System
and undermining public confidence in a fair
judicial process.10

8

Assembly Standing Committee on the Judiciary, Notice
of Online Video Public Hearing, Budget and Staffing
Reductions in the Judiciary Branch (Nov. 12, 2020), available
at: https://nyassembly.gov/comm/?id=24&sec=story&story=94227
(attached hereto as Ex. 3).
9
Equal Justice Report at 54.
10
See id.; see also Susan C. Bryant, NYS Defenders
Association, Testimony at Assembly Standing Committee on
the Judiciary, Budget and Staffing Reductions in the Judiciary
Branch (Nov. 12, 2020) (transcript unavailable).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

98a
34. In 2018, the New York State trial courts
experienced one of the highest number of civil case
filings in the country, second only to Texas, which
has a population of 9.1 million more people than
New York.11
35. At the trial court level, New York State
judges hear an average of 3,236,334 new cases per
year.12
36. The Supreme Court of New York carries a
particularly heavy load. Over the last three years,
the Supreme Court has received an average of
459,586 civil filings per year, including an average
of 175,151 new cases.13 Over that same period, the
Supreme Court of New York handled approximately 39,145 new felony case filings per year.14
11

2018 Statewide Civil Caseloads and Rates, COURT
STATISTICS PROJECT, available at: http://popup.ncsc.org/CSP/
CSP_Intro.aspx (last accessed Nov. 9, 2020).
12
See id.
13
New York State Unified Court System 2017 Annual
Report, Report of the Chief Administrator of the Courts, at 46,
available at: http://ww2.nycourts.gov/sites/default/files/docu
ment/files/2018-09/17 _ UCS-Annual_ Report.pdf (last accessed
Nov. 15, 2020) [Hereinafter “2017 UCS Report”] (attached
hereto as Ex. 4); New York State Unified Court System 2018
Annual Report, Report of the Chief Administrator of the
Courts, at 40, available at: https://www.nycourts.gov/legacy
pdfs/18_UCS-Annual_Report.pdf (last accessed Nov. 15, 2020)
[Hereinafter “2018 UCS Report”] (attached hereto as Ex. 5);
New York State Unified Court System 2019 Annual Report,
Report of the Chief Administrator of the Courts, at 36,
available at: https://www.nycourts.gov/legacypdfs/19_UCSAnnual_Report.pdf (last accessed Nov. 15, 2020) [Hereinafter
“2019 UCS Report”] (attached hereto as Ex. 6).
14
2017 UCS Report at 46; 2018 UCS Report at 40; 2019
UCS Report at 36.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

99a
37. The Appellate Division’s caseload is also on
the rise: 9,359 records on appeal and 16,461
dispositions were filed in the four departments in
2016.15 By 2019, that number increased to 9,764
records on appeal and 19,094 dispositions per
year.16
The New York State Constitution Certification
Process Helps Manage the State’s High Caseloads
38. Petitioners are talented and experienced
judges, who were selected by New York State’s
electors to serve the public on the Supreme Court
of New York. The Supreme Court of New York is a
court of general original jurisdiction vested with
the authority to hear any criminal or civil action or
proceeding irrespective of its nature or amount,
except claims against the State for money
damages.17
39. The New York State Constitution provides
that the Justices of the Supreme Court “shall be
chosen by the electors of the judicial district in
which they are to serve” for fourteen year terms.18

15

See New York State Unified Court System 2016
Annual Report, Report of the Chief Administrator of the
Courts, at 25, available at: http://ww2.nycourts.gov/sites/
default/files/document/files/2018-05/16_UCS-Annual_Report.pdf
(last accessed Nov. 15, 2020) [Hereinafter “2016 UCS
Report”] (attached hereto as Ex. 7).
16

See 2019 UCS Report at 34.
Division of Local Government Services, Local Government Handbook (Mar. 13, 2018), at 25-26, available at:
https://www.dos.ny.gov/lg/publications/Local_Government_Hand
book.pdf.
18
See N.Y. CONST . art. VI, § 6.
17

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

100a
40. The selection process for New York State’s
Supreme Court Justices is unique and differs from
the selection process for judges serving on the Court
of Appeals, Court of Claims, New York City Family
Court, Criminal Court, and Housing Courts.19 Those
judges are not independently elected; instead, they
are appointed by the Governor, local mayor, or
Administrative Judge of New York.
41. As of 2019, there were 328 New York State
Supreme Court Justices.20 There are currently
some 333 Supreme Court Justices.
42. Unlike United States Supreme Court
Justices and other Article III judges who are
appointed for life, New York’s Constitution
mandates that New York Supreme Court Justices
are reelected at the end of each 14-year term and
retire on the December 31st of the year they attain
the age of 70.21 This mandatory retirement age may
have made sense when it was adopted in 1869 and
an individual’s life expectancy was approximately
40 years, far lower than the life expectancy today.22
18

See N.Y. CONST . art. VI, § 6.
See generally New York City Bar Association,
Judicial Selection Methods in the State of New York: A
Guide to Understanding and Getting Involved in the
Selection Process, Council on Judicial Administration (Mar.
2014), available at: https://www2.nycbar.org/pdf/report/
uploads/20072672-GuidetoJudicialSelectionMethodsinNew
York.pdf.
20
Division of Local Government Services, Local
Government Handbook (Mar. 13, 2018), at 23, available at:
https://www.dos.ny.gov/lg/handbook/html/thejudicial_system.html.
21
See N.Y. CONST . art. VI, § 25(b).
22
Robert S. Smith, Let judges serve in their prime
years, N.Y. DAILY NEWS (Oct. 3, 2013), available at:
19

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

101a
43. Still, even then New York’s Constitution
recognized the value that experienced Supreme
Court Justices bring to the Court System by providing for a process by which New York Supreme Court
Justices may extend their terms beyond age 70.
44. Retired Justices may be, and regularly
have been, certificated for up to three two-year
terms after reaching age 70, provided that the
justice’s services are “necessary to expedite the
business of the court and that he or she is mentally
and physically able and competent to perform the
full duties of such office.”23
45. The certification process is reserved in New
York State’s Constitution for elected judges, who
are voted by electors to serve their terms.24
46. Certification has historically been granted
on a regular basis. From 2018 to 2020, between 30
to 46 Supreme Court Justices applied for
certification each year.25 Because of the Justices’
strong qualification and the demand for
experienced judges to serve in New York State
courts, the Administrative Board declined only
three individual applications for certification
during that three-year period.26
https://www.nydailynews.com/opinion/judges-serve-primeyears-article-1.1474503; Life expectancy (from birth) in the
United States, from 1860 to 2020, STATISTA , available at:
https://www.statista.com/statistics/1040079/life-expectancyunited-states-all-time/.
23
See N.Y. CONST . art. VI,§ 25(b).
24
See id.
25
OCA, List of Supreme Court Justices Certificated
(2018-2020) (attached hereto as Exs. 8 to 10).
26
See id.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

102a
47. Now, as the State enters one of its most
trying periods, all but three of the 49 Justices
eligible for certification have been summarily
terminated this year.
48. The Supreme Court Justices denied
certification this year are part of the backbone of
New York State Courts, serving the public each
day by diligently managing their individual
caseloads, totaling some 21,000 cases.27 Their
productivity as experienced jurists and their
dedication to the Supreme Court of New York
through the certification process has filled a need
for more judges that would otherwise need to be
addressed by legislation to create more Supreme
Court Justices.
49. Recognizing the importance of certification,
the New York State Bar Association adopted a
report advocating amending New York’s Constitution to allow all judges to take advantage of the
certification process.28 In calling for higher judicial
27

Esther M. Morgenstern, Testimony at Assembly
Standing Committee on the Judiciary, Budget and Staffing
Reductions in the Judiciary Branch (Nov. 12, 2020)
(transcript unavailable).
28
See generally New York State Bar Association,
Report and Recommendations of the New York State Bar
Association Committee on the New York State Constitution,
The Judiciary Article of the New York State Constitution—
Opportunities to Restructure and Modernize the New York
Courts (Jan. 27, 2017), available at: https://nysba.org/NYSBA/
Practice%20Resources/Substantive%20Reports/PDF/Report%20
on%20Judiciary%20Article.pdf; James C. McKinley, Jr., Plan
to Raise Judges’ Retirement Age to 80 Is Rejected, N.Y.
TIMES (Nov. 6, 2013), available at: https://www.nytimes.com/
2013/11/06/nyregion/plan-to-raise-judges-retirement-age-to80-is-rejected.html.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

103a
retirement ages across the board, the New York
State Bar Association pointed to the need for
experienced judges to handle ever-increasing
caseloads in the courts, even though this proposal
was not adopted by New York’s electors four years
before.29
Chief Judge DiFiore’s Excellence Initiative
50. Chief Judge DiFiore and the Administrative
Board of the Courts have been outspoken about the
strain and frustration felt by litigants in New York
State’s Court System, which continues to suffer
from a lack of judicial resources and growing
caseloads. Chief Judge DiFiore has remarked:
When cases languish for years, litigants
grow frustrated about the cost and length
of litigation, and ordinary people feel as if
justice is beyond their reach. And it is the
rule of law that suffers because long
delays and excessive costs lead to an
inevitable loss of public respect for our
justice system, along with increased
receptivity to demagogues who attack our
courts and institutions of justice for their
own political ends.30
29

See generally New York State Bar Association,
Report and Recommendations of the New York State Bar
Association Committee on the New York State Constitution,
The Judiciary Article of the New York State Constitution –
Opportunities to Restructure and Modernize the New York
Courts (Jan. 27, 2017), available at: https://nysba.org/NYSBA/
Practice%20Resources/Substantive%20Report/PDF/Report%20on
%20Judiciary%20Article.pdf; McKinley Jr., supra, note 28.
30
See Hon. Janet DiFiore, Brennan Lecture, The
Excellence Initiative and the Rule of Law, 93 N.Y.U. L. Rev.
1053 , 1058 (Nov. 2018) (attached hereto as Ex. 11).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

104a
In the Administrative Board’s view, “justice
delayed is justice denied” and “[c]itizens deserve,
fundamentally, to have their cases heard and
resolved in a fair, timely, efficient and cost
effective manner.”31
51. To ensure timely justice, Chief Judge
DiFiore implemented a policy called the
“Excellence Initiative” in 2016 to increase
efficiency in the New York Court System. The
Excellence Initiative seeks to evaluate court
operations and administration at every level,
toward the goal of “operational and decisional
excellence in everything that we do.”32
52. In the Administrative Board’s own words,
the “Excellence Initiative reflects the Court
System’s primary ongoing focus on the core
mission of the Judiciary—to fairly and promptly
adjudicate each of the millions of cases filed in the
New York State courts every year.”33
53. Over
the
last
three
years,
the
Administrative Board has made concerted efforts
to diminish delays and backlogs in court
operations to ensure access to justice for all
persons entering the Court Systems.34 The
Administrative Board stressed that a focus on
“prompt adjudication will continue” to achieve the
31

New York State Unified Court System, The State of
Our Judiciary 2017: Excellence Initiative: Year One (Feb.
2017), at i, available at: http://ww2.nycourts.gov/sites/default/
files/document/files/2018-11/SOJ-2017.pdf (attached hereto
as Ex. 12).
32
OCA 2019-20 Budget at i (attached hereto as Ex. 1).
33
See id.
34
See id.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

105a
fundamental principles of speed and efficiency for
the Excellence Initiative.35
54. Over the last four years, the Supreme
Court Justices—including those recently denied
certification—adhered to this message and initiative,
increasing their productivity and moving their
caseloads expeditiously. The decision to not
certificate 46 judges—constituting a 14% reduction
in Supreme Court Justices State-wide—runs
counter to the Court System’s mission, as
expressed through the Excellence Initiative.35
The Judiciary’s Proposed 2020-21 Fiscal Budget
55. Pursuant to Article VII, Section 1 of the
State Constitution, the New York State Judiciary
submitted an itemized estimate of its financial
needs for Fiscal Year 2020-2021 on November 29,
2019.36
56. The request sought $2.36 billion for the
State Operations portion of the Judiciary budget,
representing an increase of $45.9 million, or 2%,
over the then-current-year cash funding.37 The
Judiciary sought a capital appropriation of
$25 million dollars to continue infrastructure
modernization.38

35

See id. at ii-iii.
New York State Unified Court System, Judiciary
Budget FY 2020-21, at i, available at: http://ww2.nycourts.gov/
sites/default/files/document/files/2019-12/2020-21_Judiciary
Budget_0.pdf [Hereinafter “OCA 2020-21 Budget”] (attached
hereto as Ex. 13).
37
See id.
38
See id. at x.
36

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

106a
57. The Judiciary’s proposed budget included
an allocation of $492,491,783 in New York’s
Supreme and County Courts.39
58. The Judiciary’s budget also requests funding for both personal and nonpersonal services.40
The personal service funding request for the New
York State Court System included funding for all
judicial positions and all filled nonjudicial
positions.41 The nonpersonal service funding for
the New York State Court System supports usual
and necessary expenses associated with trial court
operations, support, and administration.42
59. For the 2020-21 fiscal year, the Unified
Court System recommended that nearly $125
million dollars should be budgeted for “Other
Professional Services,” $11.3 million dollars
should be budgeted for postage and printing, $7
million for supplies and materials, $4 million for
records management services, almost $6 million
for transcripts.43
60. The 2021-22 judiciary budget request is
expected to be submitted to the Division of Budget
in the coming weeks.
The COVID-19 Pandemic
61. On March 7, 2020, Governor Cuomo issued
Executive Order Number 202, declaring an

39
40
41
42
43

See
See
See
See
See

id. at 18.
id. at 19.
id.
id.
id. at 8.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

107a
emergency for the entire State of New York due to
the COVID-19 pandemic.44
62. On March 13, 2020 and March 15, 2020, the
Unified Court System issued two memoranda to all
judicial and non-judicial personnel of the Unified
Court System regarding the coronavirus crisis.45
Pursuant to the memoranda, effective March 16,
2020, “civil jury trials in which opening statements have not commenced shall be postponed
until further notice; civil jury trials already
commenced shall continue to conclusion.”46
63. New York’s State’s trial courts also stopped
accepting non-essential filings, both paper and electronic. Chief Administrative Judge Marks ordered
that no papers shall be accepted except for matters of
a type “included on the list of essential matters.”47
44

State of New York, Executive Order No. 202, available
at: https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/
files/EO_202.pdf.
45
See Memorandum from Hon. Lawrence K. Marks,
Chief Admin. Judge, State of New York Unified Court System,
Coronavirus – Procedures to Reduce Courthouse Traffic
(Mar. 13, 2020), available at: https://www.nycourts.gov/
whatsnew/pdf/MEM0-3.13.20.pdf; Memorandum from Hon.
Lawrence K. Marks, Chief Admin. Judge, State of New York
Unified Court System, Updated Protocols (Mar. 15, 2020),
available at: nycourts.gov/whatsnew/pdf/Updated-ProtocolAttachmentA3.pdf.
46
See Memorandum from Hon. Lawrence K. Marks,
Chief Admin. Judge, State of New York Unified Court System,
Coronavirus – Procedures to Reduce Courthouse Traffic
(Mar. 13, 2020), available at: https://www.nycourts.gov/
whatsnew/pdf/MEM0-3.13.20.pdf.
47
See Administrative Order of the Chief Admin. Judge
of the Courts, AO/78/20, N.Y. State Court System (Mar. 22,
2020), available at https://www.nycourts.gov/whatsnew/pdf/
AO-78-2020.pdf.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

108a
64. All four Departments of New York’s
Appellate Division suspended appeals deadlines
under their own rules.48 Civil trial assignment
parts were suspended and motions were taken on
submission.49 In criminal cases, only arraignments
and essential applications as the court may allow
were permitted.50 Still, the work continued remotely,
with Judges continuing to address those applications and cases that could be handled remotely.
65. On April 6, 2020, Chief Judge DiFiore and
Chief Administrative Judge Marks reported that
virtual court operations would be conducted
remotely for emergency and essential matters.51
48
See, e.g., Order, In the Matter of the Temporary
Suspension of Perfection, Filing and other Deadlines During
Public Health Emergency (N.Y. App. Div. 1st Dep’t Mar. 17,
2020), available at http://www.courts.state.ny.us/courts/ad1/
PDFs/Temporary%20Suspension%20Order.pdf. The First
Department modified its suspension order on May 7, 2020;
the Second Department modified its suspension order on
July 7, 2020; the Third Department modified its suspension
order on May 22, 2020, and the Fourth Department modified
its suspension order on April 17, 2020.
49
See Memorandum from Hon. Lawrence K. Marks,
Chief Admin. Judge, State of New York Unified Court System,
Coronavirus – Procedures to Reduce Courthouse Traffic
(Mar. 13, 2020), available at: https://www.nycourts.gov/
whatsnew/pdf/MEMO-3.13.20.pdf.
50
See Memorandum from Hon. Lawrence K. Marks,
Chief Admin. Judge, State of New York Unified Court
System, Updated Protocols (Mar. 15, 2020), available at:
nycourts.gov/whatsnew/pdf/Updated-Protocol-AttachmentA3.pdf.
51
See Press Release, Hon. Lawrence K. Marks, Chief
Admin. Judge, State of New York Unified Court System,
Virtual Courts Up and Running Statewide (Apr. 6, 2020),
available at: https://www.nycourts.gov/LegacyPDFS/press/
PDFs/PR20_14virtualcourtsstatewide.pdf.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

109a
66. On April 13, 2020, the Unified Court
System extended its virtual cases to “include pending tort, asbestos, commercial, matrimonial, trusts
and estates, felony, family and other cases, which
make up the vast bulk of trial court caseloads.”52
The existing ban on the filing of new “nonessential” matters remained in effect through May
20, 2020.53
67. A July 7, 2020 press release stated that
grand juries would resume in New York City on
August 10, 2020 and in-person proceedings would
be expanded “to include a limited number of bench
trials in civil matters.”54
68. As of September 9, 2020, the New York
State courts implemented a slow-measured pilot
program to resume in-person civil and criminal
jury trials outside of New York City.55
52

See Press Release, Hon. Lawrence K. Marks, Chief
Admin. Judge, State of New York Unified Court System,
Virtual Courts Expanded Beyond the Limited Category of
Essential and Emergency Matters (Apr. 13, 2020), available
at: https://www.nycourts.gov/LegacyPDFS/press/PDFs/PR20_
15virtualcourtstortsetc.pdf.
53
See id.; see also Press Release, Hon. Lawrence K.
Marks, Chief Admin. Judge, State of New York Unified Court
System, Filing of New Cases (May 20, 2020), available at:
https://www.nycourts.gov/whatsnew/pdf/LKMarks-memo-May
20.pdf/.
54
See Press Release, Hon. Lawrence K. Marks, Chief
Admin. Judge, State of New York Unified Court System,
Grand Juries to Resume Next Month in the City’s Five
Boroughs: New York City Courts to Expand In-Person
Criminal Proceedings (July 7, 2020), available at:
https://www.nycourts.gov/LegacyPDFS/press/pdfs/PR20_34.pdf
55
New York State Unified Court System, Coronavirus
and the New York State Courts (Sept. 9, 2020), available at:
https://www.nycourts.gov/index.shtml.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

110a
69. On October 13, 2020, Chief Judge DiFiore
announced that the state Court System planned to
resume civil jury trials at the end of October.56
70. As of October 26, 2020, criminal jury trials
resumed in New York City after a seven month
pause.57 In fact, Chief Judge DiFiore praised
Justice Michael Obus, who serves on New York
County’s Criminal Term, for “work[ing] so hard to
prepare for and carry out the safe resumption of
jury trials.”58 Despite Justice Obus’s 34 years of
service and recent efforts to resume jury trials in
unprecedented circumstances, the Administrative
Board declined to certificate him for another twoyear term.
71. On November 13, 2020, less than one
month after civil and criminal jury trials resumed,
Chief Administrative Judge Marks issued a
memorandum stating that pending criminal and
civil jury trials would continue to conclusion, but
no new prospective civil or criminal jurors would
56

Ryan Tarinelli, DiFiore: Court System Planning to
Restart NYC Civil Jury Trials as It Monitors Coronavirus
Figures, N.Y. LAW J. (Oct. 13, 2020), available at:
https://www.law.com/newyorklawjournal/2020/10/13/difiorecourt-system-planning-to-restart-nyc-civil-jury-trials-as-itmonitors-coronavirus-figures/.
57
Noah Goldberg, Criminal jury trials in NYC resume
Monday with plexiglass barriers and social distancing, N.Y.
DAILY NEWS (Oct. 25, 2020), available at: https://www.ny
dailynews.com/new-york/ny-criminal-jury-trials-nyc-socialdistancing-coronavirus-20201025-gahgsvmie5cy5d7gbnhdig
ttjm-story.html.
58
Message from Chief Judge Janet DiFiore (Nov. 2,
2020), available at: https://www.nycla.org/pdf/November2CJ-Message.pdf (attached hereto as Ex. 14).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

111a
be summoned due to adverse trends in coronavirus
transmission.59
72. Thus, for the foreseeable future, civil
litigants and criminal defendants will continue to
experience massive delays in their ability to
prosecute their cases.
73. In addition to changes to court procedures,
on March 20, 2020, Governor Cuomo issued an
executive order tolling several statutes of
limitations under New York Law until April 19,
2020 (the “Tolling Order”).60
74. Pursuant to the Tolling Order, any time
limit for “the commencement, filing, or service of
any legal action, notice, motion, or other process or
proceeding” was suspended and tolled for the
period from March 20, 2020 through April 19,
2020.61 The Tolling Order applied to any such time
limits “prescribed by any procedural laws” of New
York, expressly including the civil practice law
and rules, criminal procedure law, the family court
act, the court of claims act, the surrogate’s court
procedure act, and the uniform court acts, or “any
other statute, local law, ordinance, order, rule, or
regulation.”62
59

See Memorandum from Hon. Lawrence K. Marks,
Chief Admin. Judge, State of New York Unified Court
System, Revised Pandemic Procedures in the Trial Courts
(Nov. 13, 2020), available at: https://www.nycourts.gov/
whatsnew/pdf/JT_Memo_Nov13-001.pdf.
60
See State of New York, Executive Order No. 202.8,
available at: https://www.govemor.ny.gov/sites/governor.ny.
gov/files/atoms/files/EO_202.8.pdf (attached hereto as Ex. 15).
61
See id.
62
See Shearman & Sterling, Perspectives, New York
Issues Important Orders Regarding Court Filings and

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

112a
75. Thus, the Tolling Order not only extended
certain statutes of limitations, it also tolled
deadlines to file motions. Governor Cuomo issued
subsequent executive orders repeatedly extending
the Tolling Order, including the most recent one
through November 3, 2020.63 That order
affirmatively provides that there will be no more
extensions “for any civil case” after November 3,
2020.64 Therefore, the Tolling Order no longer
remains in effect as of November 4, 2020.65
The Anticipated
Applications

Avalanche

of

Cases

and

76. Chief Judge DiFiore warned at the
beginning of the pandemic that: “[W]e will have
our hands full once this crisis is over. If there is
one thing we’ve learned over the years, it’s that
the economic consequences and legal fallout of any
Limitations Periods in Light of Covid-19 With Potentially
Far-Reaching Consequences (Mar. 23, 2020), available at:
https://www.shearman.com/perspectives/2020/03/new-yorkissues-important-orders-regarding-court-filings-and-tollingperiods-in-light-of-covid-19/.
63

See State of New York, Executive Order Nos. 202.14,
202.28, 202.38, 202.48, 202.55, 202.55.1, 202.60, 202.67,
available at: https://www.governor.ny.gov/executiveorders.
64
See id.
65
See State of New York, Executive Order No. 202.72,
available at: https://www.governor.ny.gov/news/no-20272continuing-temporary-suspension-and-modification-laws-relat
ing-disaster-emergency. However, Executive Order 202.72
states that: “[A]ny criminal procedure law suspension
remains in effect and provided that all suspensions of the
Family Court Act remain in effect until November 18, 2020
and thereafter continue to remain in effect for those juvenile
delinquency matters not involving a detained youth and for
those child neglect proceedings not involving foster care.”

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

113a
societal crisis,—especially one of this magnitude,
—will be manifested and felt in our court dockets.”66
77. That message has become a reality eight
months later, as the stress placed on New York’s
Court System by the COVID-19 pandemic resulted
in lengthy delays and impending backlogs for
litigants and defendants.67
78. At a public hearing held before the New
York State Assembly on November 12, 2020-in
which the Court System declined to participate—
Supreme Court Justices, New York State lawmakers, New York State court staff and several
non-profit organizations provided several hours of
testimony regarding the severe consequences that
the Administrative Board’s denial of certification
to 46 Supreme Court Justices and other cuts to
services provided directly to the public would have
on litigants’ access to justice in New York State
Courts during the COVID-19 pandemic.68
79. Due to the expiration of Governor Cuomo’s
Tolling Order on November 3, 2020, any litigant
who did not file a lawsuit during the pandemic will
66

See Message from Chief Judge DiFiore on Coronavirus Emergency (Mar. 20, 2020), available at: http://www.
courts.state.ny.us/whatsnew/pdf/Transcript-Message320.pdf
(attached hereto as Ex. 16).
67
Alan Feuer et. al., N.Y.’s Legal Limbo: Pandemic
Creates Backlog of 39,200 Criminal Cases, N.Y. TIMES ,
(June 22, 2020), available at: https://www.nytimes.com/
2020/06/22/nyregion/coronavirus-new-york-courts.html.
68
Assembly Standing Committee on the Judiciary,
Notice of Online Video Public Hearing, Budget and Staffing
Reductions in the Judiciary Branch (Nov. 12, 2020),
available at: https://nyassembly.gov/comm/?id=24&sec=story
&story=94227 (attached hereto as Ex. 2).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

114a
be required to do so now or risk losing a viable
claim due to the statute of limitations running.69
80. In addition to the flood of impending cases
due to the Tolling Order’s expiration, Chief
Administrative Judge Marks stated there are
approximately 200,000 pending pre-COVID cases
still waiting to be heard.70
81. By mid-June, the backlog of pending cases
in New York City’s criminal courts alone was
39,200 and hundreds of jury trials were placed on
hold.71 Even as courts move their dockets forward
using remote technology, there will be a growing
backlog of cases across the Court System.72
82. Measures taken by courts in response to
the virus—including cancelled oral arguments,
postponed conferences, motions, and trials, reduced
69

See Duane Morris, New York Governor Issues One
More (and One Final?) COVID-Related Executive Order
Tolling Statutes of Limitations (Oct. 14, 2020), available at:
https://www.duanemorris.com/alerts/new_york_governor_issues
_one_more_one_final_covid_related_executive_order_tolling_10
20.html.
70
Morgan McKay, Backlogged Court Systems: 200K
Pre-COVID-19 Cases Waiting To Be Heard, SPECTRUM
NEWS (Aug. 21, 2020), available at: https://spectrumlocal
news.com/nys/central-ny/politics/2020/08/2l/backlogged-courtsystems–200k-pre-covid-19-cases-waiting-to-be-heard- (attached
hereto as Ex. 17).
71
Alan Feuer et. al., supra, note 67.
71
See id.
72
Quinn Emanuel Urquhart & Sullivan, U.S. Outlook:
Top Questions About Civil Litigation Amid Coronavirus
Outbreak (Mar. 24, 2020), available at: https://iclg.com/
briefing/12291-u-s-outlook-top-questions-about-civil litigationamid-coronavirus-outbreak#_ednrefl6.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

115a
courthouse operations, workforce reductions, and
court closures—will exacerbate an already burdened
system.73
83. On November 12, 2020, Susan C. Bryant,
Executive Director of the New York State
Defenders Association, warned about the effect
that the Administrative Board’s decision would
have on criminal defendants’ constitutional rights
to a speedy trial due to significant backlogs in the
New York State Court System.74
84. The impact will be particularly acute for
medical malpractice cases. The overwhelming
majority of medical malpractice trials are conducted
before a jury.75 Because courts have not been fully
operational and have not been conducting regular
civil jury trials, medical malpractice cases and
trials will be further delayed. In addition, the
circumstances created by the pandemic could also
give rise to more lawsuits alleging that health care
organizations acted negligently.76
85. New York’s shutdown also severely impacted
the family courts, creating “a huge backlog of new
matters related to child support modification, child
73

See id.
Susan B. Bryant, NYS Defenders Association,
Testimony at Assembly Standing Committee on the
Judiciary, Budget and Staffing Reductions in the Judiciary
Branch (Nov. 12, 2020) (transcript unavailable).
75
Paul Greve, JD RPLM, et al., COVID-19 and its
Impact on Medical Professional Liability: First Impressions,
Q1 Plus J. 29, 30 (2020), available at: https://www.transre.
com/wp-content/uploads/2020/07/COVID-19-and-its-Impacton-Medical-Professional-Liability_Greve-et-al_Q2-2020.pdf.
76
See id.
74

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

116a
custody modifications and even divorce filings”
because of the current crisis.77
86. Based on current trends, the shutdown
means that 80,000 dispositions involving child
support to foster care placements to adoptions
were put on hold.78 Ms. Bryant of the New York
State Defenders Association warned about the
devastating effect that the backlogs would have on
family court litigants who risk losing rights to
their children permanently.79 And, of direct
relevance here, having reduced Supreme Court:
Justices by 14%, Chief Judge DiFiore is now
planning to address the impending backlogs in the
family courts by having remaining Supreme Court
Justices and Acting Supreme Court Justices in
New York City step in and hear newly-filed
custody and visitation matters without adequate
training.80
87. Survivors of domestic violence have also
faced barriers in their access to the New York
77

Stephen Williams, Family Court case backlog
growing during COVID-19 crisis, THE DAILY GAZETTE (Apr.
15, 2020), available at: https://dailygazette.com/2020/
04/15/family-court-case-backog-growing-during-crisis/.
78
Yancey Roy, Justice delayed by virus, but NY civil
courts slowly opening back up, NEWSDAY (May 5, 2020),
available at: https://www.newsday.com/news/health/corona
virus/covid-19-courts-new-york-1.44310637.
79
Susan C. Bryant, NYS Defenders Association,
Testimony at Assembly Standing Committee on the
Judiciary, Budget and Staffing Reductions in the Judiciary
Branch (Nov. 12, 2020) (transcript unavailable).
80
Message from Chief Judge Janet DiFiore (Nov. 9,
2020), available at: https://www.nycourts.gov/whatsnew/pdf/
November9-CJ-Message.pdf (attached hereto as Ex. 18).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

117a
State Court System. With reports of increased
domestic violence cases during COVID-19, the lack
of access to domestic violence courts exacerbates
already dangerous situations for domestic violence
survivors. City Association President Justice
Esther M. Morgenstern testified on November 12,
2020 before the New York State Assembly that the
Integrated Domestic Violence Court, over which
she presides, had over 800 pending cases when
COVID-19 hit.81 They did not begin to transfer new
cases into the part until October.
88. Beth Goldman, of New York Legal
Assistance Group, posits that with increased
reports of domestic violence during COVID-19,
domestic violence survivors may continue to face
dangerous situations due to court delays.82
89. Further straining judicial resources is the
voluntary retirement this year of two Manhattan
Commercial Division Justices.83 Justice Saliann
Scarpulla also “recently moved from the Manhattan Commercial Division court to the Appellate
Division, First Department court, hereby leaving
81

Justice Esther M. Morgenstern, Testimony at
Assembly Standing Committee on the Judiciary, Budget and
Staffing Reductions in the Judiciary Branch (Nov. 12, 2020)
(transcript unavailable).
82
Beth Goldman, New York Legal Assistance Group,
Assembly Standing Committee on the Judiciary, Budget and
Staffing Reductions in the Judiciary Branch (Nov. 12, 2020)
(transcript unavailable).
83
Jason Grant, 2 Manhattan Commercial Division
Justices to Retire as Judicial Budget Cut Takes Hold, N.Y.
LAW J. (Oct. 2, 2020), available at: https://www.law.com/
newyorklawjournal/2020/10/02/two-manhattan-commercial division-justices-to-retire-as-judicial-budget-cut-takes-hold/.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

118a
another vacancy on a Manhattan Commercial
Division that normally has eight Justices who
share a large and constantly added-to docket filled
with high-value cases.”84
90. Petitioners are also aware of at least ten
addition Supreme Court Justices who will be
retiring in New York City.
The Administrative Board Denies Recertification
to 46 Experienced Judges
91. This year, 49 Supreme Court Justices
applied to be certificated effective January 2021.
While 15 of the Supreme Court Justices are
seeking certification for the first time, the
Administrative Board previously decided that a
majority of the Justices are mentally competent,
physically able and necessary to the New York
State courts. Twenty of the Justices are seeking
recertification for a second time and another 14 of
those Justices are seeking recertification for a
third time.85
92. The Supreme Court Justices seeking
certification this year were found to be physically
and mentally competent.
93. But three months before the Supreme
Court Justices’ certification would take effect,
Chief Administrative Judge Marks issued a
memorandum to all Administrative Judges stating
that “the Administrative Board has decided to
disapprove all but a small handful of pending
84

Id. (internal citations omitted).
OCA, List of Supreme Court Justices Certificated—
2019 (attached hereto as Ex. 9).
85

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

119a
judicial applications for certification or recertification that would take effect on January 1, 2021.”86
94. In a related proceeding in Suffolk County,
Chief Administrative Judge Marks admitted that
the Administrative Board did not consider the
certification criteria laid out under New York
State’s Constitution, stating that the Administrative
Board determined not to have a certification
program this year.87
95. On October 5, 2020, Chief Judge DiFiore
issued a public message stating that the
Administrative
Board
would
“deny
the
applications of 46 Supreme Court Justices for
certification or recertification to additional two
year-terms of service that would have taken effect
on January 1, 2021.”88
96. The Administrative Board’s reason for
granting certification to just three Supreme Court
Justices because they serve on several task forces
and commissions, preside over a “complex”
caseload and matters of election law, and handle
large civil opioid trial.89
86

See Memorandum from Hon. Lawrence K. Marks,
Chief Admin. Judge, State of New York Unified Court System,
Certification (Sept. 29, 2020) (attached hereto as Ex. 19).
87
Affidavit of Lawrence K. Marks, In the Matter of the
Application of Hon. Ellen Gesmer, et al., Index No. 616980/
2020, NYSCEF Doc. No. 22, ¶ 9 (attached hereto as Ex. 20).
88
See Message from Chief Judge Janet DiFiore,
available at: http://nycourts.gov/whatsnew/pdf/October5CJMessage.pdf (Oct. 5, 2020) (attached hereto as Ex. 21).
89
David Brand, Here are the 46 judges being
terminated by the New York court system, QUEENS DAILY
EAGLE (Oct. 5, 2020), available at: https://queenseagle.
com/all/here-are-the-46-judges-being-terminated-by-the-newyork-court-system.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

120a
97. The Supreme Court Justices who were
denied certification represent about 3.5% of the
state’s nearly 1200 judges and 14% of all Supreme
Court Justices.90
98. The stated basis for the Administrative
Board’s decision is Governor Cuomo’s anticipated
move to cut the state Court System’s annual
budget by 10% to help close a $14.5-billion,
pandemic-induced state deficit.91
99. However, the State has not made any
permanent spending cuts because it is waiting on
clarity on federal support to offset New York
State’s COVID-19 revenue losses.92 With the Biden/
Harris victory, Governor Cuomo’s hope for federal
funding to address budget shortfalls is greatly
strengthened.93 Thus, while the Administrative
Board projects that the decision will save the
Court System approximately $55 million dollars
over the next two years in an effort to achieve $300
million dollars in savings in this year’s previously
approved budget allocation, that projection is
90

See id.
Bernadette Hogan & Rebecca Rosenberg, Cuomo
continues COVID-19 cuts with $300M slash looming over
state courts, NY POST (Sept. 29, 2020), available at:
https://nypost.com/2020/09/29/cuomo-planning-to-cut-300mfrom state-courts-system-memo /.
92
See id.; see also Denis Slattery, $50B hole in budgets
across state must wait: Gov, N.Y. DAILY NEWS (Oct. 8, 2020),
available at: https://www.pressreader.com/usa/new-yorkdaily-news/20201008/281509343649384.
93
Brand, supra, note 89; Jon Campbell & David
Robinson, Despite Senate uncertainty, Andrew Cuomo still
banking on federal stimulus money, DEMOCRAT &
CHRONICLE (Nov. 6, 2020).
91

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

121a
premature given that no budget cuts have been
implemented.94
100. Nevertheless, the Administrative Board
denied certification to 46 judges and laid off 92
non-judicial chambers staff, directly impeding the
public’s access to the courts, rather than focusing
its budget cuts on non-public facing administrative
efficiencies.
101. In the Chief Judge and the Administrative
Board’s view, they would rather eliminate older
judges who have had a career instead of engaging
in seniority-based layoffs, which would terminate
younger employees who are just starting out and
have family obligations.95
102. Further undermining the Administrative
Board’s
position
that
budget
constraints
necessitated denying certification to nearly all
Supreme Court Justices is the recent appointment
of several acting Supreme Court Justices who will
be paid a salary commensurate with a Supreme
Court Justice’s salary.96

94

See Message from Chief Judge Janet DiFiore,
available at: http://nycourts.gov/whatsnew/pdf/October5-CJ
Message.pdf (Oct. 5, 2020) (attached hereto as Ex. 21).
95
Message from Chief Judge Janet DiFiore, available
at: https://www.nycla.org/pdf/October5-CJMessage.pdf (stating that the Administrative Board’s decision “will put us in a
position to achieve enough cost savings to avoid or at least
greatly limit layoffs in our nonjudicial workforce”) (Oct. 5,
2020) (attached hereto as Ex. 21); Letter from Hon. Janet
DiFiore, Chief Judge to Clifford M. Welden, Esq. (Nov. 6,
2020) (attached hereto as Ex. 22).
96
OCA 2020-21 Budget at 18 (attached hereto as Ex. 13).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

122a
103. Indeed, just before the Administrative
Board’s decision to deny certification was issued,
in July 2020, Governor Cuomo nominated four
New York State Court of Claims judges.97
Pursuant to the Judiciary law, if the Court of
Claims Judges’ statutory salary is less than that of
a Supreme Court Justice, they are entitled to a pay
differential for the balance.98 Accordingly, the
Acting Supreme Court Justices will be paid an
equivalent salary to a certificated Supreme Court
Justice, but will have substantially less familiarity
with their new cases and are not the jurist selected
by the electorate to serve their communities.
104. Moreover, at this dire time, the Chief Judge
still seems intent to continue to press for court
consolidation. Not only will Chief Judge DiFiore’s
consolidation plan cost at least approximately
$13.1 million annually to implement, but it also
revealingly contemplates a phase out of the New
York State Constitution’s certification process.99
97

Governor Andrew M. Cuomo, Governor Cuomo
Announces Nominations and Appointments to Administration
(July 23, 2020), available at: https://www.governor.ny.gov/news/
governor-cuomo-announces-nominations-and-appointmentsadministration-0.
98
OCA 2020-21 Budget at 18 (attached hereto as Ex. 13).
99
New York Court Consolidation to Cost $13.1 Million,
BLOOMBERG LAW (Nov. 21, 2019), available at: https://news.
bloomberglaw.com/us-law-week/n-y-court-consolidation-to-cost13-1-million; Key Provisions of the Chief Judge’s Court
Consolidation Proposal, available at: https://ww2.nycourts.
gov/sites/default/files/document/files/2019-09/CourtMerger
SummaryandProposal.pdf (Pursuant to the proposal, certification shall continue, except that the only Justices who will
be eligible for it will be: (1) those who first assumed office
prior to January 1, 2022, and (2) those assuming office after

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

123a
The proposal creates newly appointed Supreme
Court Justices and abolishes Court of Claims
Judges, who will instead become Supreme Court
Justices.100
105. Several prominent organizations across
New York State denounced the Administrative
Board’s hasty decision, highlighting the deleterious
impact it would have on the administration of
justice in the New York State Court System.
106. The New York City Bar Association issued
a letter stating that “[t]hese difficult times require
experienced judges to cut through the considerable
backlog of cases built up from the pandemic,” and
requested that the Administrative Board’s action
to deny recertification to 46 Supreme Court
Justices be one “of last resort.”101
107. The City Bar Association argued that
certificated judges would be key to the effort of
restoring New York City courts to the level of
operations required to protect New Yorkers’ legal
rights.102
108. The New York State Bar Association echoed
those concerns, warning that: “This budget cut is a
matter of grave concern to the New York State Bar
Association because it will inevitably create hard-

such date who, prior to the mandatory retirement date have
at least ten years’ tenure on Supreme Court.).
100
See id.
101
Letter from Michael P. Regan, Chair Council on Jud.
Admin., New York City Bar to Hon. Janet DiFiore & Hon.
Lawrence K. Marks (Oct. l, 2020) (attached hereto as Ex. 23).
102
See id.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

124a
ship for litigants and delay the administration of
justice.”103
109. The Judicial Friends Association, Inc.
condemned the Administrative Board’s decision as
creating “chaos, requiring the immediate reassignment of what may be inexperienced Justices to
cover cases in the midst of an exponential increase
in the number of cases due to the pandemic.”104
Their letter further criticized the Administrative
Board by stating that: “It appears that the Court
System settled for an easy way out of making a
difficult budgetary decision by simply terminating
the Judges with pending certifications and recertifications like low-hanging fruit, rather than
seeking alternative methods of budget reduction.”105
110. The Associations—in an effort to reach an
amicable resolution with the Administrative
Board—worked diligently to propose alternative
options that would allow the 46 Supreme Court
Justices to serve just one year longer, providing
added assistance in managing the “avalanche” of
post-COVID cases and time to transition cases and
place their staff within the Court System.
111. The Administrative Board rejected the
proposal, reiterating its preference to preserve the
103

Timothy Bolger, NY Forcing 7 Long Island Judges To
Retire, LONG ISLAND PRESS (Oct. 14, 2020), available at:
https://www.longislandpress.com/2020/10/14/ny-forcing-7-longisland-judges-to-retire/.
104
Letter from Hon. Erika M. Edwards, President,
Judicial Friends Association, Inc. to Hon. Janet DiFiore &
Hon. Lawrence K. Marks (Nov. 2, 2020) (attached hereto as
Ex. 24).
105
See id.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

125a
positions of non-judicial staff.106 That preference,
however, ignores the 92 non-judicial chambers
positions that will be eliminated by the
Administrative Board’s decision.
112. In fact, the Associations floated the idea of
just a six-month extension that would allow these
Justices time to plan their future and to afford
their staff adequate time to secure new
employment in these challenging times—a period
already covered by the existing Judiciary budget—
only to have even that summarily rejected.
113. Lawmakers, too, have been vocal about the
severe repercussions from the Administrative
Board’s decision. Assembly Judiciary Committee
Chair Jeffrey Dinowitz urged New York’s top
judges to reconsider, stating that: “This decision,
which by definition is a form of age discrimination,
will exacerbate the crisis facing our court system
and will significantly impact the already huge
backlog facing many of the courts due to COVID19.”107 He warned that the decision will lead to
delayed justice.108

106

Letter from City Association to Chief Judge of the
State of New York (Oct. 1, 2020) (attached hereto as Ex. 25);
Letter from State Association to Chief Judge of the State of
New York (Oct. 8, 2020) (attached hereto as Ex. 26); Letter
from Hon. Janet DiFiore, Chief Judge of the State of New
York to Hon. Charles C. Merrell & Hon. Carmen R.
Velasquez (Oct. 14, 2020) (attached hereto as Ex. 27).
107

David Brand, New York Court leaders double down
on plan to cut 46 judges, QUEENS DAILY EAGLE (Oct. 6,
2020), available at: https://queenseagle.com/all/new-yorkcourt-leaders-double-down-on-plan-to-cut-46-judges.
108
See id.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

126a
The Administrative Board Eliminates the Most
Experienced and Productive Justices
114. The loss of experienced justices will be
devastating for the public where they serve.
Justice Antonio I. Brandveen, Supreme Court
Justice in Nassau County has served on the bench
for 40 years, amassing a wealth of knowledge as a
judge on Criminal, Housing and Family courts.109
115. Twenty-six of the Justices denied certification have a similar level of experience, having
served on the bench for over 20 years.
116. Nineteen Justices have served in the civil
courts and 12 have experience serving on criminal
courts. Justices Antonio I. Brandveen, Bruce E.
Tolbert and Anthony J. Paris have all served on
the bench for more than 20 years and have family
court expertise.
117. Justice Brandveen and Justice Howard H.
Sherman have served on the bench for over 30
years, with part of their tenures on the housing
courts.
118. Justices Joan Madden has also served on
the bench for over 18 years, developing specialized
knowledge over medical malpractice law.
119. The collective expertise of these Justices in
family, medical malpractice, housing, criminal and
civil law matters enables them to decide cases
efficiently and fairly—precisely at a time when the
courts need seasoned judges in these areas to
109

Antonio I. Brandveen, Judge Profile, NEW YORK LAW
J., available at: https://judges.newyorklawjournal.com/Judge
Profile.aspx?id=Antonio%20Brandveen-421.xml (last accessed
Nov. 22, 2020).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

127a
address massive backlogs and delays due to
COVID-19.
120. Petitioner Justice Bernice D. Siegal’s
departure from the court after 18 years will have
long-lasting consequences for the community she
was elected to serve in Queens County. Shepherding approximately 1,685 guardianship cases on her
court docket is a challenging feat, but she works
tirelessly to do so, even throughout the entirety of
the COVID-19 pandemic. Her guardianship cases,
some of which began in the 1990s, cannot be easily
transferred to a new judge who lacks institutional
knowledge of the cases pending before her.
Guardianship law is also a highly sensitive area of
the law that requires prompt adjudication due to
the severe consequences that could befall an
individual deemed incapacitated. Reassigning over
1600 guardianship cases to another judge with an
already full caseload who is unfamiliar with the
needs of Queens County or guardianship law will
contribute to further delays and add more stress to
an already vulnerable population.
121. Bronx County’s guardianship litigants will
also suffer from the departure of Justice Robert
Johnson and Howard H. Sherman from the Bronx
County, Civil Term. Justices Johnson and Sherman
are the only Justices presiding over guardianship
cases in Bronx County and both were denied
certification this year.110 Their loss will leave a
court attorney referee as the lone experienced staff

110

Justice Robert T. Johnson, Part Rules, available at:
https://www.nycourts.gov/LegacyPDFS/courts/l2jd/bronx/civil/pdfs/
Part-Rules-1A-12.pdf.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

128a
member. Petitioners are not aware of any plan to
transition and manage these cases.
122. Similarly, Justice Ira Margulis currently
presides over Queens County’s Criminal Term and
has served on the bench for 17 years. He has been
tasked with handling complicated criminal cases
involving mentally ill defendants.111 Attorneys who
appear before him say his departure will strike a
blow to the justice system in Queens.112
123. The consequences of the Administrative
Board’s decision will also be felt by litigants
appearing in the 7th Judicial District. There, the
loss of Justice John J. Ark, Petitioner Justice
Piampiano, and another Civil Term judge to the
Surrogate’s Court will require the reassignment of
approximately 700-800 cases to other Supreme
Court Justices in their district with already full
caseloads. Justice Ark has served on the bench for
26 years and has a unique docket: he presides over
nearly every election-related lawsuit in his county
and handles approximately 50 asbestos cases
brought by plaintiffs suffering from mesothelioma.
Justice Ark endeavors to complete the mesothelioma
cases within one year because a plaintiff’s lifespan
is often quite short. Frustrated mesothelioma
111

David Brand, Judge’s forced exit will hinder mental
health criminal cases in Queens, lawyers say. QUEENS
DAILY EAGLE (Oct. 16, 2020), available at: https://queens
eagle.com/all/judges-forced-exit-will-hinder-mental-healthcriminal-cases-in-queens-lawyers-say#:~:text=October%2016
%2C%202020-,Judge’s%20forced%20exit%20will%20hinder%20
mental,cases%20in%20Queens%2C%20lawyers%20say&text=A%
20Queens%20judge%20tasked%20with,over%2070%20in%20the
%20state.
112
See id.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

129a
attorneys worry that transferring Justice Ark’s
cases to another judge unfamiliar with them will
mean that some plaintiffs may not live to see the
outcome of their cases.113
124. Losing Petitioner Justice Piampiano from
the 7th Judicial District will be difficult for
medical malpractice litigants in his district. He
presides over time-consuming medical malpractice
cases, which often go to trial lasting approximately
3-5 weeks. The shutdown severely limited Justice
Piampiano’s ability to hold trials. Now, he has
approximately 10 medical malpractice trials that
were taken off the calendar due to the shutdown,
another 10 medical malpractice trials that are
awaiting calendaring, and 70 cases awaiting trial
with Notes of Issue that cannot be scheduled due
to COVID-19 safety constraints. A new Justice will
need to find time on their already busy docket to
preside over these trials.
125. Similarly, Petitioner Justice Freed’s departure will result in added delays and expense for
litigants appearing before her in complicated Frye
hearings. One case involving a defect to a BMW’s
fuel line resulted in severe illness and developmental disabilities for a mother and her son. That
case has been the subject of ongoing litigation
since 2008. The case was transferred to Justice
Freed in 2014, and over the last six years she has
become familiar with the thousands of pages of
113

Berkeley Brean, ‘My clients don’t have eight weeks!’
Lawyer concerned with cancer cases after NYS cuts 46
judges, WHEC (Oct. 7, 2020), available at: https://www.whec.
com/rochester-new-york-news/lawyer-concerned-with-cancercases-after-nys-cuts-46-judges/5887279/.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

130a
expert testimony and hundreds of exhibits presented
in the case. Reassigning her Frye hearings to a
new Justice will further delay justice for the
victims and their families, who have waited long
enough to have their cases decided. It will also
create needless expense for the six sets of litigants
who will need to present their arguments to a new
Justice.
126. Several of the Justices also have substantial family court experience. Bruce E. Tolbert,
a Supreme Court Justice from Westchester
County, has served on the bench for 35 years,
including as a family court judge in Westchester
County for 17 years. Westchester County Bar
Association Vice President Dolores Gebhard stated
that: “Judge Tolbert spent many years as a Judge
in Family Court and in the Matrimonial Part of
Supreme Court, where he presided over matters
that were among the most challenging, both
legally and emotionally. His focus was first, last
and always on the children of Westchester.”114
127. Likewise, Anthony J. Paris, a Supreme
Court Justice from Onondaga County, served on
the bench for 27 years, including as a family court
judge in Onondaga County for six years, and
Antonio I. Brandveen, a Supreme Court Justice
from Nassau County, served as a family court
judge for approximately 18 years. These Justices’
unique specialty in family law is an invaluable
resource that, by Chief Judge DiFiore’s own
114

Westchester County Bar Association, November
President’s Message, WCBA expresses gratitude to three
Westchester County Supreme Court Justices, available at:
https://www.wcbany.org/?pg=president.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

131a
admission, the family courts need at this difficult
time.
128. Finally, at a time when medical
malpractice cases will likely be on the rise due to
COVID-19, the Administrative Board will force the
courts to lose Justices Joan Madden, Orlando
Marrazzo, and Larry D. Martin, who have
experience presiding over the medical malpractice
trials in their respective counties.115 Justice
Marrazzo worries about substantial delays to
upcoming medical malpractice trials in Richmond
County if he departs the court. He has a heavy
trial docket, presiding over medical malpractice
trials 3-4 days per week. Because medical
malpractice trial conferences have been put on
hold until January or February 2021, litigants in
his court worry about severe delays from
transitioning their cases to a new judge.
The Administrative Board’s Decision Disproportionately Affects the Busiest Court
129. A majority of the Supreme Court Justices
denied certification also disproportionately come
from courts in New York State with heavy dockets
and high-filing volumes. Of the seven Appellate
Division judges denied certification, four come
from the Second Department, the busiest appellate
court in the country.116 In 2019, OCA’s annual
report indicated that 4,295 records on appeal were
filed in the Second Department—nearly double the
115

New York State Unified Court System, Litigation
Coordinating Panel, Justice Joan A. Madden, available at:
http://ww2.nycourts.gov/courts/1jd/supctmanh/LCP/JoanAMadden.
shtml.
116
See id.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

132a
amount of any other department.117 Litigants in the
Second Department often lament the significant
backlog of perfected civil appeals awaiting
calendaring.118 Before the pandemic, Justices in the
Second Department sat on the bench four days a
week and typically heard approximately 20 cases a
day. At that pace, litigants faced 18 months for a
civil appeal to obtain a place on the court’s day
calendar and then almost three years for a decision
to be rendered.119 Those delays risk increasing
exponentially due to court closures and backlogs,
particularly because the Second Department has
been limited to closer to 16 cases a day with about
40 percent of court staff working in person.120
130. Two Appellate Division Justices come from
the First Department, where long-standing judicial
vacancies already created delays and backlogs
before the COVID-19 pandemic. In November 2019,
the First Department announced that it would be
reducing its weekly oral argument sessions from
117

2019 UCS Report at 34 (attached hereto as Ex. 6).
Alan D. Scheinkman, Appellate Division Second
Judicial Department, Tackling the Backlog: New Initiatives
in the Second Department, available at: http://www.courts.
state.ny.us/courts/ad2/PJ_Scheinkman_Initiatives.shtml/.
119
See id.; New York Appeals, The New York
Constitution Can Help Fix the Backlog of Appeals in the
Appellate Division, Second Department, available at:
https://nysappeals.com/2019/01/25/the-new-york-constitutioncan-help-fix-the-backlog-of-appeals-in-the-appellate-divisionsecond-department/.
120
Rob Abruzzese, Justice Scheinkman gives update on
Appellate Division amid COVID-19, BROOKLYN DAILY
EAGLE (June 30, 2020), available at: https://brooklyn
eagle.com/articles/2020/06/30/justice-scheinkman-gives updateon-appellate-division-amid-covid-19/.
118

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

133a
three to just two.121 The move, which took effect at
the start of the court’s January 2020 term, came
on the heels of a related decision by Presiding
Justice Rolando Acosta in April to scale back
appellate panels from five to four judges.122
Advocates warned that the reduction to oral argument sessions would have a disproportionate impact
on commercial cases and could lead to a troubling
backlog.123 Those Appellate Division positions would
need to be filled from the New York Supreme
Court’s trial courts, which have already been
significantly depleted by this decision.
131. The impact of the Administrative Board’s
decision is particularly acute for the five boroughs.
In 2019, OCA’s annual report indicated that
almost half of the 172,102 new civil cases and
36,077 felony cases filed in New York State were
initiated in New York City alone.124 Thus, nearly
half of all new Supreme Court cases are filed each
year in New York City and demand for more
judicial resources is high.125
132. The population-based constitutional cap on
Supreme Court Justices in New York City as a
whole already limits the New York Supreme
Court’s ability to meet this demand.126
121

See id.
See id.
123
See id.
124
2019 UCS Report at 36, 38 (attached hereto as Ex. 6).
125
See id.
126
The Fund for Modern Courts, Resources: The
Constitutional Limit on the Number of Justices in the
Supreme Court, available at: https://moderncourts.org/
programs-advocacy/judicial-article-of-nys-constitution/resourcesconstitutional-limit-number-justices-supreme-court/.
122

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

134a
133. Of the 154 Justices currently authorized to
sit in New York City Supreme Court, only 136
actually serve in Supreme Court trial parts
because some of the Justices are assigned to the
Appellate Division. The New York State Court
System has been forced to create an ad hoc fix that
“borrows” 35 judges from the New York City Civil
Court, 69 judges from New York City Criminal
Court, 63 judges from the Court of Claims and 3
Family Court judges to make them Acting Supreme
Court Justices.
134. The Administrative Board’s decision would
force the Bronx, in particular, to lose eight Supreme
Court Justices—the most of any county in the
state—and Queens and Manhattan to lose six
Supreme Court Justices each. This decision would
prove especially difficult for the Bronx, which is
the most under-funded borough in New York City
with approximately 7% of New York State’s
population.127
135. Petitioner Justice Tapia, who serves in
Bronx County, feels the burden of heavy caseloads
on his calendar each day. To address backlogs and
move his docket forward, he often makes decisions
orally from the bench to avoid further delays.
136. The departure of Justices from Queens is
also problematic. Queens has the most diverse
population in the United States with approximately 2.3 million people who speak 160 different
languages. Many litigants do not speak English
127

Jeffrey Dinowitz, Testimony at Assembly Standing
Committee on the Judiciary, Budget and Staffing Reductions
in the Judiciary Branch (Nov. 12, 2020) (transcript
unavailable).

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

135a
and require interpreters for their cases, adding to
delays in disposing of cases.
137. Staten Island would also be significantly
impacted. Justice Maltese from the Second Department, Appellate Division and Justice Marrazzo
from Richmond County, Civil Term, have been
denied recertification and would depart the court
this year. Sheila McGinna, president of Richmond
County Bar Association states that: “We have
attorneys and staff who will be greatly affected
because we will be operating with two less on the
bench on Staten Island. This is a gap, and it
creates a vacuum.”128
138. Notwithstanding
the
disproportionate
burden carried by the Supreme Court in New York
City, the majority of the Justices denied
certification at the trial-court level preside in New
York City. Eight of the Justices denied
certification are Bronx County Justices, six are
New York County Justices, six are Queens County
Justices, one is a King’s County Justice, and one is
a Richmond County Justice.129
The Petitioners’ Retiree Health Benefits
139. Petitioners consulted New York State
Health Insurance Plan (“NYSHIP”) and New York
Association of Public Employee Retirement Systems

128

Frank Donnelly, Staten Island to lose 2 judges in
budget slash could there be more cuts, SI LIVE (OCT . 2,
2020), available at: https://www.silive.com/news/2020/10/
staten-island-to-lose-2-judges-in-budget-slash-could-there-beadditional-cuts.html (last accessed Nov . 22, 2020).
129
Brand, supra, note 89.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

136a
(“NYPERS”) in anticipation of their forced departure
from the bench.
140. Petitioners were advised that because they
are not being certificated, they must notify
NYSHIP and NYPERS by December 15, 2020 if
they intend to retire directly from active service
effective December 31, 2020.
141. One consequence of failing to retire directly
from active service may be that a judge may lose
the right to receive retiree health benefits after
retirement.
FIRST CAUSE OF ACTION: JUDGMENT
PURSUANT TO CPLR ARTICLE 7803(3)
VACATING RESPONDENTS’ DECISION
TO DENY CERTIFICATION TO 46
SUPREME COURT JUSTICES AS
VIOLATING THE NEW YORK STATE
CONSTITUTION AND JUDICIARY LAW’S
LAWFUL PROCEDURES
142. Petitioners repeat and reallege the allegations set forth in the foregoing paragraphs as if set
forth herein.
143. Pursuant to CPLR 7803(3), this Court has
jurisdiction to vacate Respondents’ decision to
deny certification to 46 Supreme Court Justices if
“was made in violation of lawful procedure, was
affected by an error of law or was arbitrary and
capricious or an abuse of discretion.”
144. The New York State Constitution requires
Respondents to certificate New York State
Supreme Court Justices in a manner “necessary to

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

137a
expedite the business of the court.” N.Y. CONST .
art. VI,§ 25(b).
145. Respondents are bound by the New York
State Constitution.
146. Respondents did not engage in the
constitutionally prescribed mandate to determine
whether 46 Supreme Court Justices are “necessary
to expedite the business of the court” before it
denied them certification amid a global pandemic
creating unprecedent case backlogs. N.Y. CONST .
art. VI, § 25(b).
147. Respondents’ decision to deny certification
to 46 Supreme Court Justices therefore violates
the lawful procedure set forth under New York
State’s Constitution for certification of Supreme
Court Justices.
SECOND CAUSE OF ACTION: JUDGMENT
PURSUANT TO CPLR ARTICLE 7803(3)
VACATING RESPONDENTS’ DECISION TO
DENY CERTIFICATION TO 46 SUPREME
COURT JUSTICES WAS ARBITRARY AND
CAPRICIOUS BECAUSE IT IS CONTRARY
TO THE MISSION OF THE COURT SYSTEM
TO PROVIDE TIMELY JUSTICE, AS
CONFIRMED BY CHIEF JUDGE DIFIORE’S
EXCELLENCE INITIATIVE
148. Petitioners repeat and reallege the
allegations set forth in the foregoing paragraphs
as if set forth herein.
149. Pursuant to CPLR 7803(3), this Court has
jurisdiction to vacate Respondents’ decision to

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

138a
deny certification to 46 Supreme Court Justices if
“was made in violation of lawful procedure, was
affected by an error of law or was arbitrary and
capricious or an abuse of discretion.”
150. Over the last four years, the Administrative Board and Chief Judge DiFiore have
expressed the primary mission of the Court System
through the development of the “Excellence
Initiative,” prioritizing speed and efficiency in court
operations. The Excellence Initiative endeavors to
ensure access to justice for all persons entering the
Court System.
151. The Administrative Board’s decision to deny
certification contradicts these policy objectives by
removing 46 experienced Supreme Court Justices
from a Court System currently reeling from a
logjam of cases and the accumulation of paused
trials caused by COVID-19.
152. This action will place the Court System in
chaos, resulting in significant repercussions for
the public, who rely on New York’s Court System
to promptly resolve disputes affecting their lives
and livelihood.
153. The Administrative Board’s decision directly
undermines its stated mission Excellence Initiative’s
efforts to improve promptness and productivity,
eliminate case backlogs and delays, and provide
better service to the public in New York State
courts.
154. Respondents’ decision to deny certification
to 46 Supreme Court Justices was therefore
arbitrary and capricious.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

139a
THIRD CAUSE OF ACTION:
RESPONDENTS DISCRIMINATED
AGAINST PETITIONERS UNDER NEW
YORK’S HUMAN RIGHTS LAW
155. Petitioners repeat and reallege each and
every allegation in the foregoing paragraphs as if
fully set forth herein.
156. The New York State Human Rights Law
(“NY HRL”) is codified in New York State’s
Executive Law, which prohibits anyone in an
employer capacity from terminating or discriminating against an employee “in promotion, compensation or in terms, conditions, or privileges of
employment” because of his or her age. See N.Y.
EXEC . LAW §§ 296(1), 296(3-a)(a).
157. The NY HRL protects Petitioners, as
constitutional officers, from the discriminatory
actions of the Administrative Board and Chief
Judge DiFiore, who supervise the administration
and operation of the trial courts.
158. Section 292 of the NY HRL defines
“employer” broadly as “all employers within the
state.” N.Y. EXEC . LAW § 292(5).
159. The term “employee” is similarly broad in
scope, excluding only “any individual employed by
his or her parents, spouse or child, or in the
domestic service of any person except as set forth
in section two hundred ninety-six-b of this title.”
N.Y. EXEC . LAW § 292(6).
160. The
Administrative
Board’s
decision
effectively deprives the Justices of the certification
process set forth in New York State’s Constitution,
precluding them from continuing to serve on the

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

140a
New York State Supreme Court for an additional
two years.
161. Petitioners are all at least 70 years old and
are therefore members of a protected class under
NY HRL because of their age.
162. Petitioners passed the mental and physical
exams required by New York State’s Constitution,
evidencing their continued ability to serve on the
bench for another two-year term.
163. The
Administrative
Board’s
decision
effectively deprives the Justices of the certification
process set forth in New York State’s Constitution,
precluding them from continuing to serve on the
New York State Supreme Court for an additional
two years.
164. The Chief Judge and the Chief Administrative Judge have stated that the blanket denial
was based upon the value judgment that maintaining the employment of younger non-judicial
staff was preferable to maintaining the services of
the older, more experienced judges seeking
certification.
PRAYER FOR RELIEF
WHEREFORE, Petitioners respectfully requests
that the Court:
a) On the first cause of action, find that
Respondents’ actions in denying Petitioners
certification were in violation of lawful
procedure under CPLR 7803(3);
b) On the second cause of action, find that
Respondents’ actions in denying certification

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

141a
of Petitioners were arbitrary and capricious
under CPLR 7803(3);
c) On the third cause of action, find that
Respondents’ actions in denying Petitioners
certification were discriminatory in violation
of New York’s Human Rights Law;
d) Order Respondents to expeditiously reevaluate
each Petitioner’s request for certification on
an individualized basis, as required by New
York State’s Constitution;
e) Permit Petitioners to withdraw their pension
and health care papers that were submitted
in reliance on the Administrative Board’s
unconstitutional denial of certification;
f) Award Petitioners such other and further
relief as the Court deems just and proper.
Dated: November 24, 2020
Respectfully submitted,
/s/ ALAN M. KLINGER
STROOCK & STROOCK & LAVAN LLP
Alan M. Klinger, Esq.
Dina Kolker, Esq.
Elizabeth C. Milburn, Esq.
180 Maiden Lane
New York, New York 10038
(212) 806-5400
aklinger@stroock.com
dkolker@stroock.com
ecmilburn@stroock.com
Counsel for Petitioners

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

142a
VERIFICATION
STATE OF NEW YORK
COUNTY OF NASSAU

)
) ss.:
)

ESTHER M. MORGENSTERN, being duly sworn,
deposes and says:
I am President of the Supreme Court Justices
Association of the City of New York, Inc. (“City
Association”), a petitioner in this proceeding. I
have read the foregoing Verified Petition, know
the contents thereof and the same are true to my
knowledge as they pertain to me and the City
Association. As to those matters therein which do
not pertain to me or the City Association, I believe
them to be true on information and belief.
Dated: New York, New York
November 23, 2020
/s/ Esther M. Morgenstern
Hon. Esther M. Morgenstern
Sworn to before me this
23rd day of November, 2020
/s/ Nicole Fiore
Notary Public
[STAMP]
NICOLE FIORI
NOTARY PUBLIC, STATE OF NEW YORK
No. 01FI6342751
Qualified in Richmond County
Certificate Filed in New York County
Commission Expires May 31, 2024

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

143a
VERIFICATION
STATE OF NEW YORK

)
) ss.:
)

COUNTY OF LEWIS

CHARLES C. MERRELL, being duly sworn,
deposes and says:
I am President of Justices of the Supreme Court
of the State of New York (“State Association”), a
petitioner in this proceeding. I have read the
foregoing Verified Petition, know the contents
thereof and the same are true to my knowledge as
they pertain to me and the State Association. As to
those matters therein which do not pertain to me
or the City Association, I believe them to be true
on information and belief.
Dated: Lowville, New York
November 23, 2020
/s/ Charles C. Merrell
Hon. Charles C. Merrell
Subscribed and sworn to
before me this 23rd day
of November, 2020
/s/ Edgar S.K. Merrell 3rd
Notary Public
[STAMP]
EDGAR S.K. MERRELL 3RD
NOTARY PUBLIC, STATE OF NEW YORK
LEWIS COUNTY NO. 4688202
TERM EXPIRES SEPTEMBER 30, 2021

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

144a
VERIFICATION
STATE OF NEW YORK

)
) ss.:
)

COUNTY OF NEW YORK

KATHRYN E. FREED, being duly sworn, deposes
and says:
I am Petitioner Kathryn E. Freed in this action.
I have read the foregoing Verified Petition, know
the contents thereof and the same are true to my
knowledge as they pertain to me. As to those
matters therein which do not pertain to me or the
City Association, I believe them to be true on
information and belief.
Dated: New York, New York
November 24, 2020
/s/ Kathryn E. Freed
Hon. Kathryn E. Freed
/s/ Jonathan A. Judd
[STAMP]
JONATHAN A. JUDD
Notary Public, State of New York
No. 02JU6178570
Qualified New York County
Commission Expires Dec. 3, 2023

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

145a
VERIFICATION
STATE OF NEW YORK

)
) ss.:
)

COUNTY OF RICHMOND
ORLANDO MARRAZZO,
deposes and says:

being

duly

sworn,

I am Petitioner Orlando Marrazzo in this action.
I have read the foregoing Verified Petition, know
the contents thereof and the same are true to my
knowledge as they pertain to me. As to those
matters therein which do not pertain to me, I
believe them to be true on information and belief.
Dated: S.I., New York
November 23, 2020
/s/ Orlando Marrazzo
Hon. Orlando Marrazzo
/s/ Christine R. Martin
[STAMP]
CHRISTINE R. MARTIN
Notary Public, State of New York
No. 4843950
Qualified in Richmond County
Commission Expires 12-31-2021

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

146a
VERIFICATION
STATE OF FLORIDA
COUNTY OF ST. LUCIE

)
) ss.:
)

LARRY D. MARTIN. being duly sworn, deposes
and says:
I am Petitioner Larry D. Martin in this action. I
have read the foregoing Verified Petition, know
the contents thereof and the same are true to my
knowledge as they pertain to me. As to those
matters therein which do not pertain to me, I
believe them to be true on information and belief.
Dated: 11-24-2020, Florida
November 24, 2020
/s/ Larry D. Martin
Hon. Larry D. Martin
[STAMP]
DON D. ANDREWS
Notary Public – State of Florida
Commission # GG 201941
My Comm. Expires March 29, 2022
Bonded through National Notary Assn.

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

147a
VERIFICATION
STATE OF FLORIDA

)
) ss.:
)

COUNTY OF ORANGE

JAMES J. PIAMPIANO, being duly sworn,
deposes and says:
I am Petitioner James J. Piampiano in this
action. I have read the foregoing Verified Petition,
know the contents thereof and the same are true to
my knowledge as they pertain to me. As to those
matters therein which do not pertain to me, I
believe them to be true on information and belief.
Dated: Orlando, Florida
November 24, 2020
/s/ James J. Piampiano
Hon. James J. Piampiano
State of Florida County of Orange
Subscribed and sworn before me
on 11/24/2020
/s/ Marla V. Romero
(Notary Signature)
[STAMP]
Marla V. Romero
State of Florida
My Commission Expires 02/05/2021
Commission No. GG 69709

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

148a
VERIFICATION
STATE OF NEW YORK

)
) ss.:
)

COUNTY OF QUEENS

BERNICE D. SIEGAL, being duly sworn, deposes
and says:
I am Petitioner Bernice D. Siegal in this action. I
have read the foregoing Verified Petition, know
the contents thereof and the same are true to my
knowledge as they pertain to me. As to those
matters therein which do not pertain to me, I
believe them to be true on information and belief.
Dated: Queens, New York
November 23, 2020
/s/ Bernice D. Siegal
Hon. Bernice D. Siegal
Sworn to before me this
23rd day of November, 2020
/s/ Nicole Fiore
Notary Public
[STAMP]
NICOLE FIORI
NOTARY PUBLIC, STATE OF NEW YORK
No. 01FI6342751
Qualified in Richmond County
Certificate Filed in New York County
Commission Expires May 31, 2024

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

149a
VERIFICATION
STATE OF NEW YORK
COUNTY OF BRONX

)
) ss.:
)

FERNANDO TAPIA, being duly sworn, deposes
and says:
I am Petitioner Fernando Tapia in this action. I
have read the foregoing Verified Petition, know
the contents thereof and the same are true to my
knowledge as they pertain to me. As to those
matters therein which do not pertain to me, I
believe them to be true on information and belief.
Dated: Bronx, New York
November 24, 2020
/s/ Fernando Tapia
Hon. Fernando Tapia
Sworn to before me this
24th day of November, 2020
/s/ Nicole Fiore
Notary Public
[STAMP]
NICOLE FIORI
NOTARY PUBLIC, STATE OF NEW YORK
No. 01FI6342751
Qualified in Richmond County
Certificate Filed in New York County
Commission Expires May 31, 2024

86894 • HERZBERG • APPENDIX J (WAS APPX K)

AL 5/5/21

150a
Appendix K
SUPREME COURT OF
THE STATE OF NEW YORK
COUNTY OF SUFFOLK

__________
At IAS Part 36 of the Supreme Court of
the State of New York, held in and for
the County of Suffolk, at the Courthouse,
at 1 Court Street, Riverhead, New York,
New York, on the 5th day of November, 2020

__________
PRESENT: HON. Paul J. Baisley, Jr., J.S.C.

__________
Index No. 616980/2020
Mot Seq. No. 001

__________

86894 • HERZBERG • APPENDIX K (WAS APPX L)

AL 5/6/21

151a

__________
In the Matter of the Application of
HON. ELLEN GESMER, HON. DAVID
FRIEDMAN, HON. SHERI S. ROMAN,
HON. JOHN M. LEVENTHAL,
and DANIEL J. TAMBASCO,
Petitioners-Plaintiffs,
For a Judgment under Article 78 of the CPLR
—against—
THE ADMINISTRATIVE BOARD OF THE NEW
YORK STATE UNIFIED COURT SYSTEM,
JANET DIFIORE, AS CHIEF JUDGE OF THE
NEW YORK STATE UNIFIED COURT SYSTEM,
and LAWRENCE K. MARKS, AS CHIEF
ADMINISTRATIVE JUDGE OF THE NEW YORK
STATE UNIFIED COURT SYSTEM,
Respondents-Defendants.

__________
ORDER TO SHOW CAUSE FOR
HEARING ON ARTICLE 78 PETITION
AND COMPLAINT AND FOR
EXPEDITED DISCOVERY
UPON the annexed Emergency Affirmation of
James Catterson, Esq., executed on November 5,
2020 (the “Catterson Aff.”), and the exhibits
annexed thereto; the accompanying memorandum
of law; the Verified Petition and Complaint dated
November 5, 2020 (the “Petition”) and upon all of

86894 • HERZBERG • APPENDIX K (WAS APPX L)

AL 5/6/21

152a
the pleadings and proceedings heretofore had
herein, and sufficient cause having been shown;
LET Respondents-Defendants, by their attorneys,
show cause before this Court at IAS Part 36, of the
Supreme Court of the State of New York, County
of Suffolk, to be held at the Court, located at 1
Court Street, Riverhead, New York, Room 405, on
December 7th, 2020, at 9:30 o’clock a.m., or as soon
thereafter as counsel may be heard, why an Order
should not be made and entered pursuant to
Article 78 of the Civil Practice Law and Rules to
review and render a judgment to annul, vacate and
set aside the Respondents-Defendants’ decision to
deny Petitioners certification pursuant to the
Petition as follows:
a)

On the first cause of action, finding that
Respondents’ actions in denying Petitioners
certification were in violation of lawful
procedure under CPLR 7803(3);

b)

On the second cause of action, finding that
Respondents’ actions in denying Petitioners
certification were arbitrary and capricious
under CPLR 7803(3);

c)

On the third cause of action, a declaration
that Respondents’ actions in denying
Petitioners certification were unconstitutional
and illegal;

d)

On the fourth cause of action, a declaration
that Respondents’ actions in denying
Petitioners certification denied Petitioners’
due process under the Constitution of the
State of New York;

86894 • HERZBERG • APPENDIX K (WAS APPX L)

AL 5/6/21

153a
e)

On the fifth cause of action, a declaration
that Respondents’ actions in denying
Petitioners certification were unconstitutional;

f)

On the sixth cause of action, finding that
Respondents’ actions in denying Petitioners
certification were discriminatory in violation
of New York’s Human Rights Law;

g)

On the seventh cause of action, finding that
Respondents’ actions in denying Petitioners
certification were discriminatory in violation
of New York City’s Human Rights Law;

h)

Petitioners-Plaintiffs may seek expedited
discovery in connection with their Article 78
claims; and

i)

And for such other and further relief to this
Court seems just and proper.

Sufficient reason appearing therefore, it is
hereby
ORDERED, that the Petitioners-Plaintiffs may
seek expedited discovery in connection with their
Article 78 claims;
ORDERED, that the Respondents-Defendants
are to produce written discovery requests to the
document requests attached as Exhibit 2 to the
accompanying Catterson Aff. no later than
November 13, 2020;
ORDERED, that the Respondents-Defendants
will conduct the deposition of Chief Judge Janet
DiFiore pursuant to the notice of deposition
attached as Exhibit 3 to the accompanying
Catterson Aff. on November 16, 2020;

86894 • HERZBERG • APPENDIX K (WAS APPX L)

AL 5/6/21

154a
ORDERED, that the Respondents-Defendants
will conduct the deposition of Chief Administrative
Judge Lawrence Marks pursuant to the notice of
deposition attached as Exhibit 4 to the
accompanying Catterson Aff. on November 18,
2020 (collectively, the “Discovery”);
ORDERED, that the custodian of records for the
Administrative Board will appeal for deposition
with the requested documents attached as Exhibt
5 to the accompanying Catterson Aff. no later than
November 13, 2020;
ORDERED, that papers in further support of the
Petition shall be due 5 days after the completion of
the Discovery set forth and defined below
(“Further Supporting Papers”);
Initialed PJB, JSC
ORDERED, that opposing papers, if any, which
shall include opposing papers, if any, shall be
served by overnight mail delivery or e-filing so as
to be received by counsel for Petitioners, James
Catterson, Esq., Arnold & Porter Kaye Scholer
LLP, 250 West 55th Street, New York, NY 100199710 and Y. David Scharf, Esq., Morrison Cohen
LLP, 909 Third Avenue, New York, New York
10022 on or before November 13, 2020, which shall
be __ days after the Further Supporting Papers are
served and that such delivery shall be deemed good
and sufficient service; [11/12 written in margin]
ORDERED, that reply papers, if any, shall be
served by overnight mail delivery or e-filing so as
to be received by counsel for RespondentsDefendants on or before ________ __, 2020, which
shall be __ days after the Further Supporting

86894 • HERZBERG • APPENDIX K (WAS APPX L)

AL 5/6/21

155a
Papers are served and that such delivery shall be
deemed good and sufficient service, and it is
further
ORDERED, that personal service and service by
e-mail of a copy of this Order and the papers upon
which it is granted, including the Summons and
Petition and Complaint, shall be deemed good and
sufficient service, if made no later than November
6th, 2020;
ENTER:
/s/ Paul J. Baisley, Jr.
J.S.C.
HON. PAUL J. BAISLEY, JR.
[STAMP]
GRANTED
NOV 05 2020
JUDITH A. PASCALE
Clerk of Suffolk County

86894 • HERZBERG • APPENDIX K (WAS APPX L)

AL 5/6/21

156a
Appendix L
SUPREME COURT OF
THE STATE OF NEW YORK
COUNTY OF SUFFOLK

__________
Index No. 616980/2020
(Baisley, J.S.C.)
Motion Sequence No. ____

__________
In the Matter of the Application of
H ON . E LLEN G ESMER , H ON . D AVID F RIEDMAN ,
H ON . S HERI S. R OMAN , H ON . J OHN M.
L EVENTHAL , and D ANIEL J. T AMBASCO ,
Petitioners-Plaintiffs,
For a Judgment under Article 78 of the CPLR
—against—
T HE A DMINISTRATIVE B OARD OF THE N EW
Y ORK S TATE U NIFIED C OURT S YSTEM , J ANET
D I F IORE , AS C HIEF J UDGE OF THE N EW Y ORK
S TATE U NIFIED C OURT S YSTEM , L AWRENCE K.
M ARKS , AS C HIEF A DMINISTRATIVE J UDGE OF
THE N EW Y ORK S TATE U NIFIED C OURT S YSTEM ,
Respondents-Defendants.

__________

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

157a
MEMORANDUM OF LAW IN SUPPORT
OF PLAINTIFFS’ MOTION FOR
CONTEMPT OF COURT
MORRISON COHEN LLP
Y. David Scharf
David B. Saxe
Danielle C. Lesser
Collin A. Rose
909 Third Avenue
New York, New York 10022
(212) 735-8600
ARNOLD & PORTER KAYE SCHOLER LLP
James M. Catterson
250 West 55th Street
New York, NY 10019
(212) 836-8000
Attorneys for Petitioners-Plaintiffs

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

158a
TABLE OF CONTENTS
Page
PRELIMINARY STATEMENT ............................1
FACTUAL BACKGROUND..................................3
ARGUMENT .........................................................4
I.

THIS COURT SHOULD HOLD
RESPONDENTS IN CONTEMPT .................4
A. A Finding of Civil Contempt Is
Warranted .................................................4
B. A Protective Order Is Not Available
in the Face of This Court’s Order............6
C. Respondents Cannot Collaterally
Attack This Court’s Order, Which Is
Law of the Case ........................................9
D. Respondents Should Be Compelled
To Produce Documents And Appear
For Depositions ......................................11

CONCLUSION ....................................................12

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

159a
TABLE OF AUTHORITIES
Page(s)
Cases
Astrada v Archer,
71 A.D.3d 803, appeal dismissed, denied
in part, 14 N.Y.3d 922 (2010) .............................4
Bristow v. Bristow,
58 Misc. 3d 1023
(Sup. Ct., Kings Cnty. 2018) ............................10
Certain Underwriters at Llloyd’s London v.
N. Shore Signature Homes, Inc.,
125 A.D.3d 799 (2d Dep’t 2015) .......................10
DeMaio v Capozello,
114 A.D.3d 899 (2d Dep’t 2014) .......................12
Dep’t of Envt’l Protection of City of N.Y.
v. Dep’t of Envt’l Conservation
of State of N.Y.,
70 N.Y.2d 233 (1987) ...........................................4
El-Dehdan v. El-Dehdan,
26 N.Y.3d 19 (2015) .............................................5
Fulmer v. Buxenbaum,
109 A.D.3d 822 (2d Dep’t 2013) .......................10
Gibbs v. St. Barnabas Hosp.,
16 N.Y.3d 74 (2010) .............................................7
Grossman v. Team Care Home Care Agency, Inc.,
14 A.D.3d 652 (2d Dep’t 2005) .........................10
Gryphon Domestic VI, LLC v. APP Int’l Fin. Co.,
58 A.D.3d 498 (1st Dep’t 2009) ..........................4

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

160a
Hudson City Savings Bank v.
59 Sands Point, LLC,
162 A.D.3d 644 (2d Dep’t 2018) .......................10
Inc. Vill. of Plandome Manor v. Ioannou,
54 A.D.3d 365 (2d Dep’t 2008)............................4
Jones v. Maples
257 A.D.2d 53 (1st Dep’t 1999) ..........................9
Kaywood v. Cigpak, Inc.,
58 A.D.2d 623 (2d Dep’t 1999) .........................12
Kihl v. Pfeffer,
94 N.Y.2d 118 (1999) ...........................................7
Killon v. Parrotta,
28 N.Y.3d 101 (2016) .........................................10
McCain v. Dinkins,
84 N.Y.2d 216 (1994) .......................................4, 5
Monica W. v. Milevoi,
252 A.D.2d 260 (1st Dep’t 1999) ........................9
N. Tonawanda First v. City of N. Tonawanda,
94 A.D.3d 1537 (4th Dep’t 2012)......................12
P.B. #7, LLC v. 231 Fourth Ave. Lyceum, LLC,
167 A.D.3d 1028 (2d Dep’t 2018), leave to
appeal dismissed, 34 N.Y.3d 962 (2019),
and appeal dismissed, 34 N.Y.3d 1175
(2020).....................................................................5
Penavic v. Penavic,
109 A.D.3d 648 (2013) .........................................4
Philie v. Singer,
79 A.D.3d 1041 (2d Dep’t 2010) .........................5

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

161a
Ramanathan v. Aharon,
109 A.D.3d 529 (2d Dep’t 2013) .......................10
Richter v. Richter,
156 A.D.2d 653 (2d Dep’t 1989) .......................11
Sexter v. Kimmelman, Sexter, Warmflash
& Leitner,
277 A.D.2d 186 (1st Dep’t 2000) ........................5
Tilles Inv. Co. v. Oyster Bay,
139 A.D.2d 575 (2d Dep’t 1988) .........................9
Town Bd. of Town of Southampton v.
R.K.B. Realty, LLC,
91 A.D.3d 628 (2d Dep’t 2012)............................4
Vandashield Ltd. v. Isaacson,
146 A.D.3d 552 (1st Dep’t 2017) ....................7, 8
Vandashield Ltd. v. Isaacson,
No. 1840, 2018 WL 6727073
(1st Dep’t 2016) ....................................................8
Vladenn Med. Supply Corp. v.
United Servs. Auto. Ass’n,
56 Misc. 3d 138(A)
(App. Term. 2d Dep’t 2017) ..............................10
Westbury Med. Care, P.C. v.
Lumbermans Mut. Ins. Co.,
5 Misc. 3d 838
(Dist. Ct. Nassau Cty. 2004) ..............................9
Wiseman v. Am. Motors Sales Corp.,
103 A.D.2d 230 (2d Dep’t 1984) .........................6

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

162a
Statutes
NY CPLR 3103 ........................................................6, 7
NY Judiciary Law § 753.......................................1, 12
Other Authorities
Patrick M. Connors, Practice Commentaries,
McKinney’s Cons. Laws CPLR C3103 ..........6, 7

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

163a
Petitioners-Plaintiffs Justices Gesmer, Friedman,
Roman, and Leventhal (the “Petitioner Justices”),
as well as Daniel J. Tambasco (together with the
Petitioner Justices, the “Petitioners”), through
their undersigned attorneys, respectfully submit
this memorandum of law in support of their
motion for an Order: (1) pursuant to Judiciary Law
§ 753 and the general supervisory and equitable
powers of this Court, adjudging RespondentsDefendants the Administrative Board of the New
York State Unified Court System (the “Administrative Board”), Chief Judge Janet DiFiore, and
Chief Administrative Judge Lawrence K. Marks
(collectively, the “Respondents”) in civil contempt
of this Court’s signed order to show cause, dated
November 5, 2020 (the “Order”); (2) pursuant to
Judiciary Law § 753 and this Court’s equitable
powers, compelling Respondents to comply with
the Order granting Petitioners’ expedited discovery
requests, including producing documents and
appearing for depositions prior to the return date
of Petitioners’ Verified Petition and Complaint, (3)
denying Respondents’ cross-motion, dated November
13, 2020, in particular the portion seeking a
protective order; and (4) for such other and further
relief as this Court deems just and proper.
PRELIMINARY STATEMENT
Our court system plays the central role in
upholding the rule of law. The rule of law ensures
that no one is beneath the protection of the law
and no one is free from the obligation to comply
with it, including the Chief Judge of the Unified
Court System and the Court of Appeals as well as

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

164a
the Chief Administrative Judge. In taking the oath
of office, each judge or justice in New York State
swears to uphold the United States Constitution
and the New York State Constitution. Implicit in
that oath is fealty to the rules of practice as well as
obedience to lawful orders of the Court. Here, the
Respondents have decided to simply ignore the Order
of this Court to turn over documents and to appear
for depositions. Ensuring that the Respondents do
not flout this Court’s Order, and that the rule of
law prevails no matter whether the litigants enjoy
the status of heads of the entire court system, is at
the heart of this motion.
The instant motion is one that is not easy to
make, and it is with great regret that the
Petitioners find themselves in the present
situation. However, the Respondents have done
everything in their power—and their power over
the court system is considerable—to drag out these
proceedings with the understanding that by so
doing, the Petitioners will be nonsuited by nothing
more than the passage of time.
The Petitioner Justices, who have had decades of
loyal service to the people of the State of New
York, will be unceremoniously forced to retire on
the pretext of bogus budgetary concerns.
In order to take discovery on these claims, on an
expedited time frame, Respondents were provided
notice of a motion, brought on by order to show
cause, for expedited discovery. Not only did the
Office of Court Administration (“OCA”) or any of
its many minions not appear at that hearing, its
counsel has admitted that OCA “screwed up” in
not doing so. Petitioners’ counsel appeared in

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

165a
person in the courtroom of the Special Term Judge,
the Hon. Paul J. Baisley, Jr., where they were
made to wait for several hours. Counsel for
Respondents did not call the Special Term clerk,
chambers, or the Clerk of the Court, or appear in
any manner. Justice Baisley reviewed the
Petitioners’ order to show cause, including the
attached discovery notices, and signed the Order,
granting the Petitioners expedited discovery.
Pursuant to the expedited discovery requests
and the Court’s expedited discovery order,
Respondents’ documents were due to be produced
on Friday November 13, 2020, and Chief Judge
DiFiore was to be deposed on Monday November
16, 2020. Respondents’ counsel initiated a meet
and confer on the very day documents were due.
During that meet and confer, Respondents’ counsel
advised Petitioners’ counsel that OCA would be
unable to produce the documents sought prior to
the passage of at least two years’ time. Without
the courtesy of mentioning it, Respondents then
filed a 50-page cross-motion, seeking, among other
things, the instant motion for a protective order at
nearly 11 p.m. on Friday, November 13, 2020. The
protective order is nothing more than a baseless
attempt to re-litigate the expedited discovery order
their counsel failed to oppose in the first place.
But, as powerful as the Respondents are, they, like
all defendants who appear before the Courts of
this State, must abide by court-ordered discovery
and must adhere to court orders. The Respondents
are not above the law and must set an example for
other defendants who seek to evade legitimate
discovery obligations. To date, Respondents have
produced no discovery whatsoever. Indeed, they

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

166a
have imperiously declared that they intend not to
do so. They also have refused to sit for depositions,
instead interposing a baseless motion simply to
run out the clock. This will work a grave injustice
on the Petitioners.
Ultimately, Respondents can offer no legitimate
excuse for their failure to obey this Court’s Order,
other than their counsel’s “screw up” in failing to
appear at the hearing at which Respondents could
have and should have presented the present
arguments. Unless a swift and decisive message is
sent, Respondents will continue to ignore this
Court’s authority and render null and void any
relief the Court can possibly provide in this
matter.
FACTUAL BACKGROUND
The factual background of this matter is set
forth in the accompanying Affirmation of Urgency
of James M. Catterson, dated November 18, 2020
(the “Catterson Aff.”), and the Affirmation of
Danielle C. Lesser, dated November 18, 2020 (the
“Lesser Aff.”). The Order is attached to the
Catterson Affirmation as Exhibit 1.
ARGUMENT
I.

THIS
COURT
SHOULD
RESPONDENTS IN CONTEMPT

HOLD

Holding Respondents in contempt is thoroughly
warranted. Respondents’ intentional disregard of
this Court’s Order is precisely the type of action
that contempt findings are meant to discourage
and remedy.

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

167a
A. A Finding
Warranted

of

Civil

Contempt

Is

A court may punish a party for civil contempt
when that party violates an order of the court.
Jud. L. § 753. To establish civil contempt due to
the violation of a court order, Petitioners must
show that “a lawful order of the court clearly
expressing an unequivocal mandate was in effect,”
that “the order has been disobeyed,” and that “the
party charged ... had knowledge of the court’s
order.” Dep’t of Envt’l Protection of City of N.Y. v.
Dep’t of Envt’l Conservation of State of N.Y., 70
N.Y.2d 233, 240 (1987) (citations omitted); accord
Town Bd. of Town of Southampton v. R.K.B.
Realty, LLC, 91 A.D.3d 628, 629 (2d Dep’t 2012);
see also Gryphon Domestic VI, LLC v. APP Int’l
Fin. Co., 58 A.D.3d 498, 499 (1st Dep’t 2009)
(affirming finding of civil contempt for failure to
comply with court order).
The purpose of civil contempt is “to compensate
the injured party or to coerce compliance with the
court’s mandate or both.” Dep’t of Envt’l Prot. of
City of N.Y., 70 N.Y.2d at 239; accord Penavic v.
Penavic, 109 A.D.3d 648, 649 (2013) (same); see
also McCain v. Dinkins, 84 N.Y.2d 216, 226 (1994)
(purpose of civil contempt is to compensate injured
party for its loss). Thus, a party seeking remedies
for civil contempt should “show[] that [its] rights
have been prejudiced.” Town of Southampton, 91
A.D.3d at 629 (citing McCain, 84 N.Y.2d at 226).
This requirement is satisfied where “the contemnor’s
actions were calculated to or actually did defeat,
impair, impede, or prejudice the rights or remedies
of a party.” Astrada v Archer, 71 A.D.3d 803, 807
(2d Dep’t 2010), appeal dismissed, denied in part,

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

168a
14 N.Y.3d 922; see Inc. Vill. of Plandome Manor v.
Ioannou, 54 A.D.3d 365, 366 (2d Dep’t 2008)
(affirming civil contempt order where the record
supported a finding that “the defendant’s conduct
was calculated to, or actually did, defeat, impair,
impede, or prejudice the plaintiff’s rights or
remedies”).
To establish civil contempt, “it is not necessary
that the disobedience be deliberate or willful;
rather, the mere act of disobedience, regardless of
its motive, is sufficient if such disobedience
defeats, impairs, impedes, or prejudices the rights
or remedies of a party.” Philie v. Singer, 79 A.D.3d
1041, 1042 (2d Dep’t 2010); P.B. #7, LLC v. 231
Fourth Ave. Lyceum, LLC, 167 A.D.3d 1028, 1030
(2d Dep’t 2018), leave to appeal dismissed, 34
N.Y.3d 962 (2019), and appeal dismissed, 34
N.Y.3d 1175 (2020); see also El-Dehdan v. ElDehdan, 26 N.Y.3d 19, 35 (2015) (explaining that
willful misconduct is not required for civil contempt).
Here, all of the requirements for a contempt
finding against Respondents are met. There can be
no doubt that (1) this Court issued the Order
authorizing expedited discovery, including those
document requests and notices of deposition
interposed by Petitioners at issue here, (2) the
Respondents had knowledge of the Petitioners’
motion for expedited discovery, this Court’s Order
granting expedited discovery, and Petitioners’
discovery demands themselves,1 and (3) Respon1

Though Petitioners adequately served the Order and
its corresponding discovery demands on Respondents, the
Court need not find that Respondents were served with these
documents to hold Respondents in civil contempt. Knowledge
of this Court’s Order is sufficient to hold Respondents in civil

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

169a
dents have intentionally and flagrantly disregarded
this Court’s Order. See, e.g., P.B. #7, LLC, 167
A.D.3d at 1030 (upholding finding of civil contempt
for party’s failure to obey court order with knowledge of its terms, to opposing party’s detriment);
Philie, 79 A.D.3d at 104 (same); Sexter v.
Kimmelman, Sexter, Warmflash & Leitner, 277
A.D.2d 186, 187 (1st Dep’t 2000) (affirming
contempt order for party’s failure to comply with
court’s discovery order). In fact, not only have the
Respondents’ violated the Order, they have sought
a protective order from Petitioners’ discovery
demands that were specifically authorized by this
Court. As described below, Respondents’ crossmotion for a protective order pursuant to CPLR
3103 is procedurally improper and demonstrative
of the Respondents’ disregard of this Court’s Order.
B. A Protective Order Is Not Available
in the Face of This Court’s Order
CPLR 3103(a) provides that a court may “on
motion of any party or of any person from whom or
about whom discovery is sought, make a protective
order denying, limiting, conditioning or regulating
the use of any disclosure device.” After a motion
for a protective order is made, the discovery
obligations at issue in the motion are stayed. See
CPLR 3103(b). The purpose of CPLR 3103
protective orders is to allow a party who seeks to
avoid an abusive discovery request to invoke the
contempt. See McCain, 84 N.Y.2d at 226 (holding that service
of an order on the party to be held in contempt is “not
necessary,” provided the party mere had “knowledge of the
order.”). It is beyond dispute that Respondents knew of this
Court's Order.

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

170a
judicial discretion of the court to review and
modify the discovery device in question. Patrick M.
Connors, Practice Commentaries, McKinney’s
Cons. Laws of NY, CPLR C3103:1 (“If, for any
reason sufficient to invoke that undefinable
commodity known as judicial ‘discretion,’ an
adjustment in the use of disclosure is called for by
the facts of any case, CPLR 3103 is at hand to
confer the discretion.”).
Generally speaking, of course, parties exchange
discovery requests without any court supervision
because the CPLR “envisages a maximum
disclosure of facts with a minimum of supervision.”
Wiseman v. Am. Motors Sales Corp., 103 A.D.2d
230, 232 (2d Dep’t 1984). Thus, CPLR 3103
provides the procedure whereby a party may have
the court evaluate potentially abusive discovery
demands after they are served by a party but
before a court has any knowledge of them. Put
differently, CPLR 3103 is structured such that a
protective order only ever precedes judicial
supervision; it never follows it. Here, Respondents
have turned this process on its head by attempting
to invoke the stay function of CPLR 3103 after the
Court has already passed on the legitimacy of the
discovery devices in question.
Worse still, Respondents’ failure to timely
oppose the discovery in this matter on November
5, 2020 weighs in favor of rejecting wholesale their
belated request for a protective order. See, e.g.,
Patrick M. Connors, Practice Commentaries,
McKinney’s Cons. Laws of NY, CPLR C3103:3
(“The worst practice is to provide no response [to
discovery demands] and postpone the motion [for a
protective order] until after the scheduled due date

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

171a
of the disclosure. This is a discourtesy to the
lawyer who requested the disclosure and is likely
to invite a rebuke from the court.”) (emphasis
added).
Respondents’ baseless and transparent gambit
will not succeed. It is well recognized that where,
as here, judicial discretion has already been
exercised, and the Court has already approved
specific measures, a second round of judicial
review is unnecessary to determine whether the
discovery in question was appropriate. See Kihl v.
Pfeffer, 94 N.Y.2d 118, 123 (1999) (“If the
credibility of court orders and the integrity of our
judicial system are to be maintained, a litigant
cannot ignore court orders with impunity ....
[C]ompliance with a disclosure order requires both
a timely response and one that evinces a good-faith
effort to address the requests meaningfully.”); see
also Gibbs v. St. Barnabas Hosp., 16 N.Y.3d 74, 81
(2010) (“[T]here is also a compelling need for
courts to require compliance with enforcement
orders if the authority of the courts is to be
respected by the bar, litigants and the public.”).
Indeed, courts have sanctioned parties who have
responded to court-ordered discovery obligations
by seeking relief contrary to the court’s prior
discovery mandates. See Vandashield Ltd. v.
Isaacson, 146 A.D.3d 552, 555 (1st Dep’t 2017)
(upholding sanction against party that had failed
to comply with court-ordered discovery obligations).2
2

Though not expressly stated in the First Department’s
opinion, the parties’ briefing makes clear that in Vandashield,
as here, the defendants responded to the motion court’s order
to disclose information by a date certain with a motion for a
protective order, rather than timely disclosure, thus prompting

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

172a
Moreover, as discussed above, Respondents’
request for a protective order alone evinces their
disregard for this Court’s Order, even if their
cross-motion is denied as meritless. Respondents’
cross-motion is set for a December 7, 2020 return
date. See Respondents’ Notice of Cross-Motion
dated Nov. 13, 2020 (NYSCEF No. 20). Through
the Order, the Court effectively required that all
discovery be completed by that date so that the
issues raised by Petitioners could be adjudicated
at a hearing. See Order. That timing was by
design—as Respondents and this Court are wellaware, the Petitioners will be required to retire on
December 16, 2020. See Affirmation of Urgency of
James M. Catterson dated Nov. 5, 2020 ¶ 4
(NYSCEF No. 3). By seeking a protective order
through a motion returnable on December 7, the
Respondents have sub silentio indicated to the
Court that they will not comply with this Court’s
Order in any way that might help Petitioners
obtain the relief they seek. Even in the likely event
that the Court denies as meritless Respondents’
request for a protective order, the damage to
Petitioners’ discovery rights and ability to present
their case will have been done. This baseless
attempt to flout the Court’s order with a belated
discovery motion warrants a finding of contempt.
See Vandashield, 146 A.D.3d at 555 (upholding
sanctions for failure to comply with court-ordered
discovery where party instead filed belated motion
for a protective order).

sanctions. See Brief of Appellants-Cross Respondents at 1516, Vandashield Ltd. v. Isaacson, No. 1840, 2018 WL
6727073 (1st Dep’t 2016).

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

173a
Indeed, Respondents must know that their
request for a protective order is improper because
they do not cite a single case in which a protective
order was issued after the court had passed on the
discovery devices in question. Respondents
contend that a “proactive[]” protective order is not
just appropriate, but necessary, relief. See
Memorandum of Law in Support of Respondents’
Motion to Transfer Venue to Albany County, to
Dismiss the Verified Petition, and for a Protective
Order dated Nov. 13, 2020, at 33. In so doing,
however, Respondents cite only cases where the
movant obtained a protective order in vastly
different circumstances than those here.3 Simply
3

For example, in one case the movants obtained a
protective order only on the basis that the privacy provisions
of the federal Health Insurance Portability and
Accountability Act (HIPAA) expressly prohibited the
disclosure sought—and again, the court there had not
already authorized the discovery before the protective order
was sought. See Westbury Med. Care, P.C. v. Lumbermans
Mut. Ins. Co., 5 Misc. 3d 838, 840 (Dist. Ct. Nassau Cnty.
2004). Respondents otherwise cite to cases where the movant
has obtained relief after objecting to a particularly irrelevant
and invasive subset of deposition questions, Monica W. v.
Milevoi, 252 A.D.2d 260, 262 (1st Dep’t 1999), or where a
protective order was deemed appropriate to preclude a
videotaped deposition to be taken by a party with a lengthy
—and criminal—history of harassing and seeking to
embarrass the movant, Jones v. Maples, 257 A.D.2d 53, 5456 (1st Dep't 1999). None of these cases support the notion
that a party may seek a protective order as a means of
delaying or evading disclosure already approved of by the
Court. In fact, in one instance, Respondents even cite to an
Appellate Division case affirming, with costs, the denial of a
protective order where the lower court had already
authorized depositions subject to limitations to which the
deposing party had consented. See Tilles Inv. Co. v. Oyster
Bay, 139 A.D.2d 575 (2d Dep't 1988).

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

174a
put, there is no legal support for Respondents’
request for a protective order.
Respondents’ request for a protective order does
not change the obvious: Respondents have refused
to obey this Court’s unequivocal Order despite
their full knowledge of what the Order required,
and by doing so, have prejudiced Petitioners’ right
to obtain the discovery to which this Court has
already found Petitioners entitled.4 For this
additional reason, this Court should hold
Respondents in contempt.
C. Respondents Cannot Collaterally
Attack This Court’s Order, Which Is
Law of the Case
In addition to being procedurally improper,
Respondents’ eleventh-hour cross-motion for a
protective order further demonstrates Respondents’
disregard of this Court’s Order because it is a
plainly improper collateral attack on the Order.
Orders like the one at issue here constitute the law
of the case, precluding their re-examination. See
Hudson City Savings Bank v. 59 Sands Point,
LLC, 162 A.D.3d 644, 646 (2d Dep’t 2018) (holding
that law of the case precluded reconsideration of
previously decided discovery issues); Grossman v.
Team Care Home Care Agency, Inc., 14 A.D.3d
652, 652 (2d Dep’t 2005) (“The Supreme Court
correctly concluded that the disclosure sought by
plaintiffs ... had been granted by a prior order from
which no appeal had been taken. Since the prior
determination was the law of the case, the
Supreme Court properly granted that branch of
the plaintiff’s motion which was to compel such
disclosure” (citations omitted)); see also Certain

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

175a
Underwriters at Lloyd’s London v. N. Shore
Signature Homes, Inc., 125 A.D.3d 799, 799-800
(2d Dep’t 2015) (holding that Supreme Court
properly applied the law of the case doctrine where
prior order had already determined that the file
sought was not discoverable); Vladenn Med.
Supply Corp. v. United Servs. Auto. Ass’n, 56 Misc.
3d 138(A) (App. Term. 2d Dep’t 2017) (holding that
the court properly directed plaintiff to comply with
the prior order requiring plaintiff to respond to
defendant’s discovery demands, as the prior
determination that the documentation at issue is
discoverable was law of the case).
The law of the case doctrine precludes
reexamination of issue previously raised and
decided against a party where the party had a full
and fair opportunity to address it. Fulmer v.
Buxenbaum, 109 A.D.3d 822, 823 (2d Dep’t 2013).5
Indeed, the doctrine of law of the case is “an
articulation of sound policy, that when an issue is
once judicially determined, that should be the end
of the matter as far as Judges and courts of coordinate jurisdiction are concerned.” Ramanathan
v. Aharon, 109 A.D.3d 529, 529 (2d Dep’t 2013);
see also Bristow v. Bristow, 58 Misc. 3d 1023, 1026
5

It is also worth nothing that the Court of Appeals, in
a decision joined by Chief Judge DiFiore, has held that a
prior determination, submitted without objection, is the law
of the case. See, Killon v. Parrotta, 28 N.Y.3d 101 (2016)
(“[w]e must consider the jury charge as to the initial
aggressor and self-defense that was given during the first
trial because the instruction, submitted without objection, is
the law of the case”). As set forth herein, Respondents could
have appeared at the hearing on the November 5, 2020 order
to show cause to object to any portion of the relief sought
therein and chose not to.

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

176a
(Sup. Ct., Kings Cnty. 2018) (denial of application
made by order to show cause was deemed law of
the case).6
The Order and the determination that the
discovery sought by Petitioners should be produced
is the law of the case. Here, Respondents had the
opportunity to appear on November 5, 2020, and
present the arguments they now make in support
of the cross-motion for a protective order but which
really only constitute opposition to Petitioners’
motion for expedited discovery and discovery
demands. OCA chose not to appear. And now,
rather than demonstrating respect for this Court’s
Order, OCA has instead attempted to cross-move
for a protective order to collaterally attack the
Order. Because Respondents have disobeyed the
Order, Respondents should be held in contempt.
D. Respondents Should Be Compelled
To Produce Documents And Appear
For Depositions
Because Petitioners have established that
Respondents should be held in contempt, this
Court must fashion a remedy that undoes the
prejudice to Petitioners caused by Respondents’
6

While the Second Department has held that “the
doctrine of the law of the case does not apply to an ex parte
order, such as an order to show cause” (Richter v. Richter,
156 A.D.2d 653, 653 (2d Dep’t 1989) (citations omitted)), this
caselaw is inapposite because the order to show cause in this
case was not sought on an ex parte basis. Respondents
admittedly received notice of the application and had an
opportunity to contest the order to show cause, and chose not
to. Any further representations by Respondents' counsel that
the order was obtained ex parte would be false and
sanctionable.

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

177a
actions (to the extent possible). Accordingly, this
Court should, in addition to holding Respondents
in contempt, compel Respondents to comply with
its Order and Petitioners’ expedited discovery
demands, including both Petitioners’ document
requests and notices of deposition on an expedited
schedule. This type of remedy has been utilized in
prior cases similar to this one and it is the only
remedy that will partially allay the prejudice done
to Petitioners by Respondents’ actions (as well as
provide Respondents an opportunity to purge their
contempt). See DeMaio v Capozello, 114 A.D.3d
899, 901 (2d Dep’t 2014) (holding that defendant
should have been held in contempt for failure to
comply with court-ordered discovery and that
lower court should have directed defendant to fully
comply with previous court order); Kaywood v.
Cigpak, Inc., 258 A.D.2d 623, 623 (2d Dep’t 1999)
(finding that lower court should have held
defendant in contempt for failing to appear at a
deposition in an attempt to prejudice plaintiff’s
rights and should, on remand, direct defendant to
appear); N. Tonawanda First v. City of N.
Tonawanda, 94 A.D.3d 1537, 1538 (4th Dep’t 2012)
(upholding lower court’s finding of contempt and
subsequent order directing violating party to
purge contempt by complying with court-ordered
discovery). Moreover, because Respondents’ crossmotion to seek a protective order from this Court’s
Order was procedurally improper and flagrantly
violative of the Order, this Court should also
exercise its discretion to summarily deny
Respondents’ cross-motion, filed in response to
Petitioners’ Verified Petition and Complaint.

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

178a
CONCLUSION
For the reasons set forth above, Petitioners’
motion should be granted. This Court should issue
an Order: (1) pursuant to Judiciary Law § 753 and
the general supervisory and equitable powers of
this Court, adjudging all three respondents to
Respondents be in civil contempt of the Order
entered by this Court on November 5, 2020; (2)
pursuant to Judiciary Law § 753 and this Court’s
equitable powers, compelling Respondents to comply
with Petitioners’ expedited discovery requests,
including producing documents and appearing for
depositions prior to the return date of Petitioners’
Verified Petition and Complaint, (3) denying
Respondents’ cross-motion, in particular the portion
seeking a protective order; and (4) for such other
and further relief as this Court deems just and
proper.
Dated: New York, New York
November 18, 2020
MORRISON COHEN LLP
By:

/s/ Y. David Sharf
Y. David Scharf
David B. Saxe
Danielle C. Lesser
Collin A. Rose
909 Third Avenue
New York, New York 10022
(212) 735-8600
and

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

179a
ARNOLD & PORTER KAYE SCHOLER LLP
By:

/s/ James M. Catterson
James M. Catterson
250 West 55th Street
New York, NY 10019
(212) 836-8000

Attorneys for Petitioners-Plaintiffs

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

180a

EXHIBIT 2

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

181a
SUPREME COURT OF
THE STATE OF NEW YORK
COUNTY OF SUFFOLK

__________
Index No. 616980/2020
NOTICE OF
MOTION/CROSS MOTION

__________
In the Matter of the Application of
H ON . E LLEN G ESMER , H ON . D AVID F RIEDMAN ,
H ON . S HERI S. R OMAN , H ON . J OHN M.
L EVENTHAL , and, D ANIEL J. T AMBASCO ,
Petitioners-Plaintiffs,
For a Judgment under Article 78 of the CPLR
—against—
T HE A DMINISTRATIVE B OARD OF THE N EW
Y ORK S TATE U NIFIED C OURT S YSTEM , J ANET
D I F IORE , AS C HIEF J UDGE OF THE N EW Y ORK
S TATE U NIFIED C OURT S YSTEM , and L AWRENCE
K. M ARKS , AS C HIEF A DMINISTRATIVE J UDGE OF
THE N EW Y ORK S TATE U NIFIED C OURT S YSTEM ,
Respondents-Defendants.

__________
PLEASE TAKE NOTICE that, upon the
accompanying memorandum of law, the Affidavit
of Lawrence K. Marks, the Affirmation of

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

182a
Elizabeth Forman, and all prior pleadings and
proceedings herein, the undersigned, on behalf of
Respondents The Administrative Board of the New
York State Unified Court System, Janet DiFiore,
as Chief Judge of the New York State Unified
Court System, and Lawrence K. Marks, as Chief
Administrative Judge of the New York State Unified
Court System will move/cross move this Court at
the Supreme Court of the State of New York,
Suffolk County, One Court Street, Riverhead, New
York on December 7, 2020 at 9:30 a. m. or such
other time and date to be determined by the Court,
for (1) an order, pursuant to CPLR 506, 510 and 511
for a change of venue; (2) for an order pursuant to
CPLR 3211 dismissing this proceeding for failure
to state a claim upon which relief may be granted,
and further as against petitioner Daniel J. Tambasco
for lack of standing; and (3) for reconsideration
pursuant to CPLR 222l(d) and (e) of this Court’s
Order to Show Cause, dated November 5, 2020,
and seeking a protective order pursuant to CPLR
3103(a), and for such other relief as the Court
deems just and proper.
Dated: New York, New York
November 13, 2020
EILEEN D. MILLETT
Attorney for Respondents
Office of Court Administration
25 Beaver Street, 11th floor
New York, New York 10004
(212) 428-2150
By:

86894 • HERZBERG • APPENDIX L (WAS APPX M)

Elizabeth A. Forman
Elizabeth A. Forman,
Deputy Counsel

AL 5/7/21

183a
TO: James Catterson, Esq.
Arnold & Porter Kaye Scholer
250 West 55th Street
New York, New York 10019-9710
Y. David Scharf, Esq.
Morrison Cohen, LLP
909 Third Avenue
New York, New York 10022

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

184a

EXHIBIT 3

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

185a
From:
Sent:
To:
Cc:

Lesser, Danielle
Tuesday, November 17, 2020 2:27 PM
Elizabeth Forman
V. David Scharf; Catterson, James M.;
Saxe, David B; Rose, Collin A.
Subject: NOTICE OF IN PERSON
PRESENTATION OF ORDER TO SHOW
CAUSE-Gesmer v. The Administrative
Board Index. No. 616980/2020
Dear Liz:
This e-mail constitutes notice that tomorrow
afternoon, at 2 PM, Petitioners intend to present a
motion to the Supreme Court, Suffolk County, by
order to show cause, requesting that the Court
hold Respondents in contempt for their failure to
comply with the Court’s signed Order, dated
November 5, 2020. Petitioners will be appearing in
person at the Suffolk County courthouse to present
this motion. Counsel will present the application
to Justice Paul J. Baisley, Jr. at the courthouse
located at 1 Court Street, Riverhead, NY 11901.
Thank you
Danielle C. Lesser
Morrison Cohen LLP
909 Third Avenue
New York, New York 10022
(212) 735-8702 (0)
(917) 522-3102 (direct fax)
(212) 735-8708 (main fax)
dlesser@morrisoncohen.com
Website: www.morrisoncohen.com

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

186a
SUPREME COURT OF
THE STATE OF NEW YORK
COUNTY OF SUFFOLK

__________
Index No. 616980/2020

__________
In the Matter of the Application of
H ON . E LLEN G ESMER , H ON . D AVID F RIEDMAN ,
H ON . S HERI S. R OMAN , H ON . J OHN M.
L EVENTHAL , and D ANIEL J. T AMBASCO ,
Petitioners-Plaintiffs,
For a Judgment under Article 78 of the CPLR
—against—
T HE A DMINISTRATIVE B OARD OF THE N EW
Y ORK S TATE U NIFIED C OURT S YSTEM , J ANET
D I F IORE , AS C HIEF J UDGE OF THE N EW Y ORK
S TATE U NIFIED C OURT S YSTEM , and L AWRENCE
K. M ARKS , AS C HIEF A DMINISTRATIVE J UDGE OF
THE N EW Y ORK S TATE U NIFIED C OURT S YSTEM ,
Respondents-Defendants.

__________
AFFIRMATION OF DANIELLE C. LESSER
DANIELLE C. LESSER, an attorney duly
admitted to practice before the Courts of this

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

187a
State, affirms the following to be true under
penalties of perjury:
1.
I am a member of Morrison Cohen LLP,
attorneys for Petitioners-Plaintiffs-Appellants Hon.
Ellen Gesmer, Hon. David Friedman, Hon. Sheri S.
Roman, Hon. John M. Leventhal (collectively, the
“Petitioner Justices”), and Daniel J. Tambasco
(together with the Petitioner Justices, the
“Petitioners”), and as such I am familiar with the
facts set forth herein. I respectfully submit this
affirmation in support of Petitioners’ motion to
hold Respondents in civil contempt for failing to
comply with this Court’s signed Order to Show
Cause, dated November 5, 2020 (the “Order”), which
authorized the Petitioners to move forward with
expedited discovery, including document demands
and notices of deposition for Respondent Chief
Judge DiFiore and Respondent Chief Administrative
Judge Marks.
2.
On November 4, 2020, my colleague, Y.
David Scharf, informed Respondents of Petitioners
intent to present a verified petition and complaint,
along with a motion seeking expedited discovery,
by way of order to show cause at this Court at 1
Court Street, Riverhead, New York, at 2 PM on
November 5, 2020. A copy of this e-mail is attached
hereto as Exhibit 1.
3.
On November 5, 2020, Petitioners presented
their order to show cause and supporting
materials, resulting in this Court’s Order, which,
among other things, granted Petitioners’ request
to move forward with expedited discovery, including document requests and notices of deposition
that Petitioners had annexed to their order to

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

188a
show cause. Respondents did not contact
Petitioners or appear on November 5, 2020,
despite advanced notice.
4.
On November 6, 2020, Petitioners sent
their order to show cause and supporting
documents, along with this Court’s signed Order,
to Respondents by e-mail, as required by the
Order. A copy of this e-mail is attached hereto as
Exhibit 2. Petitioners attempted to personally
serve Respondents with these papers as well, but
were unable to serve the Administrative Board
and Chief Administrative Judge Marks, as the
Office of Court Administration (OCA), located at
25 Beaver Street, New York, New York 10004, was
closed due to the ongoing COVID-19 pandemic.
5.
On November 10, 2020, my colleague,
Collin A. Rose, served counsel for Respondents
with the document requests and notices of
deposition that had already been annexed to
Petitioners’ original order to show cause. A copy of
this e-mail is attached hereto as Exhibit 3.
Petitioners did not respond to this e-mail.
6.
On November 12, 2020, after several more
attempts to personally serve Chief Administrative
Judge Marks and the Administrative Board, my
colleague, Collin A. Rose, sent Respondents’ counsel
a request for them to accept personal service. A
copy of this e-mail is attached hereto as Exhibit 4.
Respondents’ counsel did not respond despite the
fact that Respondent had filed an Affidavit of
Service of Demand for Change of Venue on
November 10, 2020.
7.
On November 13, 2020, the date by which
Respondents were supposed to have responded to

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

189a
Petitioners’ document requests, Respondents’
counsel reached out and requested to discuss
discovery, stating that it was “unnecessary, overbroad, burdensome and improper.”
8.
Following Respondents’ counsel’s outreach,
we exchanged e-mails. In one of these emails, Ms.
Forman admonished Petitioner’s counsel for
contacting Chief Judge DiFiore’s office. In fact, all
that occurred was a managing clerk of my law had
contacted the New York Court of Appeals for the
sole purpose of arranging the logistics for the
deposition of Chief Judge DiFiore to take place at
the Court of Appeals, consistent with the notice of
deposition that had already been noticed on Chief
Judge DiFiore. Ultimately, we were informed that
there was no one who could assist in setting up a
conference room to hold the deposition in and were
directed to contact Respondents’ counsel for further
assistance. After an e-mail exchange explaining
these circumstances, I spoke with Respondents’
counsel, Elizabeth Forman, Esq., Deputy Counsel
for the Office of Court Administration. The emails
leading up to our phone call are attached as
Exhibit 5.
9.
In the beginning of our call, Respondents’
counsel admitted that, contrary to her assertion in
a prior e-mail, that her failure to not appear was
not as a result of a lack of notice from Petitioners,
which she conceded was provided but rather her
own “screw-up” in expecting that the proceedings
would be virtual and that Petitioners would provide
additional details beyond those already provided
on November 4, 2020, the day before Petitioners
moved this Court by order to show cause.

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

190a
10. With respect to Petitioners’ document
requests, Respondents’ counsel first maintained in
our call that this Court’s Order did not authorize
Petitioners to receive document discovery from
Respondents. Moreover, Respondents’ counsel
maintained that that the document requests were
overbroad and irrelevant to any of the claims, and
stated that Petitioners’ counsel was being
purposefully abusive towards OCA. Alternatively,
Respondents’ counsel maintained that if there was
to be discovery, it needed to wait until after
December 7, 2020, the return date of Petitioners’
Verified Petition and Complaint.
11. I advised Ms. Forman that delaying
discovery until December 7, 2020, not only would
defeat the purpose of this Court’s Order, but would
eliminate Petitioners’ ability to litigate their
underlying claims, which will be mooted if the
Petitioner Justices are made to retire in December
2020.
12. Over the course of the call, when
Respondents’ counsel attempted to identify specific
categories of documents that she would be unable
to produce, she identified budgetary documents,
deliberative documents, any documents concerning
the appointment of Court of Claims justices, and
all electronically-stored information (ESI) as being
unable to be produced and said that production
would be “practically impossible” and could take
“two years” to gather.
13. Of course, withholding these categories of
documents would entirely defeat the purpose of
Petitioners’ document requests. This is particularly
so with regard to Ms. Forman’s intention to
withhold ESI, which would mean that OCA would

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

191a
produce no electronically stored documents, the
methodology in general use for the transmission
and maintenance of communications and other
documents. OCA’s offices are closed in the wake of
the COVID-19 pandemic, and therefore actual
paper copies of responsive documents are probably
nonexistent.
14. In response to Respondents’ counsel’s
concerns, I offered to reexamine and narrow
Petitioners’ specific document requests if Respondents could produce anything they had already
gathered at the time of the call. Respondents’
counsel insisted that they were not prepared to
produce anything that day, other than the
Certification Memorandum issued by Respondents
on September 29, 2020, a publicly-available
document.
15. Understanding that Respondents did not
intend to produce any documents, I then asked
Respondents’ counsel where and when Chief Judge
DiFiore would like to be deposed, since
Respondents’ notice of deposition stated that she
was to be deposed on Monday, November 16, 2020,
and we were willing to arrange for the deposition
in Albany or in Westchester. Respondents’ counsel
maintained that she did not have the authority to
respond but that she did not expect Chief Judge
DiFiore to be available on Monday, November 16,
2020. Respondents’ counsel did not provide any
alternative dates or locations for Chief Judge
DiFiore to be deposed, instead seemingly maintaining that Chief Judge DiFiore would not appear
for a deposition at all. Instead, Respondents’
counsel indicated that she would e-mail us with
additional information concerning Chief Judge

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

192a
DiFiore’ s deposition later that day. Respondents’
counsel has not provided any further information
to date.
16. I then asked Respondents’ counsel the same
question with respect to Chief Administrative Judge
Marks and his scheduled deposition on Wednesday,
November 18, 2020. Respondents’ counsel stated
that she had not spoken to Chief Administrative
Judge Marks and had no information to impart.
17. Following our call, I sent to Respondents’
counsel an e-mail meant to confirm that (1)
Respondents did not produce any documents as of
November 13, 2020, and Respondents believed that
document discovery should be postponed until
after the Verified Petition and Complaint’s return
date, and (2) Respondents’ counsel did not have
the authority to say where and when Chief Judge
DiFiore would prefer to be deposed but that she
would not expect Chief Judge DiFiore to be
available for a deposition on Monday. Respondents’
counsel responded on Saturday, November 14,
2020, indicating that my e-mail did not accurately
state Respondents’ position.
18. On Sunday, November 15, 2020, Ms. Forman
replied further with a ponderous email. Attached
as Exhibit 6 is a copy of this email chain. She
cited her stated (and mistaken) belief, without
providing any legal support, that OCA’s motion for
a protective order trumped this Court’s expedited
discovery order. She also offered that her office
could, “if discovery is ordered, be able to produce,
in short order, non-deliberative final budgetary
materials,” which are, of course, freely available
on the internet and of no help at all. Ms. Forman

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

193a
further stated, in conclusory fashion, apparently
having weighed and pre-determined all the legal
arguments herself, that “More importantly, the
particulars of that [budgetary] calculation are
immaterial, because it is beyond dispute that cost
is a legitimate reason not to certificate, and that
certification of judges is a financial cost to UCS.”
Finally, Ms. Forman emphasized her belief that
the depositions of Chief Judge DiFiore and Chief
Administrative Judge Marks, noticed for this
week, are “stayed by our motions” and that, in any
event, both would not be available for depositions.
19. Respondents’ actions demonstrate their
outright rejection of this Court’s signed Order,
which compelled the very same discovery the
Respondents now are attempting to delay and
defeat.
Dated: New York, New York
November 18, 2020
/s/ Danielle C. Lesser
DANIELLE C. LESSER

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

194a

EXHIBIT 1

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

195a
From:

Nicolo, Carmela on behalf of Y. David
Scharf
Sent:
Wednesday, November 4, 2020 3:39 PM
To:
Y. David Scharf; jdifiore@nycourts.gov;
lmarks@nycourts.gov
Cc:
James.Catterson@arnoldporter.com
Subject: Sent per the request of Y. David Scharf
This firm and Arnold & Porter Kaye Scholer LLP
are counsel to Justices Gesmer, Friedman,
Levanthal, Roman and Mr. Dan Tambasco. On
their behalf, we will be presenting a verified
petition and complaint together with a motion seeking expedited discovery naming as respondents the
Administrative Board, Judge Janet DiFiore and
Judge Marks, to the Supreme Court, Suffolk
County, located at 1 Court Street, Riverhead, New
York at 2 pm tomorrow.
Thank you.
Y. David Scharf
Chair and Co-Managing Partner
Morrison Cohen LLP
909 Third Avenue
New York, NY 10022
direct phone 212-735-8604
direct fax 917-522-3104
cell phone 917-754-0484
general fax 212-735-8708
email dscharf@morrisoncohen.com

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

196a

EXHIBIT 2

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

197a
From:

Nicolo, Carmela on behalf of
Y. David Scharf
Sent:
Friday, November 6, 2020 4:46 PM
To:
jdifiore@nycourts.gov;
lmarks@nycourts.gov;
question@nycourts.gov
Cc:
James.Catterson@arnoldporter.com;
Y. David Scharf
Subject:
E-mail on Behalf of David
Attachments: Article 78 (Certification).zip
As you know, this firm and Arnold & Porter Kaye
Scholer LLP are counsel to Justices Gesmer,
Friedman, Levanthal, Roman and Mr. Dan
Tambasco. Please see attached the papers we filed
yesterday in connection with our verified petition
and complaint and motion brought on by order to
show cause for expedited relief, which names the
Administrative Board, Chief Judge Janet DiFiore,
and Chief Administrative Judge Marks as
respondents.
Y. David Scharf
Chair and Co-Managing Partner
Morrison Cohen LLP
909 Third Avenue
New York, NY 10022
direct phone 212-735-8604
direct fax 917-522-3104
cell phone 917-754-0484
general fax 212-735-8708
email dscharf@morrisoncohen.com

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

198a

EXHIBIT 2

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

199a
From:

Nicolo, Carmela on behalf of
Y. David Scharf
Sent:
Friday, November 6, 2020 4:46 PM
To:
jdifiore@nycourts.gov;
lmarks@nycourts.gov;
question@nycourts.gov
Cc:
James.Catterson@arnoldporter.com;
Y. David Scharf
Subject:
E-mail on Behalf of David
Attachments: Article 78 (Certification).zip
As you know, this firm and Arnold & Porter Kaye
Scholer LLP are counsel to Justices Gesmer,
Friedman, Levanthal, Roman and Mr. Dan
Tambasco. Please see attached the papers we filed
yesterday in connection with our verified petition
and complaint and motion brought on by order to
show cause for expedited relief, which names the
Administrative Board, Chief Judge Janet DiFiore,
and Chief Administrative Judge Marks as
respondents.
Y. David Scharf
Chair and Co-Managing Partner
Morrison Cohen LLP
909 Third Avenue
New York, NY 10022
direct phone 212-735-8604
direct fax 917-522-3104
cell phone 917-754-0484
general fax 212-735-8708
email dscharf@morrisoncohen.com

86894 • HERZBERG • APPENDIX L (WAS APPX M)

AL 5/7/21

